<html>
<title> - TEN YEARS AFTER 9/11: CAN TERRORISTS STILL EXPLOIT OUR VISA SYSTEM?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






  TEN YEARS AFTER 9/11: CAN TERRORISTS STILL EXPLOIT OUR VISA SYSTEM?

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON BORDER AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 13, 2011

                               __________

                           Serial No. 112-43

                               __________

       Printed for the use of the Committee on Homeland Security
                                     



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
72-930 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Mike Rogers, Alabama                 Henry Cuellar, Texas
Michael T. McCaul, Texas             Loretta Sanchez, California
Paul C. Broun, Georgia               Sheila Jackson Lee, Texas
Ben Quayle, Arizona, Vice Chair      Brian Higgins, New York
Scott Rigell, Virginia               Hansen Clarke, Michigan
Jeff Duncan, South Carolina          Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)

                      Paul Anstine, Staff Director
                   Diana Bergwin, Subcommittee Clerk
            Alison Northrop, Minority Subcommittee Director












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security..........................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     7

                               Witnesses

Mr. Thomas Winkowski, Assistant Commissioner, Office of Field 
  Operations, U.S. Customs and Border Protection, Department of 
  Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11
Mr. Edward J. Ramotowski, Deputy Assistant Secretary, Acting, 
  Bureau of Consular Affairs, U.S. Department of State:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. John D. Cohen, Deputy Counter-Terrorism Coordinator, 
  Department of Homeland Security:
  Oral Statement.................................................    24
  Prepared Statement.............................................    25
Mr. Peter T. Edge, Deputy Associate Director, Homeland Security 
  Investigations, Immigration and Customs Enforcement, Department 
  of Homeland Security:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32
Mr. Richard M. Stana, Director, Homeland Security and Justice, 
  Government Accountability Office:
  Oral Statement.................................................    36
  Prepared Statement.............................................    38

                                Appendix

The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security:
  Slide..........................................................    53

 
  TEN YEARS AFTER 9/11: CAN TERRORISTS STILL EXPLOIT OUR VISA SYSTEM?

                              ----------                              


                      Tuesday, September 13, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, McCaul, Quayle, Rigell, 
Duncan, Cuellar, Clarke, and Thompson (ex officio).
    Also present: Representative Bilirakis.
    Mrs. Miller. I am going to call the hearing in order here 
this morning. Of course this is the Committee on Homeland 
Security, Subcommittee on Border and Maritime Security. I think 
we have a very interesting, interesting and critically 
important topic to discuss this morning. The title of our 
hearing is ``Ten Years After 
9/11: Can Terrorists Still Exploit Our Visa System?''
    We will be hearing testimony from a fantastic distinguished 
panel whom I will be introducing in a moment. As I make my 
opening statement you may want to take a look at some of the 
pictures that we are going to have up on the screen of various 
terrorists, murderers, cowards, cockroaches, however you want 
to categorize these individuals that overstayed their visas.
    So 2 days ago of course we commemorated the 10th 
anniversary of the devastating acts perpetrated by these 
cowardly terrorists who took the lives of nearly 3,000 of our 
fellow citizens. As a Nation most of us had not really heard 
before of al-Qaeda before that day despite their contributions 
which funded the 1993 attacks on the World Trade Center, fatwa 
that had declared war against our Nation in 1996, the bombing 
of our embassies in Kenya and Tanzania in 1998, and of course 
the bombing of the U.S.S. Cole in 2000. Despite these attacks 
we were really not prepared and certainly our countrymen paid a 
horrific price.
    In Article I, Section 8 we find the enumerated powers of 
Congress, and in the first paragraph of that section you find 
what, in my opinion, is certainly the first and foremost 
responsibility of the Federal Government, and that is to 
provide for the common defense. The very purpose of this 
committee is aligned with this principal responsibility of the 
Government and to guard against another attack.
    Photographs along our wall in this committee hearing room 
certainly remind us of our purpose to defeat al-Qaeda and like-
minded groups and to defend our homeland, which includes of 
course securing our borders.
    On that day in September we learned a very hard lesson as a 

9/11 Commission has noted. For terrorists, they said, travel 
documents are as important as weapons and four of the 9/11 
hijackers had overstayed visas, a missed opportunity to prevent 
the attacks.
    Since September 11, we have put a series of measures in 
place to strengthen our visa security process and today have a 
layered approach that begins overseas at the U.S. embassies and 
consulates around the world which pushes our border out to 
deter and prevent visa fraud and terrorists from obtaining 
travel documents. Immigration and Customs Enforcement agents 
and Customs and Border Protection officers are now stationed 
overseas to conduct additional background checks on prospective 
visa applicants. Certainly while this system is an improvement 
over what was in place before 9/11, it is by no means perfect. 
We will be exploring today what we can do to improve our 
system.
    Our enemies are intent on attacking our country and are 
actively seeking to avoid our countermeasures. Our job is to be 
one step ahead instead of constantly reacting to their last 
attack.
    In the case of the Christmas day bomber--I see his picture 
there--it certainly illustrates the lengths terrorists will go 
to thwart our security measures. The Christmas day bomber was 
known to the intelligence community. His father had approached 
the embassy in Nigeria with his concerns that his son may be 
involved in terrorism. But still he was able to fly on a valid 
U.S. visa. He tried to detonate his concealed explosive device 
7 minutes before the plane was to land in Detroit. Of course I 
reside in the Detroit area, fly in and out of that airport, 
just flew out of it yesterday, which would have placed that 
plane certainly over my Congressional district, over southeast 
Michigan. So I am especially interested to hear from our 
witnesses today about the progress we have made to ensure that 
another known person of concern cannot board an aircraft with a 
valid U.S. visa.
    Last week before the full committee, Ranking Member Cuellar 
and I were just talking, we heard from Representative Lee 
Hamilton and former Secretary Tom Ridge regarding the progress 
of the 9/11 Commission recommendations. The report recommended 
and Congress mandated a biometric exit program to ensure that 
foreign visitors have not overstayed their visa and have 
returned home. However, this administration has still not 
articulated the way forward on this vital program.
    The U.S. Visitor and Immigration Status Indicator 
Technology, or US-VISIT as they call it, captures foreign 
nationals' fingerprints at the port of entry and at U.S. 
consulates overseas in instances where the individual is 
traveling on a visa. The fingerprints are then recorded and 
compared with fingerprints already in the Federal database to 
check for immigration violators, criminals, and others wanted 
for violation of U.S. laws.
    In 2009, US-VISIT conducted an exit pilot project at the 
Detroit and Atlanta airports and generated 175 watch lists and 
more than 120 visa overstay hits. So I think if we are serious 
about controlling who comes into our Nation and preventing 
another attack, we need to get serious about an exit program. 
It has been more than 2 years since the pilot, and the 
Department again has yet to articulate a program or plan to 
move forward with a comprehensive exit plan in the air 
environment or elsewhere.
    More than just preventing terrorists from entering the 
country, the lack of a visa exit program inhibits our ability 
to control our border. I think it is an interesting statistic 
that in this country as we talk about illegal immigrants and 
how many are here in our country, it is interesting to note 
that it is theorized that about 40 percent of everyone who is 
here illegally didn't come across the border. They are here 
because of overstay of visas, 40 percent. That is a very 
startling number.
    Today there is a backlog of 757,000 unvetted visa overstay 
records. So we obviously have to do better than that, and I 
will be very interested as our hearing progresses about talking 
about this backlog, what we are doing to ensure that we don't 
have such as backlog in the future.
    ICE pursues only a small fraction of these visa 
overstayers. By not seriously enforcing visa overstays, we are 
sending a message that if you make it past the port of entry, 
the chances of us ever finding you are slim to none. ICE 
enforcement memos put an additional question mark over our 
enforcement efforts there.
    We do know that terrorists have a very strong affinity for 
using a student visa process to enter the country, as earlier 
this year a young man from Saudi Arabia purposely sought out a 
program that would allow him to come to the United States as a 
student. Then of course he has been accused of purchasing 
chemicals that he intended to use to construct an IED.
    So we have a lot of questions about this, and certainly our 
visa security process needs to be robust. We have to deny 
terrorists the freedom of movement because 10 years ago we saw 
what failure looked like very unfortunately on that horrific 
day which we all commemorated just this past Sunday.
    [The statement of Mrs. Miller follows:]
           Prepared Statement of Chairwoman Candice S. Miller
                           September 13, 2011
    Two days ago we commemorated the 10th anniversary of the 
devastating acts perpetrated by cowardly terrorists who took the lives 
of nearly 3,000 of our fellow citizens.
    As a Nation, most of us had not heard of al-Qaeda despite their 
financial contributions which funded the 1993 attacks on the World 
Trade Center, fatwa that declared war against our Nation in 1996, the 
bombing of our embassies in Kenya and Tanzania in 1998 and the bombing 
of the U.S.S. Cole in 2000. Despite these attacks, we were not 
prepared, and our countrymen paid the price.
    In Article I Section 8, we find the enumerated powers of Congress, 
and in the first paragraph of that section you find what is, in my 
opinion, the principal responsibility of the Federal Government--to 
provide for the common defense.
    The very purpose of this committee is aligned with the principal 
responsibility of the Government--to guard against another attack. 
Photographs along the wall here in the hearing room remind us of our 
purpose--to defeat al-Qaeda and like-minded groups and defend the 
homeland.
    On that day in September, we learned a hard lesson--as the 9/11 
Commission noted, ``For terrorists, travel documents are as important 
as weapons.'' Four of the 9/11 hijackers had overstayed visas--a missed 
opportunity to prevent the attacks.
    Since September 11 we have put a series of measures in place to 
strengthen our visa security process. Today, we have a layered approach 
that begins overseas at U.S. Embassies and Consulates around the world 
which pushes our border out to deter and prevent visa fraud, and 
terrorists from obtaining travel documents.
    Immigrations and Customs Enforcement agents and Customs and Border 
Protection officers are now stationed overseas to conduct additional 
background checks on prospective visa applicants.
    While this system is an improvement over what was in place before 
September 11, it is by no means perfect.
    Our enemies are intent on attacking our country, and are actively 
seeking to avoid our counter measures. Our job is to be one step ahead, 
instead of constantly reacting to their last attack.
    The case of Umar Farouk Abdulmutallab illustrates the lengths 
terrorists will go to thwart our security measures.
    The Christmas day bomber was known to the intelligence community, 
his father had approached the Embassy in Nigeria with his concerns that 
his son might be involved in terrorism, but he was able to fly on a 
valid U.S. visa.
    Abdulmutallab tried to detonate his concealed explosive device 7 
minutes before the plane was to land in Detroit--which would have 
placed that plane over my Congressional district. I am especially 
interested to hear from our witnesses about the progress we have made 
to ensure that another known person of concern cannot board an aircraft 
with a valid U.S. visa.
    The 9/11 Commission report recommended and Congress mandated a 
biometric exit program to ensure that foreign visitors have not 
overstayed their visa and have returned home.
    The U.S. Visitor and Immigrant Status Indicator Technology, or US-
VISIT captures foreign nationals' fingerprints at the port of entry and 
at U.S. Consulates overseas in instances where the individual is 
traveling on a visa. The fingerprints are then recorded and compared 
with fingerprints already in Federal databases to check for immigration 
violators, criminals, and others wanted for violations of U.S. laws.
    In 2009, US-VISIT conducted an exit pilot project at the Detroit 
and Atlanta airports and generated 175 watch list and more than 120 
visa overstays hits. However, full deployment of an exit program is 
being delayed due to space and infrastructure constraints, and the 
remaining question of how to limit disruption to the flow of people and 
commerce into the United States. The Bipartisan Policy Center 9/11 
Report Card lists this recommendation as ``unfulfilled''.
    If we are serious about controlling who comes into the Nation and 
preventing another 9/11 attack, we need to get serious about an exit 
program. It has been more than 2 years since the pilot and the 
Department has yet to articulate a plan to move forward with a 
comprehensive exit plan in the air environment or elsewhere.
    More than just preventing terrorists from entering the country, the 
lack of a visa exit program inhibits our ability to control the border. 
Nearly 40% of all illegal aliens do not sneak across the border in the 
dark of night; they walk through the front door, and never leave.
    Today, there is a backlog of 757,000 unvetted visa overstay 
records. We can and must do better than that. I will be interested in 
hearing about our progress on this backlog and what we are doing to 
ensure that we do not have such a backlog in the future.
    Immigration and Customs Enforcement pursues only a small fraction 
of these visa overstayers. By not seriously enforcing visa overstays, 
we are sending the message that if you make it past the port of entry, 
the chances of us ever finding you are slim to none.
    We know that terrorists have a strong affinity for using the 
student visa process to enter the county as earlier this year a young 
man from Saudi Arabia purposely sought out a program that would allow 
him to come to the United States as a student. He stands accused of 
purchasing chemicals he intended to use to construct an Improvised 
Explosive Device (IED).
    I am sure my colleague, Mr. Bilirakis will have some questions for 
the witnesses on the status of our efforts in this area.
    Our visa security process must be robust, and we must deny 
terrorists the freedom of movement because 10 years ago we saw what 
failure looked like.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mrs. Miller. At this time the Chairwoman would now 
recognize the Ranking Minority Member of the subcommittee, the 
gentleman from Texas, Mr. Cuellar, for his opening statement.
    Mr. Cuellar. Thank you, Chairwoman Miller, for holding this 
committee hearing. I also want to thank the Ranking Member of 
the full committee for the work that he has done in the past on 
this issue. I am pleased that the subcommittee is meeting today 
to examine the issues of visa security, which is particularly 
appropriate as we recently marked the tenth anniversary of the 
terrorist attacks of September 11, 2001.
    The 9/11 hijackers did not sneak into this country, did not 
cross a river, the Rio Grande, but rather entered the United 
States on visas. More recently the attempted bombing of an 
airline by Umar Farouk on Christmas day 2009 refocused 
attention on the vulnerabilities in the visa process.
    Since 2001, the Department of Homeland Security and 
Department of State, with direction from Congress, have taken 
important steps to strengthen visa security, including efforts 
to identify and enforce overstays, individuals who are admitted 
to the United States legally either with or without a visa but 
then overstay their authorized period of admission. Of the 
approximately 11.5 million to 12 million unauthorized resident 
alien populations, the most recent estimates proposed that it 
is about 33 to 48 percent are overstays. That is almost 50 
percent of all the people that got here, again I emphasize did 
not cross the Rio Grande but actually came in through a visa 
and overstayed.
    Five of the 19 September 11, 2001 hijackers were overstays. 
There should be no argument against about the vital importance 
of the work completed by the Immigration and Customs 
Enforcement, ICE, and the Counterterrorism and Criminal 
Exploitation Unit, the CTCEU, whose primary responsibility is 
overstay enforcement.
    In addition to the CTCEU overstay investigations, the 
primary responsibility for apprehending and removing overstays 
as well as aliens who did not have lawful immigration status 
rests with ICE, the Enforcement Removal Operation, the ERO. It 
is my understanding certain individuals subject to orders were 
removal from the United States are often delayed due to the 
respective host government relations with the United States and 
members.
    Madam Chairwoman, I will have a handout on this, an 
overhead to go over this, and ask the witnesses on this 
particular issue. Consequently host countries refuse to accept 
the return of the nationals or use lengthy delay tactics. I 
know this is an issue that I sat down with John Morton in the 
State Department trying to get the State Department to move a 
little faster on this particular issue. I look forward to 
hearing more from the State and GAO about the U.S. former 
relations with these recalcitrant countries and why visas 
continue to be issued to individuals from such countries, and 
at what rate and as well as recommended steps for improvement 
and actions being taken. Again, Members, I would ask you to 
look at this particular issue as we talk about this.
    Also within DHS and ICE, ICE has stood up a visa security 
unit, the VSUs, at high-risk visa issuing posts. It is my 
understanding, I might be wrong, but it is my understanding 
that historically there has been some tension between ICE and 
State regarding getting new VSUs established and hopefully we 
have gone beyond that turf battle. I hope to hear from the two 
agencies about whether they have made progress in overcoming 
those obstacles.
    Customs and Border Protection also plays an important role 
in preventing terrorist travel to the United States. They have 
established the Immigration Advisory Program Units at key 
overseas airports to help screen travelers to the United 
States. Also I visited the CBP's National Targeting Center and 
I have seen the good work that they are doing along with their 
interagency partners, prescreening individuals en route to the 
country.
    Many believe that given its security missions and resources 
DHS should play an even greater role in the visa processes. At 
a minimum we need to make most of our limited visa security 
resources and ensure that all agencies are doing their part.
    I look forward to hearing from our DHS and State witnesses 
about how their agencies can work cooperatively to prevent 
those who would seek to do us harm from traveling to the United 
States.
    It is worth noting that despite all the attention of the 
vulnerabilities along the Southern border, and again I 
emphasize to Members, an estimated 40 to 48 percent, as the 
Chairwoman said, of those currently in the United States 
illegally entered legally through the proverbial front door but 
have overstayed, again visas legally into the United States but 
overstayed, not crossing the Rio Grande.
    We know that the overwhelming majority of those who enter 
the country do so for legitimate purposes. Even those who enter 
the country illegally or enter legally but overstay the 
majority mean this country no harm. But nevertheless those 
people have overstayed and violated the law.
    However, a decade after 9/11 the fact remains that there 
are terrorists and others who seek to enter the United States 
for purposes to hurt us and our communities. So I look forward 
to a good, frank dialogue on this important Homeland Security 
matter, and I thank the Chairwoman Miller for holding this 
important hearing and the witnesses for joining us here today.
    Thank you.
    Mrs. Miller. I thank the gentleman. Before I recognize the 
Ranking Member of the full committee I would ask unanimous 
consent that the gentleman from Florida, Mr. Bilirakis, who is 
the Chair of the committee's Subcommittee on Emergency 
Preparedness, Response, and Communications, be permitted to sit 
on the dais and participate in today's hearing.
    Without objection, so ordered.
    At this time the Chairwoman would recognize the Minority 
Ranking Member of the full committee, the gentleman from 
Mississippi, Mr. Thompson, for his opening statement.
    Mr. Thompson. Thank you very much, Madam Chairwoman. I 
appreciate you holding this hearing. I also welcome our panel 
of witnesses.
    In the aftermath of the September 11 attacks, Congress 
recognized the importance of securing the visa process and 
required it to be used as a counterterrorism tool. Since that 
time the Departments of Homeland Security and State have made 
important strides toward better securing the visa and passenger 
prescreening processes for travelers to the United States, 
efforts including establishing visa security units at high-risk 
embassies and consulates, deploying immigration advisory 
program personnel at foreign airports and enhancing 
prescreening of airline passengers before they arrive in the 
United States. However, the attempted bombing of Northwest 
flight 253 on Christmas day 2009, by an individual with a valid 
U.S. visa served as a wake-up call about the persistent visa 
security vulnerabilities.
    During the 111th Congress, the Committee on Homeland 
Security and this subcommittee held hearings to examine the 
circumstances surrounding the attempted Christmas day bombing. 
From our examination of the chain of events leading up to the 
incident, it is clear that there were several failures that 
allowed the perpetrator to board the U.S.-bound flight.
    Today I look forward to hearing what progress has been made 
in closing those security gaps since that incident nearly 2 
years ago. I also hope to hear that DHS and the State 
Department have taken proactive measures to address possible 
emerging threats to visa security. I have long held that we 
must develop a layered security approach that pushes borders 
out and begins the screening process far in advance of a 
passenger boarding a flight in this country.
    Both DHS and the State Department have vital roles to play 
in this effort. Clearly defined responsibility and close 
coordination between the departments are essential to success. 
I want to hear from the witnesses today whether the turf 
battles between the departments are now a thing of the past or 
if they still linger. I certainly hope it is the former and not 
the latter.
    Of course these security efforts require appropriate 
personnel and resources and that in turn requires adequate 
funding. Members of Congress who talk a good game on border 
security will need to put their money where their mouths are 
when it comes to funding these programs, even in tight 
budgetary times.
    Just as we must ensure the security of the visa process for 
those entering the United States, we must also ensure 
individuals depart this country in a timely manner. As already 
indicated, over 40 percent of the persons unlawfully present in 
the United States enter this country legally and have 
overstayed. Among those millions of people may be a handful of 
those who seek to do us harm.
    In accordance with the 9/11 Commission recommendations, 
Congress has repeatedly required DHS to deploy a biometric 
entry-exit system under US-VISIT to attract visitors to the 
United States. Yet a decade after September 11, 2001, we are no 
closer to having such a system than we were on that fateful 
day. Some of us read the paper this morning and I guess 
somebody is going to tell us something new about that in this 
hearing. I look forward to hearing that. The lack of progress 
toward this mandate under this administration and its 
predecessors is simply unacceptable. I hope to hear from our 
witnesses about how DHS can fully fulfill our 9/11 Commission 
recommendations and Congressional mandates. We will never truly 
have visa security until an entry-exit system is completed.
    I thank the witnesses for being here today and I look 
forward to their testimony. I yield back.
    Mrs. Miller. I thank the gentleman for his comments. It is 
interesting to note that the administration is going to be 
making an announcement about this issue based on the fact that 
we are having a hearing about it. So I sometimes think it is 
exactly what Congress needs to be doing, exercising its 
oversight responsibilities to get some action on various 
things.
    What I will do is go through and read the bios of our very 
distinguished panel, and we appreciate you all coming. We can 
go through rather than interrupting each time.
    First Mr. Thomas Winkowski, who is the Assistant 
Commissioner from the Office of Field Operations, U.S. Customs 
and Border Protection, Department of Homeland Security, was 
appointed the Assistant Commissioner in August 2007. He is 
responsible for operations at 20 major field offices, 331 ports 
of entry, 58 operational container security initiative ports, 
and 15 preclearance stations in Canada, Ireland, the Caribbean. 
Previously he served as Director of Field Operations in Miami, 
where he was responsible for managing all inspectional 
operations at the Miami International Airport and the seaport, 
Port Everglades, Fort Lauderdale International Airport, and 
West Palm Beach and Key West as well.
    Then we will hear from Mr. Edward Ramotowski, who is the 
Deputy Assistant Secretary, Acting, Bureau of Consular Affairs, 
the U.S. Department of State. He assumed his current position 
as Managing Director of Visa Services at the U.S. Department of 
State in August 2009, and in that position he oversees the visa 
office in Washington, DC, two domestic processing centers, as 
well as visa operations at over 200 U.S. embassies and 
consulates abroad. From August 2006 to July 2009 he served as 
principal officer at the U.S. Consulate General in Guadalajara, 
Mexico. He has previously worked as a Special Assistant to the 
Assistant Secretary of State for Consular Affairs, Chief of the 
Consular Section of the U.S. Embassy in Nassau, Bahamas and the 
U.S. Council in Warsaw, Poland.
    Then we will hear from Mr. John Cohen, who is the Deputy 
Counterterrorism Coordinator, Department of Homeland Security. 
He serves as the Principal Deputy Coordinator for 
Counterterrorism at the U.S. Department of Homeland Security, 
and as the Senior Advisor on Counterterrorism, Law Enforcement 
and Information Sharing. He has also served as the Senior 
Advisor to the Program Manager for the Information Sharing 
Environment, Office of the Director of National Intel, where he 
authored and coordinated the implementation of key components 
of the National Strategy for Information Sharing.
    Peter Edge, the Deputy Associate Director, Homeland 
Security Investigations, Immigration and Customs Enforcement, 
Department of Homeland Security, began his law enforcement 
career in 1986 in Essex County, New Jersey Prosecutor's Office, 
prior to his selection as a Special Agent was with the U.S. 
Customs Service in Newark, New Jersey. In 2005, Mr. Edge was 
promoted to the position of Assistant Special Agent in Charge 
of the SAC New York office where he lead high-profile 
investigative components such as the El Dorado Task Force, the 
New York High Intensity Financial Crime Area, JFK International 
Airport, and the Immigration Division. Today he serves as the 
Deputy Associate Director of Homeland Security Investigations 
for the U.S. Immigration And Customs Enforcement.
    Then we will hear from Mr. Richard Stana, we welcome him 
back to the committee again, the Director of the Homeland 
Security and Justice, Government Accountability Office. During 
his 27-year career with the GAO, he has directed reviews on a 
wide variety of complex domestic and military issues while 
serving in headquarters, field, and overseas offices. Most 
recently he has directed GAO's work relating to immigration, 
customs law enforcement, drug control corrections, court 
administration, and election system.
    So you can see we have a very, very distinguished panel. We 
will begin with Mr. Winkowski. The floor is yours, sir, for 
your prepared testimony.

 STATEMENT OF THOMAS WINKOWSKI, ASSISTANT COMMISSIONER, OFFICE 
   OF FIELD OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Winkowski. Good morning, Chairwoman Miller, Ranking 
Member Cuellar, and distinguished Members of the subcommittee. 
Thank you for the opportunity to appear today to discuss CBP's 
visa security efforts.
    Since its establishment in 2001, the National Targeting 
Center's priority mission has been to provide tactical 
targeting and analytical research support for CBP's 
antiterrorism efforts. The NTC develops tactical data and 
actual intelligence to prevent high-risk travelers and goods 
from entering the United States.
    Centralized NTC targeting endeavors combined with 
interagency collaboration as well as robust partnerships with 
our foreign counterparts ensure a coordinated response to 
terrorists in National security events.
    CBP works in coordination and collaboration with a number 
of Government agencies with broad authorities, robust 
capabilities, and missions that are complimentary for other 
Nation's security. Each agency's unique capability and 
resources leverage DHS's layered risk management approach to 
safeguarding U.S. borders.
    A few critical examples of this, Chairwoman Miller, the NTC 
coordinates with the terrorist screening center to resolve 
every terrorist screening database encounter. We work closely 
with the State Department to enhance visa security. As a 
result, the State Department has revoked more than 1,000 visas 
based on CBP's vetting results and recommendations.
    ICE has collocated visa security personnel at the National 
Targeting Center to augment and expand current operations. We 
are collaborating with TSA in the private sector on an air 
cargo advanced screening pilot which was implemented following 
the October 2010 attempts by extremists to ship explosive 
devices in their cargo shipments.
    Additionally, CBP has information-sharing agreements with 
foreign partners, including Canada, the United Kingdom, New 
Zealand, and Australia.
    On an average day CBP processes nearly 1 million travelers 
at our ports of entry. The challenge faced by CBP each day is 
rapidly and accurately identifying those individuals that pose 
a threat to the United States and prevent their entry into the 
country. CBP takes action at a number of points in the travel 
continuum.
    In the area of visa and visa waiver program security, while 
the State Department is responsible for visa issuance, CBP has 
partnered with the State Department to ensure the visa issuance 
and travel process. In March 2010 we implemented a system that 
vets all visas on a continuous basis.
    Under the Visa Waiver Program and the Electronic System for 
Travel Authorization, ESTA, we conduct enhanced vetting on Visa 
Waiver Program applicants in advance of travel. As you recall, 
that was a 9/11 Commission recommendation.
    In the area of predeparture screening, CBP now conducts 
predeparture screening of all travelers prior to boarding 
flights bound for the United States. When the NTC identifies a 
high-risk traveler through this process, we coordinate with our 
immigration advisory program offices that are located in 8 
airports around the world or our regional carry liaison group 
which is located in three areas in the United States, in 
Honolulu, JFK Airport, and Miami International Airport, to 
resolve the issues or recommend to the carrier that a traveler 
not be boarded.
    Now as a result of these efforts 100 percent of travelers 
on all flights arriving at and departing from the United States 
are checked against Government databases prior to boarding a 
flight. In fiscal year 2011, CBP made more than 2,000 no-board 
recommendations to carriers. In the area of outbound in 
addition to predeparture screening of inbound travelers, we 
have also enhanced our outbound screening efforts. As a result 
CBP has notable success in identifying and preventing the 
departure of the Time Square bomber in May 2010 as well as a 
suspected serial killer that was departing Atlanta airport in 
August 2010.
    In closing, CBP is continuing proactively looking for 
solutions to threats to the homeland identified by 
operationalizing intelligence through real-time targeting, 
officer screening, and data sharing. Partnering with our 
agencies and nations, effectively extending our borders and 
exchanging information, makes this a truly global fight again 
terror.
    Our future state should include additional screening 
processes and methods to make this protection a greater reality 
so the American public remains safe. Chairwoman Miller, Ranking 
Member Cuellar, and Members of the subcommittee thank you for 
the opportunity to testify. I look forward to answering your 
questions.
    [The statement of Mr. Winkowski follows:]
                 Prepared Statement of Thomas Winkowski
                           September 13, 2011
    Chairwoman Miller, Ranking Member Cuellar, and distinguished 
Members of the subcommittee, thank you for the opportunity to appear 
today to discuss the good work of U.S. Customs and Border Protection 
(CBP) related to ensuring and enforcing security measures implemented 
since the attacks of September 11, 2001. I appreciate the committee's 
leadership and your commitment to helping ensure the security of the 
American people.
                cbp's role in multiple layers of defense
    CBP and, more broadly, Department of Homeland Security (DHS) 
continually refine our risk-based and layered approach to security, 
focusing our resources on the greatest vulnerabilities, extending our 
borders outward, and interdicting threats before they reach the United 
States. DHS, in cooperation with our interagency and foreign partners, 
is now screening people and goods earlier in the travel process. With 
more advanced and better quality data than ever before, we now employ 
an extensive network of research and analysis well before a traveler 
applies for admission at a U.S. port of entry.
    Depending on the traveler's point of origin and travel and entry 
document requirements, the screening process can begin in a number of 
ways: With the application for a visa, application for electronic 
travel authorization, purchase of an airline ticket, or arrival at a 
foreign airport or domestic port of entry. At each step along the way, 
CBP, in cooperation with other Government agencies and commercial 
carriers, reviews information about the traveler, including their 
documents, their effects, and/or their responses to questions, prior to 
arrival at a U.S. port of entry. Several Federal agencies are 
responsible for different aspects of our aviation security, while other 
countries and the private sector--particularly the air carriers--also 
have important roles to play. These multiple layers of defense across 
departments and agencies secure the aviation sector and ensure the 
safety of the traveling public.
    The foiled plot to bring liquid explosives onboard U.S.-bound 
flights from the United Kingdom in 2006, the attempted bombing of 
Northwest Flight 253 on December 25, 2009, the failed Times Square 
bombing in May 2010, and the attempts to mail explosive devices within 
printer cartridges from Yemen in October 2010 are all powerful 
illustrations that terrorists continue to try to overcome security 
measures we have enacted since September 11, 2001.
    CBP continually evaluates and supplements existing security 
measures with additional enhancements to strengthen our ability to 
identify and prevent the international travel of mala fide travelers 
and cargo. The success of these additional security measures depends in 
great part on our ability to gather, share, and respond to information 
in a timely manner--using both strategic intelligence to identify 
existing and emerging threat streams, and tactical intelligence to 
perform link analysis and targeted responses.
CBP and Intelligence
    As part of our efforts to screen passengers bound for the United 
States, CBP uses the U.S. Government's consolidated terrorist watch 
list, specifically, the Terrorist Screening Database (TSDB), managed by 
the Terrorist Screening Center. In addition, we use additional relevant 
information from the intelligence community to determine whether 
someone may be a risk to a flight, requires further screening and 
investigation, should not be admitted, or should be referred to 
appropriate law enforcement personnel.
    Further, CBP's Office of Intelligence and Investigative Liaison 
(OIIL), which serves as the situational awareness hub for CBP, provides 
timely and relevant information along with actionable intelligence to 
operators and decision-makers and improving coordination of CBP-wide 
operations. Through prioritization and mitigation of emerging threats, 
risks, and vulnerabilities, OIIL helps CBP to better function as an 
intelligence-driven operational organization and turns numerous data 
points and intelligence into actionable information for CBP officers 
and analysts.
National Targeting Center
    The National Targeting Center (NTC) is another key tool for DHS in 
analyzing, assessing, and making determinations based on the TSDB and 
other intelligence information. The NTC is a 24/7 operation, 
established to provide tactical targeting information aimed at 
interdicting terrorists, criminal actors, and contraband at the 
earliest point. CBP's Automated Targeting System (ATS) is a decision-
support tool crucial to the operation of the NTC and is a primary 
platform used by DHS to match travelers, conveyances, and shipments 
against law enforcement information and known patterns of illicit 
activity.
Safeguards for Visas and Travel
    One of the initial layers of defense in securing air travel is 
preventing dangerous persons from obtaining visas, travel 
authorizations, and boarding passes. Before boarding a flight destined 
for the United States or arriving at a U.S. port of entry, most foreign 
nationals need to obtain a visa--issued by a U.S. embassy or 
consulate--or, if they are eligible to travel under the Visa Waiver 
Program (VWP), they must apply for a travel authorization issued 
through the Electronic System for Travel Authorization (ESTA).\1\
---------------------------------------------------------------------------
    \1\ Exceptions would be citizens of countries under other visa 
exempt authority, such as Canada. Citizens of countries under visa 
exempt authority entering the U.S. via air are subjected to CBP's 
screening and inspection processes prior to departure. In the land 
environment, they are subjected to CBP processing upon arrival at a 
U.S. port of entry.
---------------------------------------------------------------------------
    The Department of State (DOS) is responsible for visa issuance. DOS 
also screens all visa applicants' biographic data against the DOS 
Consular Lookout and Support System, which includes entries that alert 
consular officers to the existence of TSDB files, for records related 
to potential visa ineligibilities and checks their biometric data 
(i.e., fingerprints and facial images) against other U.S. Government 
databases for records indicating potential security, criminal, and 
immigration violations prior to the issuance of the visa. For 
individuals traveling under the VWP, CBP operates ESTA, a web-based 
system through which individuals must apply for travel authorization 
prior to traveling to the United States. Through ESTA, CBP conducts 
enhanced vetting of VWP applicants in advance of travel to the United 
States in order to assess whether they could pose a risk to the United 
States or the public at large. Additionally, through interactive 
communications with CBP, air carriers are required to verify that VWP 
travelers have a valid authorization before boarding an aircraft bound 
for the United States.
Pre-departure Vetting
    CBP can also gather information and assess risk at the point of 
travel booking. CBP conducts pre-departure and outbound screening for 
all international flights arriving into and departing from the United 
States. This works in concert with the Transportation Security 
Administration's Secure Flight program, which vets 100 percent of 
passengers flying to, from, and within the United States against the No 
Fly and Selectee portions of the known or suspected terrorist watch 
list, or TSDB. The NTC uses a variety of data sources and automated 
enforcement tools to perform its function. The process starts when a 
traveler purchases a ticket for travel to the United States; a 
Passenger Name Record (PNR) may be generated in the airline's 
reservation system. PNR data contains various elements, including 
information on itinerary, co-travelers, changes to the reservation, and 
payment information. CBP receives PNR data from the airline at various 
intervals beginning 72 hours prior to departure and concluding at the 
scheduled departure time.
    CBP uses the Automated Targeting System (ATS) to then evaluate the 
PNR data against ``targeting rules'' that are based on law enforcement 
data, intelligence information, and past case experience. ATS allows 
CBP to identify and interdict travelers with potential nexus to 
transnational crime, including terrorism, narcotics trafficking, and 
human smuggling.
    The traveler's check-in provides the next opportunity in the travel 
process for CBP to gather information and assess risk. On the day of 
departure, when an individual checks in for his or her intended flight, 
the basic biographic information from the individual's passport is 
collected by the air carrier and submitted to CBP's Advance Passenger 
Information System (APIS). Carriers are required to verify the APIS 
against the traveler's government-issued travel document and provide 
the data to DHS at least 30 minutes before departure, or up to the time 
of securing the doors if using APIS Quick Query, for all passengers and 
crew on board.\2\ APIS data contains important identifying information 
that is not included in PNR data, including verified identity and 
travel document information such as a traveler's date of birth, 
citizenship, and travel document number. DHS vets APIS information on 
all international flights to and from the United States against the 
TSDB, as well as against criminal history information, records of lost 
or stolen passports, public health records, and prior immigration or 
customs violations and visa refusals. APIS is also connected to 
Interpol's lost and stolen travel document database for routine queries 
on all foreign passports used for check-in.
---------------------------------------------------------------------------
    \2\ APIS is the electronic data interchange for air carrier 
transmissions of electronic passenger, crew member, and non-crew member 
manifest data.
---------------------------------------------------------------------------
    Another layer in the vetting process is the Immigration Advisory 
Program (IAP), which stations CBP officers at eight foreign airports in 
six countries in coordination with the host foreign governments. 
Officers are deployed to these key transit hubs and work with border 
control authorities, foreign law enforcement agencies, and air carriers 
to identify known or suspected terrorists and other high-risk travelers 
and assist in preventing them from boarding aircraft destined for the 
United States. CBP officials at the NTC support IAP by screening all 
travelers against the TSDB, including the subset No Fly list, ESTA 
denials, visa revocations, public health lookouts, lost and stolen 
passport records, and all State Department records for persons 
identified as actually, or likely, having engaged in terrorist 
activity. At IAP locations, CBP officers can make ``no board'' 
recommendations to carriers and host governments regarding passengers 
bound for the United States who may constitute security risks, but 
officers do not have the authority to arrest, detain, search, or 
prevent passengers from boarding planes. Those authorities lie with the 
host government.
    After the attempted bombing on December 25, 2009, CBP expanded on 
the NTC's IAP pre-departure screening efforts to include screening at 
all foreign airports with direct flights departing to the United States 
to identify and assess risks prior to travel and prevent the boarding 
of high-risk travelers. When pre-departure screening identifies a 
potential high-risk traveler, the NTC confirms the information through 
vetting procedures, and then coordinates the issuance of ``no board'' 
recommendations to carriers via the nearest ICE or CBP Attache, Air 
Carrier Security Office, and the CBP Regional Carrier Liaison Group. 
Now, as a result of these efforts, 100 percent of travelers on all 
flights arriving at and departing from the United States are checked 
against Government databases prior to boarding a flight. During fiscal 
year 2011 to date, pre-departure screening by the NTC has kept more 
than 2,000 high-risk or otherwise inadmissible travelers from boarding 
flights destined for the United States.
    In March 2010, the NTC implemented a new program to conduct 
continuous vetting of U.S. nonimmigrant visas that have been recently 
issued, revoked, and/or denied. The continuous vetting ensures that 
changes in a traveler's visa status are identified in near real-time, 
allowing CBP to immediately determine whether to provide a ``no board'' 
recommendation to a carrier or recommend that DOS revoke the visa, or 
whether additional notification should take place for individuals 
determined to be within the United States. If a violation is 
discovered, and the person is scheduled to travel to the United States, 
CBP will request that DOS revoke the visa and recommend that the 
airline not board the passenger. If no imminent travel is identified, 
and derogatory information exists that would render a subject 
inadmissible, CBP will coordinate with DOS for a prudential visa 
revocation. If the subject of an existing visa revocation initiated by 
the DOS or recommended by CBP is found to be in the United States, CBP 
will notify the ICE Counterterrorism and Criminal Exploitation 
Enforcement Unit for further action as appropriate.
    Additionally, ICE has co-located Visa Security Program (VSP) 
personnel at the NTC to augment and expand current operations. ICE 
special agents and intelligence analysts conduct thorough analysis and 
in-depth investigations of high-risk visa applicants. The focus of the 
VSP and NTC are complementary: The VSP is focused on identifying 
terrorists and criminal suspects and preventing them from exploiting 
the visa process and reaching the United States, while the NTC provides 
tactical targeting and analytical research in support of preventing 
terrorist and terrorist weapons from entering the United States. The 
co-location of VSP personnel at the NTC has helped increase both 
communication and information sharing.
Vetting While En Route to the United States and Upon Arrival
    While flights are en route to the United States, CBP continues to 
evaluate the updated APIS and PNR information submitted by the 
airlines. Based on the information garnered during the in-flight 
analysis, as well as the CBP officer's observations at the port of 
entry, a determination is made as to whether the traveler should be 
admitted to the United States following primary inspection or referred 
for a secondary inspection.
                               conclusion
    As this committee no doubt knows, we live in a world of ever-
evolving risks, and we must move as deftly as possible to identify and 
fix security gaps and to anticipate future vulnerabilities. CBP will 
continue to work with our colleagues within DHS, and with DOS, and the 
intelligence community to address these challenges.
    Chairwoman Miller, Ranking Member Cuellar, and Members of the 
subcommittee, thank you for this opportunity to testify. I look forward 
to answering your questions.

    Mrs. Miller. Thank you very much. The Chairwoman now 
recognizes Mr. Ramotowski for his comments and his testimony.

STATEMENT OF EDWARD J. RAMOTOWSKI, DEPUTY ASSISTANT SECRETARY, 
  ACTING, BUREAU OF CONSULAR AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Ramotowski. Good morning, Madam Chairwoman, Ranking 
Member Cuellar, and distinguished Members of the subcommittee. 
As a 25-year veteran of the United States Foreign Service, it 
is an honor to testify before you just 2 days after our Nation 
marked such a somber event, the 10-year anniversary of the 9/11 
attacks. My colleagues and I in the Foreign Service in the 
State Department will never forget that day, and we are fully 
determined to ensure that such a tragedy does not occur again.
    My focus today is on how the Department of State reformed 
the visa process in the 10 years since 9/11 to eliminate 
loopholes for terrorists to exploit our system, as well as 
additional measures the Department undertook in response to the 
December 25, 2009 attempted airline bombing.
    Today visa processing rests on a multi-layered approach to 
security, what we refer to as the five pillars, technological 
advances, biometric innovations, personal interviews, 
interagency data sharing, and intensive training. All of these 
pillars supported the Department's response to the Christmas 
day incident and we are continually refining and improving them 
to deal with constantly evolving threat.
    Among the key measures taken, we improved our visa Viper 
terrorist information reporting program, by directing all 
chiefs of mission to ensure that it was working effectively at 
all their posts and instructing consular officers to include 
complete information about the U.S. visa status of any 
individuals included in Viper reporting.
    As a second critical step, we issued new instructions to 
officers on visa revocation procedures, and we enforced 
standing guidance on their discretionary authority to deny 
visas under Section 214(b) of the Immigration and Nationality 
Act with specific reference to cases that raise security and 
other serious concerns.
    We also created a dedicated revocation unit in Washington 
that is focused exclusively on ensuring that any derogatory 
information on a U.S. visa holder is rapidly evaluated and 
acted upon.
    As another step, we improved the capability of consular 
systems to match visa records against new and emerging 
derogatory information, to support the revocation process in 
appropriate cases. We employ sophisticated name searching 
algorithms to ensure matches to derogatory information 
contained in the millions of records in our lookout system. We 
use our authority to immediately revoke a visa in circumstances 
where we believe there is an imminent threat.
    The continuous vetting of the database of issued visas by 
the Department and our partner agencies helps ensure that new 
derogatory information that arises after visa issuance is 
rapidly analyzed for revocation purposes.
    Let me briefly turn to the overall visa security and the 
five-pillar system we have in place today. Before any visa is 
issued the applicant's fingerprints are screened against DHS 
and FBI databases. We use facial recognition technology to 
screen visa applicants against a watch list of photos obtained 
from the terrorist screening center as well as visa applicant 
photos contained in our own consular consolidated database.
    Our new on-line visa application forms have the potential 
to provide consular and fraud prevention officers as well as 
our intelligence and law enforcement partners the opportunity 
to analyze data in advance of a visa interview, including the 
detection of potential nonbiographic links to derogatory 
information. We have ambitious plans to screen more of this 
data with our partner agencies to make the visa system even 
more secure.
    We also invest heavily in our people. Each consular officer 
completes the basic consular course and receives continuing 
advanced education in interviewing and name-checking techniques 
throughout his or her career. Language fluency and area and 
culture knowledge are other important skill sets that consular 
officers use daily to improve the adjudication of visas.
    We work closely with our partners to ensure that no 
terrorist receives a visa or is admitted into our country. Our 
vast database of visa information is fully available to other 
agencies and we have specifically designed our systems to 
facilitate comprehensive data sharing. In return we have 
unprecedented levels of cooperation with law enforcement and 
intelligence agencies and benefit from their capabilities and 
resources in ways that were not possible at the time of 9/11 or 
even on Christmas day 2009.
    Distinguished Members of the committee, our current layered 
approach to border security screening in which each agency 
applies its particular strengths and expertise best serves our 
border security agenda while furthering traditional U.S. 
interest in legitimate travel, trade promotion, and exchange of 
ideas. The United States must meet both goals to guarantee our 
long-term security.
    Thank you and I welcome your questions.
    [The statement of Mr. Ramotowski follows:]
               Prepared Statement of Edward J. Ramotowski
                           September 13, 2011
    Good afternoon Madame Chairwoman Miller, Ranking Member Cuellar, 
and distinguished Members of the committee. I thank you for this 
opportunity to update you on the steps we have taken to increase the 
security of the visa process.
    The Department of State (the ``Department'') is dedicated to the 
protection of our borders, and has no higher priority than the safety 
of our fellow citizens. We are the first line of defense in border 
security because the Department is often the first Government agency to 
have contact with foreign nationals wishing to visit the United States. 
We are committed, along with our partner agencies, to a layered 
approach to border security that will enable the U.S. Government to 
track and review the visa eligibility and status of foreign visitors 
from their visa applications throughout their travel to, sojourn in, 
and departure from, the United States.
         corrective actions implemented after december 25, 2009
    After the December 25, 2009 attempted terrorist attack on Northwest 
flight 253, the President ordered corrective steps to address 
identified weaknesses in the systems and procedures we use to protect 
the people of the United States. In the months following the attack, we 
reviewed our requirements for reporting potential terrorists who are 
not applying for visas, which fall under our ``Visas Viper'' program, 
as well as visa issuance and revocation criteria, and we introduced 
technological and procedural enhancements to facilitate and strengthen 
visa-related business processes.
    Our immediate focus was on the deficiencies identified following 
the attempted attack on flight 253 by Umar Farouk Abdulmutallab. On the 
day following his father's November 2009 visit to the U.S. Embassy in 
Abuja, Nigeria, the Embassy sent a Visas Viper cable to the Department 
and the Washington intelligence and law enforcement community, stating 
that Abdulmutallab may be involved with Yemeni-based extremists. In 
sending the cable and checking State Department records to determine 
whether Abdulmutallab had a visa, Embassy officials misspelled his 
name, and as a result of that misspelling, information about previous 
visas issued to him, and the fact that he held a valid U.S. visa, was 
not included in the cable.
    At the same time, the Consular Section entered Abdulmutallab's name 
into the Consular Lookout and Support System (CLASS), our on-line 
database of lookout information. This correctly spelled CLASS lookout 
was shared automatically with the primary lookout system used by the 
Department of Homeland Security (DHS) and accessible to other agencies. 
On the basis of this CLASS entry, DHS's U.S. Customs and Border 
Protection (CBP) determined, after the flight departed Amsterdam, that 
Abdulmutallab warranted secondary screening upon arrival in Detroit. 
Additional reporting on this case carried the correct spelling, with 
additional reports reaching the necessary agencies in Washington.
    To address the deficiencies identified in that review, including 
our concerns with the Visas Viper process, we took immediate action to 
improve the procedures and content requirements for Visas Viper cable 
reporting. We directed all Chiefs of Mission to ensure that the Visas 
Viper program functioned effectively at their posts, and that all 
appropriate agencies and offices at post contributed relevant 
information for Viper nominations. We instructed consular officers to 
include complete information about all previous and current U.S. visas 
in Visas Viper cables. The guidance cable included specific 
instructions on methods to comprehensively and intensively search the 
database of visa records so that all pertinent information is obtained. 
We also issued new instructions to officers regarding procedures and 
criteria used to revoke visas and reiterated guidance on consular 
officers' use of the discretionary authority to deny visas under 
section 214(b) of the Immigration and Nationality Act (INA), with 
specific reference to cases that raise security and other concerns. 
Instruction in appropriate use of this authority has been a fundamental 
part of officer training for several years.
    In addition to changes in standard procedures for searching visa 
records, we immediately began working to refine the capability of our 
current systems, with a particular focus on matching records of 
currently valid visas against new and emerging derogatory information, 
to support visa revocation in appropriate cases. For visa applications, 
we employ strong, sophisticated name-searching algorithms to ensure 
matches between names of visa applicants and any derogatory information 
contained in the 42 million records found in CLASS. This robust 
searching capability, which takes into account variations in spelling, 
has been central to our procedures since automated lookout system 
checks were mandated following the 1993 World Trade Center bombing. We 
constantly use our significant and evolving experience with searching 
mechanisms for derogatory information to improve the systems for 
checking our visa issuance records.
    CLASS has grown more than 400 percent since 2001--largely as a 
result of improved data sharing among the Department, Federal law 
enforcement agencies, and the intelligence community. Almost 70 percent 
of CLASS records come from other agencies, including information from 
the FBI, DHS, DEA, and the intelligence community. CLASS also includes 
unclassified records regarding known or suspected terrorists (KSTs) 
from the Terrorist Screening Database, which is maintained by the 
Terrorist Screening Center (TSC) and contains unclassified data on KSTs 
nominated by all U.S. Government sources. We automatically run all 
applicants' names against the Department's Consular Consolidated 
Database (CCD), which holds our historical visa records, as part of our 
on-going commitment to optimizing the use of our systems to detect and 
respond to derogatory information regarding visa applicants and visa 
holders. A system-specific version of the automated CLASS search 
algorithm runs the names of all visa applicants against the CCD to 
check for any prior visa applications, refusals, or issuances.
    The Department has been continuously matching new threat 
information with our records of existing visas since 2002. We have long 
recognized this function as critical to the way we manage our records 
and processes. This system of continual vetting evolved as post-9/11 
reforms were instituted, and is now performed in cooperation with the 
TSC. All records added to the Terrorist Screening Database are checked 
against the CCD to determine if there are matching visa records. 
Matches are sent electronically from the Department to TSC, where 
analysts review the hits and flag cases for possible visa revocation. 
In addition, we have widely disseminated our data to other agencies 
that may wish to learn whether a subject of interest has a U.S. visa.
    Cases for revocation consideration are forwarded to the Department 
by our consular offices overseas, CBP's National Targeting Center 
(NTC), and other entities. As soon as information is established to 
support a revocation (i.e., information that could lead to an 
inadmissibility determination), a ``VRVK'' entry code showing the visa 
revocation is added to CLASS, as well as to biometric identity systems, 
and then shared in near-real time (within about 15 minutes) with the 
DHS lookout systems used for border screening. As part of its enhanced 
``Pre-Departure'' initiative, CBP uses these VRVK records, among other 
lookout codes, to recommend that airlines should not board certain 
passengers on flights bound for the United States. Almost every day, we 
receive requests to review and, if warranted, revoke any outstanding 
visas for aliens for whom new derogatory information has been 
discovered since the visa was issued. Our Operations Center is staffed 
24 hours a day, 7 days a week, to address urgent requests, such as when 
a potentially dangerous person is about to board a plane. In those 
circumstances, the State Department can and does use its authority to 
revoke the visa, and thus prevent boarding.
    The Department has broad and flexible authority to revoke visas and 
we use that authority widely to protect our borders. Since 2001, the 
Department has revoked approximately 60,000 visas for a variety of 
reasons, including nearly 5,000 for suspected links to terrorism; 1,451 
of those occurring since the attempted attack on December 25, 2009. 
Following that incident, we reviewed the last 10 years of Visas Viper 
nominations, as well as ``P3B'' entries (potentially ineligible for a 
visa due to suspected ties to terrorism) in CLASS to determine whether 
Visas Viper subjects were properly watch listed, and to determine the 
visa status of all P3B subjects. The Department's Visa Office completed 
a review of all 2001-2010 data and revoked 30 visas.
    Most revocations are based on new information that has come to 
light after visa issuance. Because individuals' circumstances change 
over time, and people who once posed no threat to the United States can 
become threats, revocation is an important tool. We use our authority 
to revoke a visa immediately in circumstances where we believe there is 
an immediate threat. At the same time, we believe it is important not 
to act unilaterally, but to coordinate expeditiously with our National 
security partners in order to avoid possibly disrupting important 
investigations.
                 a more secure visa application process
    The Department constantly refines and updates the technology that 
supports the adjudication and production of U.S. visas. Under the 
Biometric Visa Program, before a visa is issued, the visa applicant's 
fingerprints are screened against DHS's Automated Biometric 
Identification System (IDENT), which has a watch list containing 
available fingerprints of terrorists, wanted persons, and immigration 
law violators; and against the FBI's Integrated Automated Fingerprint 
Identification System (IAFIS), which contains more than 50 million 
criminal history records. More than 10,000 matches of visa applicants 
with records on the IDENT watch list are returned to posts every month, 
normally resulting in visa refusals. In 2010, IAFIS returned more than 
57,000 criminal arrest records to posts. The Biometric Visa Program 
partners with the DHS US-VISIT Program to enable CBP officers at ports 
of entry to match the fingerprints of persons entering the United 
States with the fingerprints that were taken during visa interviews at 
overseas posts and transmitted electronically to DHS IDENT. This 
biometric identity verification at ports of entry has greatly enhanced 
CBP officers' ability to identify photo-substituted visas and the use 
of valid visas by imposters.
    We also use facial recognition technology to screen visa applicants 
against a watch list of photos of known and suspected terrorists 
obtained from the FBI's TSC, as well as the entire gallery of visa 
applicant photos contained in our CCD. Facial recognition screening has 
proven to be another effective way to combat identity fraud.
    The Consular Electronic Application Center (CEAC) is another major 
technological advance. CEAC is an electronic platform where applicants 
submit visa applications and photos via the internet, eliminating 
paperwork, decreasing visa application and adjudication times, and 
reducing the number of forms applicants must complete. The worldwide 
roll out of the on-line DS-160 nonimmigrant visa application form is 
complete, and we are currently piloting the on-line DS-260 immigrant 
visa application form. These new on-line forms provide consular and 
fraud officers the opportunity to analyze data in advance of the 
interview, enhancing their ability to make decisions, and soon will 
afford intelligence and law enforcement agencies opportunities to 
analyze visa application data before applicants appear for their 
interviews. The on-line forms offer foreign language support; however, 
applicants are required to answer in English, to facilitate information 
sharing between the Department and other Government agencies. The new 
application forms are ``smart,'' meaning that certain answers to 
questions will trigger subsequent questions. The system will not accept 
applications if the security-related questions have not been fully 
answered, and ``irregular'' answers are flagged to ensure that consular 
officers address them in the interview.
    In April 2011, we greatly enhanced the way we track visa fraud. We 
globally deployed a tool called the Enterprise Case Assessment Service 
that provides a platform to store fraud-related research that used to 
be stored outside of consular systems. This new tool associates fraud-
related information with visa records, making it available to consular 
officials around the world. Should fraud be confirmed during the course 
of a visa interview, consular officers can record that data in this new 
tool, where it can be easily referenced if the individual attempts to 
re-apply for a visa. Future iterations of this tool will track fraud in 
other consular services, such as U.S. passport applications, and will 
enable us to track the activities of third-party document vendors and 
visa fixers. We hope soon to be able to share this new data source with 
our U.S. Government partners to enhance interagency cooperation on 
fraud prevention.
                   student and exchange visitor visas
    I am aware that the Members of this committee have a keen interest 
in the processing of student and exchange visitor visas. Consular 
processing of these visa classes follows the same sequence of 
clearances as the other visa classifications, including collection of 
biometrics and submission of the on-line DS-160 form. All CLASS and 
other security checks apply.
    In addition, in order for an applicant to demonstrate that he/she 
is qualified to apply for a student or exchange visitor visa, the 
applicant must have been issued specific documentation, in addition to 
what is required for other visas classes, and present it to the 
consular officer at the time of interview. A student, for instance, 
must have been issued a Form I-20A-B by the school he/she will attend 
in order to apply for an F-1 student visa (or for dependants, an F-2 
visa), or a Form I-20M-N if the student has been accepted at a 
vocational school. In order to qualify for an exchange visitor visa (J-
1, dependent J-2), the applicant must present a Form DS-2019 issued by 
the designated sponsor of one of the 15 categories of exchange visitor 
programs.
    Upon acceptance to the chosen educational institution or 
organization, the student or exchange visitor is assigned a unique ID 
number in the Student and Exchange Visitor Information System (SEVIS), 
a DHS database. The individual retains the same number throughout his 
or her educational career.
    For an applicant to be found eligible for an F, M, or J visa, the 
student must meet the requirements specific to student or exchange 
visitor status (accepted at a school authorized by DHS to issue the 
Form I-20, pursuing a degree or certificate with sufficient finances, 
etc.) necessary to participate in the type of program chosen. In 
addition, the student must demonstrate the intent to engage only in 
approved activities for the visa class, the ability to meet the 
financial requirements of the activity undertaken, and demonstrate a 
present intent to depart the United States upon the completion of the 
chosen activity.
                                training
    Consular officers are trained to take all necessary steps during 
the course of making a decision on a visa application to protect the 
United States and its citizens. Every consular officer is required to 
complete the Department's Basic Consular Course at the National Foreign 
Affairs Training Center prior to performing consular duties. The course 
places strong emphasis on border security, featuring in-depth 
interviewing and name-checking technique training, as well as fraud 
prevention. Throughout their careers, consular officers receive 
continuing education in all of these disciplines to ensure they 
integrate the latest regulations and technologies into their 
adjudicatory decisions.
    To augment this training and strengthen the security of the visa 
program, in early 2010 the Department launched a program to provide 
consular officers overseas with enhanced security clearances. This 
allows them to participate more fully in posts' review of security 
issues that bear on the issuance of passports and visas, and the 
protection of U.S. citizens traveling and living abroad. In the past 
few months, a concerted push on this project resulted in the tripling 
of the number of highly-cleared consular officers (to more than 150) in 
key positions at high-threat posts. The Office of Counterintelligence 
and Consular Support, in the Bureau of Intelligence and Research, has 
increased its efforts to identify relevant reporting for review by 
those consular officers.
                       security advisory opinions
    The Department's Security Advisory Opinion (SAO) mechanism provides 
consular officers with the necessary advice and background information 
to adjudicate cases of visa applicants with possible terrorism 
ineligibilities. Consular officers receive extensive training on the 
SAO process, including modules on cultural and religious naming 
conventions, which assists them in identifying applicants who require 
additional Washington vetting. The SAO process requires the consular 
officer to suspend visa processing pending interagency review of the 
case and additional guidance. Most SAOs are triggered by clear and 
objective circumstances, such as nationality, place of birth, 
residence, or visa name check results. In addition, in cases where 
reasonable grounds exist regardless of name check results, consular 
officers may suspend visa processing and institute SAO procedures if 
they suspect that an applicant may be inadmissible under the security 
provisions of the INA.
                       the visa security program
    The Department of State believes that the Visa Security Program 
(VSP), under which DHS deploys U.S. Immigration and Customs Enforcement 
(ICE) special agents to conduct visa security screening and 
investigations at certain overseas consular posts, is a valuable 
component of the U.S. Government's overall policy of protecting our 
borders. We have a close and productive partnership with DHS, which has 
authority for visa policy under section 428 of the Homeland Security 
Act, and are fully supportive of the mission and future of the VSP, as 
well a number of data-sharing arrangements.
    The VSP increases the utility of the visa application and interview 
processes to detect and combat terrorism, criminality, and other 
threats to the United States and the traveling public. ICE special 
agents assigned to Visa Security Units provide timely and valuable on-
site vetting of visa applications and other law enforcement support to 
our consular officers. We work very closely with DHS to ensure that no 
terrorist receives a visa or is admitted into our country.
    Reports from our posts with ICE visa security operations suggest 
that, as the VSP has matured over the past few years, ICE special 
agents have, where resources permit, moved beyond a singular focus on 
visa application review. They have been able to contribute their 
expertise and resources to enhance our response to all kinds of threats 
to the visa and immigration processes--terrorism, human smuggling and 
trafficking, and trafficking in a wide variety of contraband. As 
reported by one of our missions, ``(i)n addition to their concerns with 
visa security, [ICE special agents'] efforts have also led to arrests 
and indictments in the areas of child pornography and countering the 
proliferation of controlled technology. This is a win-win 
partnership.''
    In Washington, we work very closely with our VSP colleagues on day-
to-day issues affecting the operations of the program, as well as 
longer-term issues related to the expansion of the program to select 
overseas posts. VSP special agents in Washington review our visa 
databases and advise posts of emerging information about visa holders. 
Another important aspect of our Washington partnership is the 
resolution of issues raised as the VSP expands to more posts. In 
January 2011, the Department's Bureaus of Consular Affairs (CA) and 
Diplomatic Security (DS) concluded a Memorandum of Understanding (MOU) 
with ICE. This MOU governs VSP-Department of State interactions within 
visa sections, procedures for resolving the very few disputed visa 
cases that emerge from the VSP review process, and collaboration 
between ICE special agents and their DS law enforcement colleagues 
assigned as Regional Security Officers (RSOs) or Assistant Regional 
Security Officer Investigators (ARSO-Is) assigned to consular sections.
    Under the umbrella of section 428 of the Homeland Security Act and 
the implementing Memorandum of Understanding between the Departments of 
State and Homeland Security, we work together to resolve cases. When 
warranted, DHS special agents assigned to the VSP will conduct 
targeted, in-depth reviews of individual visa applications and 
applicants prior to issuance, and recommend refusal or revocation of 
applications to consular officers. We work with DHS to ensure that 
terrorists do not receive visas and to expeditiously revoke visas as 
appropriate.
    The Department works collaboratively with DHS, pursuant to an 
October 2004 MOU between the Department and the VSP on the 
``Administrative Aspects of Assigning Personnel Overseas,'' and 
National Security Decision Directive 38 (NSDD-38). This directive 
outlines factors to be considered by Chiefs of Mission when considering 
requests by a U.S. Government agency to create a new position at a post 
abroad. NSDD-38 gives Chiefs of Mission responsibility for the size, 
composition, and mandate of U.S. Government agency staff under his or 
her authority.
    Currently, there are 19 visa-issuing posts in 15 countries with an 
ICE VSP presence. Before submitting an NSDD-38 request, ICE officials, 
with the support of senior State Department officers from CA and DS, 
conduct a post-specific, on-site assessment. The visit provides an 
opportunity for the team to consult with officials at post to validate 
the interagency assessment of the risk environment, determine the 
feasibility and timing of establishing an office, and brief the Chief 
of Mission on the role of the VSP.
                   layered security and data sharing
    The Department embraces a layered approach to security screening. 
In addition to our support of the VSP, over the past 7 years the 
Department and DHS have increased resources significantly, improved 
procedures, and upgraded systems devoted to supporting the visa 
function. DHS receives all of the information collected by the 
Department during the visa process. DHS's US-VISIT is often cited as a 
model in data sharing because the applicant information we provide, 
including fingerprint data, is checked at ports of entry to confirm the 
identity of travelers. DHS has broad access to our entire CCD, which 
contains more than 143 million records, related to both immigrant and 
nonimmigrant visas, covering the last 13 years. A menu of reports 
tailored to the specific needs of each particular unit is supplied to 
elements within DHS such as ICE's agents assigned to conduct visa 
security investigations overseas.
    We make all of our visa information available to other U.S. 
Government agencies for law enforcement and counterterrorism purposes, 
and we specifically designed our systems to facilitate comprehensive 
data sharing with these entities. We give other agencies immediate 
access to more than 13 years of visa data for these purposes, and they 
use this access extensively. For example, in May 2011, over 23,000 
officers from DHS, the Department of Defense (DoD), the FBI, DOJ, and 
the Department of Commerce submitted nearly 2 million queries on visa 
records in the course of conducting law enforcement and/or 
counterterrorism investigations.
    Working in concert with DHS, we have proactively expanded biometric 
screening programs and integrated this expansion into existing overseas 
facilities. In partnership with DHS and the FBI, we have established 
the largest biometric screening program on the globe. We were a pioneer 
in the use of facial recognition techniques and remain a leader in 
operational use of this technology. Currently, more than 146 million 
images are enrolled in our facial recognition database. In 2009, we 
expanded use of facial recognition from a selected segment of visa 
applications to all visa applications, and we are now expanding our use 
of this technology to passport records. We are testing use of iris 
recognition technology in visa screening, making use of both identity 
and derogatory information collected by DOD. These efforts require 
intense on-going cooperation from other agencies. We have successfully 
forged and continue to foster partnerships that recognize the need to 
supply accurate and speedy screening in a 24/7 global environment. As 
we implement process and policy changes, we are always striving to add 
value in both border security and in operational results. Both 
dimensions are important in supporting the visa process.
    In addition, every post that issues visas has a fraud prevention 
officer and locally employed staff devoted specifically to fraud 
prevention and document security. We have a large Fraud Prevention 
Programs office in Washington, which works closely with DS, and we have 
fraud screening operations using sophisticated database checks at both 
the Kentucky Consular Center in Williamsburg, Kentucky, and the 
National Visa Center in Portsmouth, New Hampshire. Their role in 
flagging questionable applications and applicants who lack credibility, 
present fraudulent documents, or give us false information adds a 
valuable dimension to our visa process.
    DS adds an important law enforcement element to the Department's 
visa procedures. There are currently 75 ARSO-I positions approved for 
73 consular sections overseas specifically devoted to maintaining the 
integrity of the process. In 2010, DS approved 48 additional ARSO-I 
positions to work in consular sections overseas. They are complemented 
by officers working domestically on both visa and passport fraud 
criminal investigations and analysis. These highly-trained law 
enforcement professionals add another dimension to our border security 
efforts.
    The multi-agency team effort, based upon broadly-shared 
information, provides a solid foundation for securing our borders. The 
interagency community continues to automate processes to reduce the 
possibility of human error while at the same time enhancing our border 
security screening capabilities.
    We face an evolving threat of terrorism against the United States. 
The people and the tools we use to address this threat must be 
sophisticated and agile and must take into account the cultural and 
political environment in which threats arise. Our officers must be 
well-trained, motivated, and knowledgeable. Information obtained from 
these tools must be comprehensive and accurate. Our criteria for taking 
action must be clear and coordinated. The team we use for this mission 
must be the best. The Department has spent years developing the tools 
and personnel needed to properly execute the visa function overseas and 
remains fully committed to fulfilling its essential role on the border 
security team.
                  training foreign passport officials
    As part of our fraud prevention efforts, CA is working with the 
International Narcotics and Law Enforcement Affairs (INL) Bureau 
through INL's International Law Enforcement Academy (ILEA) network to 
provide passport anti-fraud training to officials from foreign passport 
issuance agencies.
    The first class was piloted September 7-9, 2011 in El Salvador, for 
officials from various Central American countries. The training is 
designed to improve the integrity of other countries' passport issuance 
by helping them institute organizations, processes, and procedures for 
detecting fraudulent passport applications as part of their 
adjudication and issuance processes.
    We plan to offer this training in 2012 at the ILEAs in Botswana and 
again in El Salvador.
               foreign partner capacity-building programs
    The Department regularly engages our foreign partners bilaterally, 
regionally, and on a multilateral basis to address the issue of 
terrorist transit. This engagement involves a range of activities, 
including the exchange of information in a variety of security 
channels, the execution of capacity-building programs on border and 
document security, the provision of border screening programs like the 
Terrorist Interdiction Program/Personal Identification Secure 
Comparison and Evaluation System (TIP/PISCES), and regular 
consultations on broader issues. Our capacity-building efforts are 
intended to foster regional cooperation and collaboration, whether 
through participation in organized regional groupings, such as the 
Trans-Sahara Counterterrorism Partnership, which facilitate regional 
training and exercises, or through assistance programs, such as the 
Regional Security Initiative (RSI), which funds regional 
Counterterrorism (CT) training and cooperative efforts across all CT 
priority regions.
    The Department works in close coordination with the interagency 
community for the development and implementation of the full range of 
CT programming, through a range of fora. In addition to participation 
in regular National Security Council-led meetings, we have established 
mechanisms, such as the aforementioned RSI, which brings together our 
Embassy leadership with the full range of interagency representatives 
to discuss key issues of regional concern. This is replicated at the 
working level through the Regional Interagency Consultative Group. In 
North Africa, as already noted, we also have the Trans-Sahara 
Counterterrorism Partnership, through which State, DoD, and USAID 
cooperate and coordinate efforts to strengthen the counterterrorism 
capacity of our regional partners. The success of this approach has led 
to consideration of a similar construct for other regions. In addition 
to coordination through formal structures, we cooperate informally on a 
regular basis with the Departments of Defense, Justice, Homeland 
Security, and the Treasury on our counterterrorism efforts across the 
board.
            u.s. government efforts to stop terrorist travel
    The U.S. Government has many programs designed to thwart terrorist 
travel around the world. Many portions of the U.S. Government play a 
critical role in stopping terrorist travel--DHS and its components, 
DoD, the law enforcement and intelligence communities, and State 
Department consular officers.
    U.S. passports and visas contain sophisticated security features 
that make them very difficult to forge. The electronic chips in our 
passports and the machine readable lines on our visas employ some of 
the most sophisticated technical security measures available. State 
Department consular officers work with our partners from CBP and ICE to 
train foreign border and airline personnel in the detection of 
fraudulent travel documents. The Department's Office of the Coordinator 
for Counterterrorism (S/CT) also helps foreign partners at risk for 
terrorist activity to establish their own computerized stop-list 
systems via the TIP/PISCES program.
    In the additionally critical areas of international travel document 
security and interoperability, we have intensified our work. With 
passport-issuing authorities of International Civil Aviation 
Organization (ICAO) member States around the globe, we have striven to 
ensure that, as with the U.S. ePassport, other issuing authorities meet 
internationally established standards for security and 
interoperability. This has included the cooperative and growing use of 
the Public Key Directory (PKD), which is centrally managed and overseen 
by a board of actively participating ICAO member states. The PKD is a 
directory used by a receiving state to verify the digital signature 
used by a travel document's issuing authority, thereby authenticating 
the passport in real time.
    The ePassports, which we have been issuing since December 2005, 
introduce a new class of security feature to identity documents: A 
digital signature. The validation of a signature guarantees that the 
chip contents, which include the facial image, are genuine and belong 
to the physical document. Only on this basis can it be proven that a 
specific ePassport was issued to the person that claims to be the 
rightful owner. The ICAO PKD is integral to the effort to have an 
efficient and commonly-accepted means of sharing and updating digital 
signatures (public keys) used by the world's ePassport-issuing 
authorities.
    Where validation using the ICAO PKD occurs during travel, whether 
at points of embarkation, transit, or upon entry, it provides much 
greater levels of assurance than are currently possible with 
traditional machine-readable travel documents. Border inspectors will 
be better able to identify inadequately documented travelers. Border 
inspectors worldwide can, in effect, assist the issuing authority in 
enhancing the integrity of all ePassports.
    The benefits of the ICAO PKD increase exponentially as the number 
of States participating, and the number of ePassports in circulation, 
increase. Participating States and entities stand to benefit most, 
because their participation in the ICAO PKD maximizes global coverage 
of validation of their travel documents.
    Electronically reading the PKI adds a third level of security for 
biometric passports, joining visual/tactile and laboratory features of 
the document, and scanner reading of the biometric content. This 
combination of features constitutes a tool bag for CBP officers to use 
in verifying the authenticity of the person and his/her passport when 
entering the United States.
    The U.S. Government's advanced information-sharing initiatives 
ensure that we and our international partners are in constant contact 
regarding the threat of terrorist travel. CBP's use of Advance 
Passenger Information (API) and Passenger Name Record (PNR) data are 
valuable tools in detecting travel patterns and co-travelers of 
terrorist suspects. The U.S. Government's agreements with foreign 
partners under Homeland Security Presidential Directive (HSPD) 6 allow 
us to share terrorist screening information with trusted partners, in 
order to interdict known and suspected terrorists.
    We also have entered into arrangements for the sharing of visa 
information with foreign governments, consistent with the requirements 
of section 222(f) of the INA. Since 2003, there have been arrangements 
in place with Canada for such sharing under certain circumstances. With 
DHS, the Department is participating in a pilot program, through the 
Five Country Conference (United States, Australia, Canada, New Zealand, 
and the United Kingdom) for identification of travelers based on 
biometric matching in some individual cases. We are in negotiation with 
the governments of Canada and the United Kingdom for agreements that 
would provide a legal basis for us to implement arrangements for the 
automated sharing of visa refusal data and for systematic confirmation 
of an applicant's identity through biometric matching. These 
arrangements would be limited to information regarding nationals of 
third countries. We expect both agreements to be completed this year, 
and similar agreements with Australia and New Zealand in 2012.
    The Department plays a key role in all of these international 
initiatives. With our partners at the TSC, we negotiate the HSPD-6 
agreements overseas. We are a close partner with DHS in API and PNR 
discussions overseas, in particular with respect to the current talks 
with the European Union on PNR. Together, all of these programs are 
helping achieve the goal of constraining terrorist mobility. This is 
our obligation to the American people.
                               conclusion
    We believe that U.S. interests in legitimate travel, trade 
promotion, and educational exchange are not in conflict with our border 
security agenda and, in fact, further that agenda in the long term. Our 
long-term interests are served by continuing the flow of commerce and 
ideas that are the foundations of prosperity and security. Acquainting 
people with American culture and perspectives remains the surest way to 
reduce misperceptions about the United States. Fostering academic and 
professional exchanges keeps our universities and research institutions 
at the forefront of scientific and technological change. We believe the 
United States must meet both goals to guarantee our long-term security.
    Our global presence, foreign policy mission, and personnel 
structure give us singular advantages in executing the visa function 
throughout the world. Our authorities and responsibilities enable us to 
provide a global perspective to the visa process and its impact on U.S. 
National interests. The issuance and refusal of visas has a direct 
impact on our foreign relations. Visa policy quickly can become a 
significant bilateral problem that harms broader U.S. interests if 
handled without consideration for foreign policy equities. The conduct 
of U.S. visa policy has a direct and significant impact on the 
treatment of U.S. citizens abroad. The Department of State is in a 
position to anticipate and weigh all those factors, while ensuring 
border security as our first priority.
    The Department has developed and implemented an intensive visa 
application and screening process requiring personal interviews, 
employing analytic interview techniques, incorporating multiple 
biographic and biometric checks, all supported by a sophisticated 
global information technology network. We have visa offices in 
virtually every country of the world, staffed by consular officers 
drawn from the Department's professional, mobile, and multilingual 
cadre of Foreign Service Officers. These officials are dedicated to a 
career of worldwide service, and provide the cultural awareness, 
knowledge, and objectivity to ensure that the visa function remains the 
frontline of border security. Each officer's experience and individual 
skill set are enhanced by an overall understanding of the political, 
legal, economic, and cultural development of foreign countries in a way 
that gives the Department of State a special expertise over matters 
directly relevant to the full range of visa ineligibilities.
    This concludes my testimony today. I will be pleased to take your 
questions.

    Mrs. Miller. Thank you very much. The Chairwoman now 
recognizes Mr. Cohen for his testimony.

      STATEMENT OF JOHN D. COHEN, DEPUTY COUNTERTERRORISM 
          COORDINATOR, DEPARTMENT OF HOMELAND SECURITY

    Mr. Cohen. Thank you, Chairwoman Miller, Ranking Member 
Cuellar, Mr. Thompson, Members of the subcommittee. Thank you 
for the opportunity to be here today to discuss efforts to 
prevent terrorists from exploiting our visa system. As you have 
heard and as you pointed out yourself, through a combination of 
expanded and recurrent vetting of visa applicants, visa 
holders, as well as improved capabilities that I will describe 
in just a bit of vetting potential overstays, the ability of 
terrorists to exploit our visa systems has been greatly 
diminished.
    Over the past 3 years Secretary Napolitano has made it a 
top priority for the Department through ICE, the efforts of ICE 
and CBP and US-VISIT, and our headquarters elements to improve 
our ability to vet prior to departure those traveling to the 
United States on visa or waiver country. We have made 
significant progress in leveraging the vast holdings of the 
intelligence community, the law enforcement community, and 
improve the information sharing and operational coordination 
between law enforcement, intelligence community, and those 
responsible for protecting our borders.
    Today what I am about to describe is the next step in that 
process, because we have embarked on an effort to automate data 
queries that in the past were carried out through manual 
database checks. This is important because in many respects a 
big part of the problem and one of the main reasons that we had 
what were commonly referred to as backlog was because of the 
time-consuming nature that these database queries required. By 
interlinking immigration, National security, and law 
enforcement information systems, and better using intelligence-
driven targeting capabilities such as those used at the 
National Targeting Center and through the automated targeting 
system, we have and will continue to bring greater efficiencies 
to this process, and this will allow for more effective use of 
personnel involved in investigations and analysis.
    You referred to earlier, Madam Chairwoman, to the 1.2--
750,000 records that had been unvetted. We began with 1.6 
million records and through an initiative began earlier this 
year that involved CBP, ICE, US-VISIT, NCTC, and others we were 
able to eliminate from that 1.6 million records approximately 
800,000 records that we were able to determine had actually 
departed the country or had changed their immigration status.
    That left approximately 839,000 records that we were then 
able to vet through the holdings of the NTC and leveraging 
CBP's technical capabilities through a variety of law 
enforcement databases. Each one of those 839,000 records has 
been vetted from a National security and public safety 
perspective. Let me repeat that, the entire set of records in 
that 839,000 data set has been vetted from the National 
security and public safety perspective. Through this process, 
this automated and manual process, we have been able to provide 
to ICE, CTCEU, and ICE investigations several thousand 
additional leads which they have fully vetted, fully 
investigated and are in the process of completing their 
investigative processes. This was a significant milestone. We 
learned from that effort that we could do more to automate the 
process. Over the next 6 to 12 months you will see a number of 
improvements. We will further enhance our ability to prevent an 
onerous, suspected terrorist from exploiting the visa system or 
visa waiver program because we will be bringing automated 
processes to our ability to determine the location and the 
immigration status. We are seeking to eliminate to the greatest 
degree possible all of those manual database checks that are 
carried out in this country, that are carried out by visa 
security agents abroad. We will improve US-VISIT's ability to 
determine whether a person is in overstay status and quickly 
identify and forward to ICE investigators overstays are of a 
National security or public safety concern.
    We will incorporate and enhance vetting capability that 
aggregates information for multiple systems into a unified 
electronic dossier, reducing the need for US-VISIT researchers 
and ICE agents to review multiple systems. We will be able to 
provide Congress country-by-country data on percentages of 
nationals who have overstayed their period of admission. We 
will establish a more complete, enhanced biographic exit system 
which includes expanded use of biometric data collected and 
retained in law enforcement immigration and DOD systems.
    In addition to providing enhanced biographic exit 
capability, we will have established the foundation for a 
biometric exit capability. As resources become available and 
biometric collection technology continues to mature in the 
coming years, we will integrate those advances into this 
biographic exit foundation.
    We are looking to leverage, as I pointed out, the same 
architecture into the visa protection program, allowing ICE to 
bring analytic responsibilities back home here to the United 
States, thereby allowing agents abroad to be more focused on 
investigative activities.
    I appreciate again the opportunity to be here today, and I 
look forward to answering any questions. Thank you.
    [The statement of Mr. Cohen follows:]
                  Prepared Statement of John D. Cohen
                           September 13, 2011
                              introduction
    Chairwoman Miller, Ranking Member Cuellar, and distinguished 
Members, I am pleased to appear before you to outline the efforts of 
the Department of Homeland Security (DHS) to both prevent terrorists 
from entering the United States and ensure that our Visa System is 
secure.
    I am testifying today in my role as the Principal Deputy 
Coordinator for Counterterrorism (CT) at the Department. In this 
capacity, I will address the Department's efforts to enhance the 
security of the Visa System, and also discuss the creation and 
evolution of the CT Coordination functions at DHS. In addition, I will 
describe specific actions being taken by the National Protection and 
Programs Directorate's (NPPD's) United States Visitor and Immigrant 
Status Indicator Technology (US-VISIT) Program to complement the 
efforts of U.S. Immigration and Customs Enforcement (ICE) and U.S. 
Customs and Border Protection (CBP), alongside whom I am pleased to be 
testifying today.
          enhancing visa security to prevent terrorist travel
    The Homeland Security Act of 2002 gave DHS the responsibility of 
preventing terrorists from entering the United States, providing the 
Department with the authority to establish and administer the rules 
that govern the granting of visas. This includes ensuring that the visa 
process is secure. Under this authority, DHS works closely with the 
Department of State to use the Visa System as a first layer of security 
to prevent known or suspected terrorists from traveling to the United 
States. Central to this mission is ensuring that consular officers at 
the State Department have necessary information, and then appropriately 
vet this information, which includes fingerprints and photographs, 
through the Department and our interagency partners.
    Since 9/11, DHS has enhanced our Nation's ability to detect 
individuals seeking to exploit the visa system through recurrent 
vetting of visa holders. In May 2010, CBP's National Targeting Center--
Passenger (NTC-P) implemented a new program to conduct continuous 
vetting of U.S. non-immigrant visas that have been recently issued, 
revoked, and/or denied. The Visa Hot List vetting ensures that changes 
in a traveler's visa status are identified in near real-time. If a 
violation is discovered, and the person is scheduled to travel to the 
United States, CBP will request that DOS revoke the visa and recommend 
to the airline that the person be denied boarding. If no imminent 
travel is identified, CBP will coordinate with DOS for a visa 
revocation, if appropriate. If the subject of an existing visa 
revocation initiated by the DOS or recommended by CBP is found to be in 
the United States, CBP will notify the Counterterrorism and Criminal 
Exploitation Enforcement Unit for further action.
    In addition, since December 25, 2009, we have accelerated our 
efforts to synchronize, streamline, and advance the Department's 
overall vetting capability, which both increases security and 
efficiency. In particular, the Department is currently working to 
enhance screening efforts for those who have potentially overstayed 
their period of admission and modernize and enhance the Department's 
Biographic Exit architecture.
    In May 2011, at the direction of Secretary Napolitano, DHS's CT 
Coordinator organized an effort to ensure that all overstays, 
regardless of priority, receive enhanced National security and public 
safety vetting by the National Counterterrorism Center (NCTC) and CBP.
    NPPD/US-VISIT used automated means to review all records in the 
backlog by checking ADIS, CLAIMS, and I-94 holdings to reduce the 
backlog. As a result of this review, we identified 843,000 visa 
overstays who were no longer in the country. Then, both NCTC and CBP 
vetted the remaining 757,000 potential in-country overstay leads, along 
with 82,000 previously vetted overstay leads. CBP used its Automated 
Targeting System to query multiple databases, and to compare records to 
CBP's intelligence-based threshold targeting rules to identify 
indicators such as suspicious travel patterns or irregular travel 
behavior. Simultaneously, NCTC vetted the backlogged records through a 
number of databases held by the intelligence community.
    By the end of July 2011, all of the previously un-reviewed possible 
overstays records had been reviewed from a National security and public 
safety standpoint and ICE is currently pursuing leads that meet our 
priorities.
    This effort has increased the standard of review of overstay leads, 
at reduced cost. The process allows ICE to better prioritize targets 
for investigation and removal. It is a prime example of how increased 
coordination can help our Department to better leverage information and 
capabilities spread across the Department and the Federal Government.
    The Department is nearing the final stages of developing a plan 
that not only institutionalizes these vetting enhancements, but also 
improves the current biographic exit system as well. We are focusing 
our efforts on improving information sharing, streamlining screening 
and vetting, and ensuring identification of potentially harmful 
individuals.
    This plan includes many enhancements, including those which will 
allow DHS to:
  <bullet> Quickly identify and forward to ICE investigators overstays 
        that are of a National security concern.
  <bullet> Integrate and leverage relevant CBP, ICE, and US-VISIT 
        information systems and operational processes to automate 
        manual data queries and to vet DHS-held immigration and travel-
        related information against a broad array of law enforcement 
        and IC data holdings.
  <bullet> Incorporate an enhanced vetting capability that aggregates 
        information from multiple systems into a unified electronic 
        dossier reducing the need for US-VISIT researchers and ICE 
        agents to review multiple systems during their Validation and 
        Vetting processes.
  <bullet> Take action against all overstays. DHS will forward 
        information to the State Department for the purpose of 
        cancelling visas of those who overstay. DHS will also eliminate 
        the ability of those who overstay from using the Visa Waiver 
        Program by cancelling any ESTA approvals or denying ESTA 
        submissions for those who have overstayed. DHS will also place 
        lookouts on individuals who overstay beyond certain statutory-
        identified time limits, so that they are inadmissible to the 
        United States. DHS believes this will create a deterrent 
        effect.
  <bullet> Provide to Congress country-by-country data on percentages 
        of nationals who have overstayed their period of admission.
    DHS is committed to working with Congress to make these 
improvements.
    In addition to improving visa security, DHS has also implemented 
other measures to prevent another terrorist attack, including:
  <bullet> Unifying immigration and border management systems to 
        implement a more effective capability to access and employ 
        biometric- and biographic-based information when reviewing 
        possible terrorist travel.
  <bullet> Enhancing capabilities for identifying fraudulent documents 
        and imposters and implementing measures to confirm the 
        authenticity and validity of travel documents.
  <bullet> Establishing interoperability and information-sharing 
        protocols with our Federal partners.
  <bullet> Supporting State and local law enforcement agencies and the 
        intelligence community; using a more complete and accurate 
        picture of a person's immigration, terrorist, and criminal 
        history enables DHS to more effectively make connections in 
        determining who might pose a threat or use more than one 
        identity.
  <bullet> Establishing and maintaining strategic partnerships with an 
        increasing number of international partners. In these 
        partnerships, we share appropriate information, provide 
        technical assistance, develop commonality in biometric 
        standards and best practices, and investigate and test emerging 
        biometric technologies.
            the role of the coordinator for counterterrorism
    Following the attempted bombing of Northwest flight 253 on December 
25, 2009, Secretary Napolitano gave NPPD's Under Secretary Rand Beers 
the additional role of CT coordinator. The Department's CT Coordinator 
is responsible for coordinating all counterterrorism activities for the 
Department and across its directorates, components, and offices related 
to the detection, prevention, response to, and recovery from acts of 
terrorism.
    In November 2010, DHS established the Counterterrorism Advisory 
Board (CTAB) to further improve coordination on counterterrorism among 
DHS Components. As the CT Coordinator, Under Secretary Beers serves as 
the chair of the CTAB, with the Under Secretary of Intelligence and 
Analysis (I&A) and the Assistant Secretary for Policy supporting the 
Board as Vice Chairs. Members include the leadership of TSA, CBP, ICE, 
the Federal Emergency Management Agency (FEMA), the U.S. Coast Guard 
(USCG), USCIS, the U.S. Secret Service (USSS), NPPD, and the Office of 
Operations Coordination and Planning (OPS). The DHS General Counsel 
serves as legal advisor to the CTAB.
    In December 2010, the Department also established a 
counterterrorism working group, known as the CTWG, to support the CT 
Coordinator, and Secretary Napolitano later appointed me as Principal 
Deputy CT Coordinator.
    The CTAB's mission is aligned with the Department's central 
mission: To prevent terrorist attacks and enhance security. The CT 
Coordinator, the CTAB, and the CTWG serve as the connective tissue that 
brings together the intelligence, operational, and policy-making 
elements within DHS Headquarters and the Components.
    We rely on I&A to provide an understanding of potential threats and 
to coordinate with intelligence components within the Department and 
intelligence community. We then facilitate a cohesive and coordinated 
operational response, through the CTAB and other mechanisms, to deter 
and disrupt terrorist operations.
    The CTAB is both headquarters- and Component-driven. Components 
have the opportunity to address the Secretary's priorities in an 
organized, coordinated fashion, but also use the CTAB to bring 
attention to their initiatives and priorities that need support from 
headquarters and other components. In addition, the CTAB fosters 
collaboration among Components and provides situational awareness of 
what each Component does and needs during a high-threat scenario. 
Similarly, we work with the DHS Office of Policy to address day-to-day 
and long-term strategy issues identified through this process and work 
to implement those changes.
    Let me provide the following examples of how this process has 
worked over the last few months, with the offer to provide greater 
detail in a classified setting.
                             nppd/us-visit
    One of NPPD/US-VISIT's most important roles is to identify visitors 
to this country and to assist in the overall security of our 
immigration system.
    NPPD/US-VISIT provides biometric identification and analysis 
services to distinguish people who pose a threat from the millions of 
people who travel for legitimate purposes. The program stores and 
analyzes biometric data--digital fingerprints and photographs--and 
links that data with biographic information to establish, and then 
verify, identities. NPPD/US-VISIT's IDENT, is the Department's 
biometric storage and matching service.
    IDENT contains a watch list of more than 6.2 million known or 
suspected terrorists, criminals, and immigration violators. This 
capacity enables US-VISIT to provide homeland security decisionmakers 
with critical information when and where they need it. For example, 
this system can be utilized during by CBP primary screening during to 
run the fingerprints of foreign nationals against the watch list, with 
results returned in fewer than 10 seconds.
    IDENT data, paired with biographic information from NPPD/US-VISIT's 
ADIS, supports decision-maker determinations as to whether foreign 
travelers should be prohibited from entering the United States; can 
receive, extend, change, or adjust immigration status; have overstayed 
or otherwise violated their authorized terms of admission; should be 
apprehended or detained for law enforcement action; or need special 
protection or attention, as in the case of refugees. Through ADIS, 
NPPD/US-VISIT can identify individuals who have overstayed their period 
of admission and then forward these leads to ICE for further action. In 
addition, IDENT plays a critical role in the biometric screening and 
identity verification of non-U.S. citizens for the State Department, 
ICE, CBP, USCIS, and the U.S. Coast Guard.
    NPPD/US-VISIT's IDENT is fully interoperable with the Federal 
Bureau of Investigation's (FBI's) 10-fingerprint-based Integrated 
Automated Fingerprint Identification System (IAFIS). Daily transactions 
of FBI fingerprint data shared between IAFIS and IDENT number in the 
tens of thousands, providing the capability for FBI and NPPD/US-VISIT 
customers to simultaneously match biometrics against our system and 
watch list, as well as FBI data.
    Enhanced interoperability with the FBI has enabled NPPD/US-VISIT to 
launch the Rapid Response capability, which allows CBP officers to 
search and receive a response against the FBI's entire criminal master 
file of more than 69 million identities, in near real-time, during 
primary inspection. Rapid Response is operational at four air ports of 
entry and is planned for Nation-wide deployment at air ports of entry 
next fiscal year.
    DHS is also working closely with the Department of Defense (DOD) to 
increase information sharing and establish interoperability between 
IDENT and DOD's fingerprint database, the Automated Biometric 
Identification System. We currently have manual methods for sharing 
this data, which has helped DOD identify foreign combatants and match 
latent fingerprints retrieved from objects such as improvised explosive 
device fragments or collected from locations where terrorists have 
operated.
    The goal is to have the U.S. Government's three largest biometric 
systems--those of NPPD/US-VISIT, the FBI, and DOD--completely 
interoperable, thereby enriching our data sets by making information 
sharing more seamless and automating the biometric-checking process to 
make it far more efficient. Even after complete interoperability has 
been achieved, the three systems will continue to be maintained and 
governed by each agency's respective policies, including those that 
ensure appropriate privacy safeguards are in place.
              international cooperation and collaboration
    DHS works extensively with foreign governments to increase 
information sharing to prevent terrorist travel at the earliest point 
possible. The Department is focused on sharing appropriate information, 
increasing system interoperability, providing technical assistance, and 
establishing commonality in data and biometric standards and best 
practices. For instance, we are:
  <bullet> Working with Mexican federal police and immigration 
        authorities to identify and stop dangerous people from 
        transiting to Mexico; enhancing efforts to combat transnational 
        crime and confront organizations whose illicit actions 
        undermine public safety, erode the rule of law, and threaten 
        National security; and supporting Merida Initiative capacity-
        building programs such as the incorporation of biometrics into 
        Mexico Immigration's Integrated System for Migration 
        Operations. DHS has supported non-intrusive inspection 
        equipment training, financial crimes investigative training, 
        canine enforcement training, assistance in transitioning the 
        Mexican Customs from a revenue-based institution to a law 
        enforcement-based institution, and improvements in immigration 
        control programs.
  <bullet> Forging new partnerships with New Zealand, India, South 
        Africa, the Republic of Korea, Germany, Spain, Greece, and the 
        Dominican Republic to support their implementation of biometric 
        systems.
  <bullet> Sending technical experts to the United Kingdom, Australia, 
        Canada, and, potentially, New Zealand, to help build biometric 
        capabilities and develop more systematic methods for 
        information sharing.
  <bullet> Implementing the Preventing and Combating Serious Crime 
        agreements to formalize sharing of biometric and limited 
        biographic data under the U.S. Visa Waiver Program with 
        Germany, Spain, the Republic of Korea, and other countries.
  <bullet> Working with the International Civil Aviation Organization, 
        the International Transport Association and INTERPOL to support 
        the exchange of information and best practices and the 
        establishment of standards in the areas of aviation security, 
        identity management, emerging technologies, document security 
        and verification, and fraud detection.
    The Immigration Advisory Program (IAP) is another example of 
partnership between the Department, foreign governments, and commercial 
air carriers to identify and prevent high-risk, improperly-documented 
travelers from boarding U.S.-bound flights. IAP is currently in 
operation at eight airports in six countries. IAP officers have 
established strong working relationships with foreign law enforcement 
and counterterrorism officials and facilitated a direct link and real-
time communication between foreign counterparts, the U.S. Embassy/
Consulate, and the National Targeting Center.
    DHS will continue to expand international coalitions to protect our 
Nation in the face of evolving terrorist threats, an increasingly 
interconnected global economy, and growing transnational crime. Along 
with our partners, we view cooperation, collaboration, and information 
sharing as critical in reaching our common goals of enhancing global 
security while facilitating legitimate travel and ensuring access to 
our economies.
                            success stories
    Information sharing among agencies and international partners 
continues to yield significant results, as demonstrated by these 
success stories:
  <bullet> On February 3, 2011, the Australian Department of 
        Immigration and Citizenship submitted a batch of fingerprints 
        under the High Value Data Sharing Protocol of the Five Country 
        Conference for matching against IDENT. The fingerprints of a 
        subject applying for asylum in Australia matched an identity on 
        the IDENT biometric watch list as a known or suspected 
        terrorist in the FBI's Terrorist Screening Database. DHS 
        contacted the FBI Counterterrorism Division and its Terrorist 
        Explosives Device Analytical Center to confirm the subject's 
        derogatory information. The FBI then notified Australian 
        authorities. The individual was not granted asylum status in 
        Australia based on this information.
  <bullet> In November 2010, DHS assisted in a case involving an 
        applicant for employment at a nuclear power plant. It was 
        determined that the subject was using a false document under a 
        false identity, in an attempt to demonstrate his legal status 
        to reside and work in the United States. The subject was 
        subsequently arrested by DHS law enforcement authorities as an 
        overstay and placed into Federal custody awaiting removal 
        proceedings.
  <bullet> In October 2009, a vessel named Ocean Lady, transporting 76 
        undocumented persons, arrived off the coast of British 
        Columbia, Canada. The intent of all individuals on board was to 
        claim asylum status in Canada. The Canada Border Services 
        Agency (CBSA) intercepted the vessel and worked with the ICE 
        attache in Ottawa to determine whether information on the 
        identities of the individuals existed in U.S. systems. Pursuant 
        to an existing agreement between CBSA and DHS, the asylum 
        claimants' fingerprints were submitted to NPPD/US-VISIT for a 
        search. The fingerprint searches in IDENT identified two 
        subjects as known or suspected terrorists and members of the 
        Liberation Tigers of Tamil Eelam. Both subjects had also 
        previously applied for U.S. nonimmigrant visas in 2008 and had 
        been denied. Both subjects were denied asylum in Canada.
                               conclusion
    DHS is working hard to stop terrorists before they ever get to the 
United States. As we continue to work to address today's complex 
challenges, we will look for innovative ways to bridge gaps in 
information, technology, and human decision-making. Working with our 
partners; using common technologies, standards, and best practices; and 
sharing critical information will better protect us from those who seek 
to exploit our immigration systems. DHS is also cognizant that although 
physical security is of paramount concern and it is vital that we do 
everything possible to prevent terrorist travel, we must steadfastly 
seek to ensure that privacy, civil rights, and civil liberties are 
always protected. In developing and operating our programs, the 
Department's Office of Privacy and Office of Civil Rights and Civil 
Liberties are an integral part of the process.
    By strengthening and increasing coordination within the Department, 
across the Federal Government, and with our international partners, we 
will develop and implement comprehensive measures that make efficient 
use of limited resources. With the appropriate coordination and 
structure within DHS Headquarters, we can better support our 
Operational Components as they work to enhance the security of our 
immigration systems while facilitating legitimate travel. In my role as 
Principal Deputy CT Coordinator for the Department, I look forward to 
continuing to work with you to address the challenges that remain.
    Chairwoman Miller, Ranking Member Cuellar, and distinguished 
Members, thank you again for this opportunity to testify. I will be 
happy to answer any of your questions.

    Mrs. Miller. Thank you very much, Mr. Cohen. We look 
forward to questioning you on all of that new information you 
just gave us, so get ready.
    Next the Chairwoman recognizes Mr. Edge.

STATEMENT OF PETER T. EDGE, DEPUTY ASSOCIATE DIRECTOR, HOMELAND 
 SECURITY INVESTIGATIONS, IMMIGRATION AND CUSTOMS ENFORCEMENT, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Edge. Good morning, Chairwoman Miller, Ranking Member 
Cuellar, and distinguished Members of the subcommittee. On 
behalf of Secretary Napolitano and Director Morton, thank you 
for the opportunity to discuss ICE's efforts to prevent the 
exploitation of our visa system by terrorists.
    Visa overstays and other forms of status violation bring 
together two critical areas of ICE's mission: National security 
and immigration enforcement. The importance of determining who 
to allow entry into the United States and ensuring compliance 
with the conditions of the such entry cannot be understated.
    We are proud of the good work we have done over the last 10 
years to protect the integrity of our visa system. ICE 
recognizes that those who pose National security threats often 
commit immigration benefit fraud while seeking to enter or 
remain in the United States, and we work hard to detect and 
deter immigration fraud by continually enhancing our anti-fraud 
efforts.
    Working closely with Citizenship and Immigration Services, 
or CIS, ICE exercises criminal authority in the detection and 
deterrence of immigration fraud. While recognizing CIS's 
administrative authority, this strategy allows ICE to 
concentrate its effort on major fraud conspiracies and other 
cases of National security or public safety interest while 
allowing CIS to address the bulk of immigration benefit fraud 
cases administratively.
    As you know, the Homeland Security Act of 2002 directs DHS 
to assist in the identification of visa applicants who wish to 
enter the United States for illegitimate purposes, including 
illegal immigration, criminal activities, and terrorism-related 
activities. The visa adjudication process is often the first 
opportunity to assess whether a potential non-immigrant visitor 
or immigrant presents a threat to the United States.
    The Visa Security Program is one of several ICE programs 
designed to minimize global risk. Our special agents in the 
Visa Security Program focus on select applicants who may have 
connections to terrorism or transnational criminal 
organizations. We then coordinate with the State Department to 
develop targeting plans based on the various threats. DHS does 
not participate in all of these adjudications, but rather 
becomes a part of the process following initial screening of an 
applicant where ICE's visa security operation happens to be 
present.
    DHS actions compliment the consular office's initial 
screening, applicant interviews, and reviews of the 
applications and supporting documentation. ICE now conducts 
visa security operations at 19 high-risk visa adjudication 
posts in 15 countries. In fiscal year 2011 to date the Visa 
Security Program has screened over 900,000 visa applicants and, 
in collaboration with our State Department colleagues, 
determined that 130,000 require further review. Following the 
review of these 130,000 applicants, ICE identified derogatory 
information on more than 10,400 applicants. In every instance 
the State Department followed ICE's recommendation concerning 
the visa applicant.
    A vulnerability that in the past had been exploited 
involved the acceptance of foreign students and visitors into 
the U.S. educational system. Helping to mitigate this 
vulnerability is ICE's Student and Exchange Visitor Program, or 
SEVP, which is a self-funded program based on fees collected 
from students, exchange visitors, and schools. This program 
certifies, recertifies, and decertifies schools' eligibility to 
sponsor foreign individuals for scholastic enrollment and other 
academic purposes. The SEVP acts as the bridge for Government 
organizations that have an interest in information on foreign 
students. SEVP helps DHS and the State Department to monitor 
schools and exchange programs regarding the visa 
classifications of F for academic and M for vocational and J 
for exchange category visitors.
    SEVP administers the F and M student visa categories, while 
the State Department manages the J exchange visitor program. 
SEVP collects, maintains, and provides the information so that 
only legitimate foreign students or exchange visitors gain 
entry into and remain in the United States. SEVP uses the 
Student and Exchange Visitor Information System, or SEVIS, to 
track and monitor schools and programs, student exchange 
visitors and their dependents approved to participate in the 
U.S. education system.
    SEVP interacts closely with ICE's Counterterrorism and 
Criminal Exploitation Unit, CTCEU, the first National program 
dedicated to the enforcement of nonimmigrant visa applications. 
Today through the CTCEU, ICE proactively develops cases for 
investigation and cooperation with SEVP and the US-VISIT 
program.
    As we move forward it is imperative that we expand the 
Nation's enforcement efforts concerning overstays and other 
status violations specifically regarding those who threaten 
National security or public safety. Accordingly, ICE is 
analyzing various approaches to this issue, including 
sharpening the focus of programs that address vulnerabilities 
exploited by visa violators.
    Ten years after the attacks of 9/11 ICE has made 
significant progress in preventing terrorists from exploiting 
the visa process.
    Thank you again for the opportunity to testify today, and I 
would appreciate your continued support of ICE and law 
enforcement. Thank you very much.
    [The statement of Mr. Edge follows:]
                  Prepared Statement of Peter T. Edge
                           September 13, 2011
                              introduction
    Chairwoman Miller, Ranking Member Cuellar, and distinguished 
Members of the subcommittee: On behalf of Secretary Napolitano and 
Director Morton, thank you for the opportunity to discuss U.S. 
Immigration and Customs Enforcement's (ICE) efforts to prevent the 
exploitation of our visa system by terrorists. Visa overstays and other 
forms of status violation bring together two critical areas of ICE's 
mission--National security and immigration enforcement, and the 
importance of determining whom to allow entry into the United States 
and ensuring compliance with the conditions of such entry cannot be 
understated. We are proud of the good work we have done over the last 
10 years to protect the integrity of our visa system, and I look 
forward to sharing with you both our successes thus far and the 
opportunities we see to improve our systems.
                       joint anti-fraud strategy
    We recognize that those who pose National security threats often 
commit immigration benefit fraud while seeking to enter or remain in 
the United States, and we work hard to detect and deter immigration 
fraud and to continually enhance our anti-fraud efforts. Working 
closely with U.S. Citizenship and Immigration Services (USCIS), ICE 
exercises criminal authority in the detection and deterrence of 
immigration fraud, while recognizing USCIS' administrative authority. 
This strategy allows ICE to concentrate its efforts on major fraud 
conspiracies and other cases of National security or public safety 
interest, while allowing USCIS to address the bulk of immigration 
benefit fraud cases administratively.
    Through the ICE Document and Benefit Fraud Task Forces (DBFTFs), we 
focus our efforts on detecting, deterring, and disrupting document and 
benefit fraud. DBFTF participants include USCIS, the Department of 
State, the Department of Labor, and the Social Security Administration. 
Task Force investigators with expertise in different aspects of fraud 
collaborate with U.S. Attorneys' Offices around the country to 
formulate a comprehensive approach in targeting the criminal 
organizations and the beneficiaries behind these fraudulent schemes.
                       the visa security program
    The Homeland Security Act of 2002 directs DHS to assist in the 
identification of visa applicants who wish to enter the United States 
for illegitimate purposes, including illegal immigration, criminal 
activities, and terrorism-related activities. The visa adjudication 
process is often the first opportunity to assess whether a potential 
non-immigrant visitor or immigrant presents a threat to the United 
States. The Visa Security Program (VSP) is one of several ICE programs 
focused on minimizing global risks.
    Our VSP Special Agents focus on select applicants and any 
connection the applicants may have to terrorism or transnational 
criminal organizations and coordinate with DOS to develop targeting 
plans based on assessed conditions and threats. The VSP ensures 
thorough reviews of applicants of concern in order to assess whether 
they pose a security threat to the United States. DHS does not 
participate in all visa adjudications, but rather becomes a part of the 
process following initial screening of an applicant in countries where 
an ICE visa security operation is present. DHS actions complement the 
consular officers' initial screening, applicant interviews, and reviews 
of applications and supporting documentation.
    ICE now conducts visa security operations at 19 high-risk visa 
adjudication posts in 15 countries. In fiscal year 2011 to date, the 
VSP has screened 900,000 visa applicants and, in collaboration with DOS 
colleagues, determined that 130,000 required further review. Following 
the review of these 130,000 applications, ICE identified derogatory 
information on more than 10,400 applicants. In every instance, DOS 
followed the VSP's recommendation concerning the visa applicant.
    In March 2010 Customs and Border Protection's National Targeting 
Center (NTC) implemented a program to conduct continuous vetting of 
U.S. non-immigrant visas that have been recently issued, revoked, and/
or denied. The continuous vetting ensures that changes in a traveler's 
visa status are identified in near real-time, allowing CBP to 
immediately determine whether to provide a no board recommendation to a 
carrier, recommend revocation of the visa to Department of State, or 
notify the ICE NTEU for individuals determined to be within the United 
States. Since the program's inception the Department of State has 
revoked more than 900 visas based on requests from CBP on information 
uncovered after a visa was issued.
    Additionally, ICE has deployed VSP personnel to the NTC to augment 
and expand current operations. The NTC provides tactical targeting and 
analytical research in support of preventing terrorist and terrorist 
weapons from entering the United States. The co-location of VSP 
personnel at the NTC has helped increase both communication and 
information sharing. The NTC conducts pre-departure screening of all 
travelers on flights bound for the United States. Screening identifies 
high-risk passengers who should be denied boarding, including those 
whose visas have been revoked.
            the student and exchange visitor program (sevp)
    The Student and Exchange Visitor Program (SEVP) is a self-funded 
program based on fees collected from students, exchange visitors, and 
schools. It also certifies, recertifies, and decertifies schools' 
eligibility to sponsor foreign individuals for scholastic enrollment 
and other academic purposes. SEVP oversees reporting requirements and 
policies related to foreign nonimmigrant students and exchange 
visitors, and provide overall guidance to schools regarding SEVIS.
    SEVP acts as the bridge for Government organizations that have an 
interest in information on foreign students. SEVP helps DHS and DOS 
monitor schools and exchange programs, as well as F (academic), M 
(vocational), and J (exchange) category visitors. SEVP administers the 
F and M student visa categories, while DOS manages the J exchange 
visitor program.
    SEVP collects, maintains, and provides the information so that only 
legitimate foreign students or exchange visitors gain entry to, and 
remain in, the United States. The result is an easily accessible 
information system that provides timely information to DOS, U.S. 
Customs and Border Protection, U.S. Citizenship and Immigration 
Services and ICE. SEVP has a mutual commitment of shared responsibility 
with the educational community to maintain support and cooperation. 
Currently, SEVP has certified over 10,360 schools.
    SEVP uses the Student and Exchange Visitor Information System 
(SEVIS) to track and monitor schools and programs, students, exchange 
visitors, and their dependents approved to participate in the U.S. 
education system.
      the counterterrorism and criminal exploitation unit (ctceu)
    The Counterterrorism and Criminal Exploitation Unit is the first 
National program dedicated to the enforcement of nonimmigrant visa 
violations. Today, through the CTCEU, ICE proactively develops cases 
for investigation in cooperation with the SEVP and the United States 
Visitor and Immigrant Status Indicator Technology (US-VISIT) Program. 
These programs enable ICE to access information about the millions of 
students, tourists, and temporary workers present in the United States 
at any given time, and identify those who have overstayed or otherwise 
violated the terms and conditions of their admission.
    Each year, the CTCEU analyzes records of hundreds of thousands of 
potential status violators, after analysis of data from SEVIS and US-
VISIT, along with other information. These records are resolved by 
further establishing potential violations that would warrant field 
investigations, establishing compliance, or establishing departure 
dates from the United States. Between 15,000 and 20,000 of these 
records are resolved by in-house analysts each month. Since the 
creation of the CTCEU in 2003, analysts have resolved more than 1.6 
million such records using automated and manual review techniques. On 
average, ICE opens approximately 6,000 investigative cases annually, 
and assigns them to our Special Agents in the field for further 
investigation, resulting in over 1,400 administrative arrests per year.
    Agents and analysts in ICE monitor the latest threat reports and 
proactively address emergent issues. This practice has contributed to 
ICE's counterterrorism mission by initiating or supporting high-
priority National security initiatives based upon specific 
intelligence. The practice is designed to detect and identify 
individuals exhibiting specific risk factors based on intelligence 
reporting, including international travel from specific geographic 
locations to the United States, and in-depth criminal research and 
analysis of dynamic social networks. This person-centric approach to 
nonimmigrant prioritization moves away from the traditional 
identification approach based upon country of birth, gender, and age.
    In order to ensure that the potential violators who pose the 
greatest threats to National security are given priority attention, ICE 
uses intelligence-based criteria, developed in close consultation with 
the intelligence and law enforcement communities. ICE assembles the 
Compliance Enforcement Advisory Panel (CEAP) on a tri-annual basis to 
ensure that it uses the latest threat intelligence to target 
nonimmigrant overstays and status violators who pose the greatest 
threats to National security and to discuss possible changes based on 
current threat trends.
    A recent ICE investigation in Las Cruces, New Mexico, highlights 
how the CTCEU functions. As a result of CTCEU data analysis and field 
investigation, in February 2010, ICE Special Agents arrested two 
foreign nationals who were admitted as F-1 nonimmigrant students and 
violated the terms and conditions of their admission. Both individuals 
were referred for investigation after their status was terminated in 
SEVIS for failure to maintain student status, as well as for possessing 
several indicators of National security concerns.
    Likewise, in March 2010, ICE's Counterterrorism and Criminal 
Exploitation Group in Miami, Florida, initiated ``Operation Class 
Dismissed,'' a criminal investigation that led to the indictment of the 
owner/operator of a Miami-based foreign language school and one of its 
employees on four counts of conspiring to commit a criminal offense 
against the United States. The owner and employee were suspected of 
fraudulently sponsoring foreign students by certifying student status 
to nonimmigrants, without requiring them to maintain full courses of 
study in order to comply with the terms of their admission. ICE's 
primary goal in these types of investigations is to focus on the 
criminal violations of the owner/operators of these businesses and the 
administrative violations on the students. This ICE investigation 
uncovered information that only approximately 5 percent of the school's 
students attended class on any given day. In addition to the 
indictment, follow-up investigation by ICE resulted in the 
administrative arrests of 116 student visa violators purported to be 
attending the school from countries including Thailand, Syria, 
Honduras, South Korea, Japan, Colombia, the Dominican Republic, 
Turkmenistan, Turkey, Indonesia, Venezuela, Brazil, and Kyrgyzstan.
    As we move forward, it is imperative that we expand the Nation's 
enforcement efforts concerning overstays and other status violations 
specifically regarding those who threaten National security or public 
safety. Accordingly, ICE is analyzing various approaches to this issue, 
including sharpening the focus of programs that address vulnerabilities 
exploited by visa violators.
          coordination with us-visit and other dhs components
    CTCEU also works in close collaboration with US-VISIT, part of the 
DHS's National Protection and Programs Directorate (NPPD). US-VISIT 
supports DHS's mission to protect our Nation by providing biometric 
identification services to Federal, State, and local government 
decisionmakers to help them accurately identify the people they 
encounter, and determine whether those people pose risks to the United 
States. DHS's use of biometrics under the US-VISIT program is a 
powerful tool in preventing identity fraud and ensuring that DHS is 
able to rapidly identify criminals and immigration violators who try to 
cross our borders or apply for immigration benefits under an assumed 
name. Biometric information sharing between the Federal Bureau of 
Investigation's Criminal Justice Information Services and US-VISIT is 
the foundation of ICE's Secure Communities IDENT/IAFIS Interoperability 
Program.
    Through Secure Communities, aliens--including those who have 
overstayed or otherwise violated their immigration status--who are 
encountered by law enforcement may be identified as immigration 
violators when criminally arrested by State and local law enforcement. 
Once individuals are identified through Secure Communities, ICE 
officials determine what enforcement action is appropriate, consistent 
with ICE's enforcement priorities. Currently, Secure Communities is 
deployed in over 1,500 jurisdictions in 44 States.
    US-VISIT also analyzes biographical entry and exit records stored 
in its Arrival and Departure Information System to further support 
DHS's ability to identify international travelers who have remained in 
the United States beyond their periods of admission by analyzing 
related biographical information.
    ICE receives or coordinates nonimmigrant overstay and status 
violation referrals from US-VISIT Data Integrity Group (DIG) from three 
unique sources, which includes the typical overstay violation; a 
biometric watch list notification and a CTCEU Visa Waiver Enforcement 
Program (VWEP) nomination. The first type, Nonimmigrant Overstay Leads, 
is used by the CTCEU to generate field investigations by identifying 
foreign visitors who violate the terms of their admission by remaining 
in the United States past the date of their required departure.
    A second type of lead is generated from biometric data collected by 
US-VISIT. US-VISIT routinely receives fingerprint records from a 
variety of Governmental sources and adds them to a biometric watch list 
that includes individuals of National security concern. These new watch 
list records are checked against all fingerprints in the US-VISIT's 
biometric database, the Automated Biometric Identification System, or 
IDENT, managed by US-VISIT, to determine if DHS has previously 
encountered the individual. If US-VISIT identifies a prior encounter, 
such as admission to the United States, the information is forwarded to 
ICE for review and possible field assignment. Similarly, US-VISIT 
monitors records for individuals who, at the time of admission to the 
United States, were the subject of watch list records that did not 
render the individuals inadmissible to the United States. Therefore, if 
such individuals overstay their terms of admission, information on the 
subjects is forwarded to ICE for review and possible referral to 
investigative field offices for follow-up.
    The third type of lead pertains to the CTCEU's Visa Waiver 
Enforcement Program (VWEP). The Visa Waiver Program (VWP) is the 
primary source of nonimmigrant visitors from countries other than 
Canada and Mexico. Although the overstay rate from this population is 
less than 1 percent, ICE created a program dedicated to overstays 
arising from this VWP population given the large number of individuals 
in this category. Prior to the implementation of the VWEP in 2008, 
there was no National program dedicated to addressing overstays within 
this population. CTCEU provides a refined weekly list of individuals to 
US-VISIT for additional scrutiny, who have been identified as potential 
overstays who entered the United States under the VWP. In accord with 
its intelligence-based criteria, a relevant portion of this report is 
then imported into the CTCEU's internal lead tracking system for review 
and possible field assignment.
    Additionally, the CTCEU develops potential overstay and status 
violation leads from SEVIS and other sources, imports these leads 
directly from those databases, and applies its intelligence-based 
criteria to determine whether investigative referral is appropriate. 
Throughout its history, the integrity of SEVIS data and its 
applicability have been valued throughout the law enforcement.
                        ice's presence overseas
    Stopping a threat before it reaches our shores is an important 
priority that ICE supports internationally. Through our Office of 
International Affairs (OIA), we have personnel in 70 offices in 47 
countries. ICE personnel in these offices collaborate with our foreign 
counterparts and Federal partner agencies in joint efforts to disrupt 
and dismantle transnational criminal organizations engaged in money 
laundering, contraband smuggling, weapons proliferation, forced child 
labor, human rights violations, intellectual property rights 
violations, child exploitation, human smuggling and trafficking, and 
many other violations. Additionally, ICE facilitates the repatriation 
of individuals with final orders of removal, returning violators to 
their home countries.
                     overseas coordination with dos
    Effective border security requires broad information sharing and 
cooperation among U.S. agencies. On January 11, 2011, ICE signed a 
memorandum of understanding (MOU) outlining roles, responsibilities, 
and collaboration between ICE and the DOS Bureaus of Consular Affairs 
and Diplomatic Security. The MOU governs the day-to-day operations of 
ICE agents conducting visa security operations at U.S. embassies and 
consulates abroad. To facilitate information sharing and reduce 
duplication of efforts, ICE and DOS support collaborative training and 
orientation prior to overseas deployments. Once they are deployed to 
overseas posts, ICE and DOS personnel work closely together in: 
Participating in working groups; coordinating meetings, training, and 
briefings; and engaging in regular and timely information sharing. The 
VSP's presence at U.S. embassies and consulates brings an important law 
enforcement element to the visa review process. Additionally, this 
relationship serves as an avenue for VSP personnel to assist Consular 
Officers and other U.S. Government personnel to recognize potential 
security threats in the visa process.
    ICE continues to evaluate the need to screen and investigate 
additional visa applicants at high-risk visa issuing posts other than 
the 19 posts at which the agency currently operates, which were 
determined in collaboration between ICE and DOS. ICE will continue to 
conduct joint site visits with DOS to identify locations for deployment 
based on emerging threats. We are engaged with our counterparts at DOS 
in determining a common strategic approach to the broader question of 
how best to collectively secure the visa issuance process. We look 
forward to continuing to report back to you with updates on this 
process.
                            recent successes
    Working in tandem with other DHS personnel, as well as our 
international, Federal, State, local, and Tribal partners, we have 
enjoyed significant successes preventing visa fraud. I would like to 
elaborate briefly on a few of these cases.
    In December 2010, ICE Special Agents were involved in the 
identification and investigation of a transnational alien smuggling 
organization that facilitated the illegal travel of Somali nationals 
into Yemen and on to other Western locations including the United 
States. ICE Special Agents received information from the ICE Attache 
office in Amman, Jordan that two Somali nationals had been intercepted 
in Amman attempting to travel to Chicago using counterfeit travel 
documents, and contacted local officials in Yemen and Somalia to 
investigate how the counterfeit documents had been obtained and how the 
subjects had transited Yemen. The information developed was shared with 
other U.S. agencies at post in Sana'a via the Law Enforcement Working 
Group, as well as ICE domestic offices and the appropriate FBI Joint 
Terrorism Task Force. While the joint investigation is on-going, 
efforts to date have eliminated this scheme as a method of entry to the 
United States.
    More recently, in May 2011, ICE Special Agents within the VSP 
Security Advisory Opinion Unit (SAOU) investigated a Saudi Arabian 
national who obtained a nonimmigrant visa to enter the United States by 
concealing his true identity from DOS by using a variation of his true 
name. Through vetting efforts, the SAOU identified this individual's 
true identity and revealed that he was a known terrorist with 
significant ties to other known terrorists, and who was likely involved 
in the planning of a terrorist attack in 2003. Based on this 
investigation and at the request of the VSP and SAOU, DOS revoked the 
individual's visa on National security-related grounds and prevented 
him from traveling to the United States.
                               conclusion
    Ten years after the attacks of 9/11, ICE has made significant 
progress in preventing terrorists from exploiting the visa process. 
Thank you again for the opportunity to testify today and for your 
continued support of ICE and its law enforcement mission.
    I would be pleased to answer any questions you may have.

    Mrs. Miller. Thank you, Mr. Edge. You certainly do have our 
continued support, and now the Chairwoman recognizes Mr. Stana.

STATEMENT OF RICHARD M. STANA, DIRECTOR, HOMELAND SECURITY AND 
           JUSTICE, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stana. Thank you, Chairwoman Miller and Mr. Cuellar, 
for the invitation to testify at today's hearing about GAO's 
work on this very important topic, the integrity and security 
of our visa processes.
    As you know, each year millions of visitors come to the 
United States legally for a temporary visit. In the 6-year 
period from fiscal year 2005 to 2010 there were 36 million 
nonimmigrant visas issued for things like pleasure, business 
travel, student exchanges and so on, among other things. In 
addition, during that same period over 98 million visitors were 
admitted to the United States under the visa waiver program.
    While most visa abusers you might say are motivated by 
economic opportunities to enter the United States and work, 
there are other National security consequences. As was 
mentioned earlier, 5 of the 19, 9/11 hijackers were here on one 
or the other overstay category, and 36 of 400 individuals 
convicted in international terrorism-related investigations by 
the Department of Justice were overstays.
    As you have heard from the other panelists, both DHS and 
State have made some progress in shoring up our visa processes. 
I would like to discuss three areas from my prepared statement 
which could possibly add some context to what you have heard.
    First, let's talk about the problem. We have overstays 
whether the person was admitted to the U.S. on a valid visa or 
through the visa waiver program. As was previously mentioned, 
the Pew Hispanic Center has estimated that about 40 percent of 
the total illegal alien population in the United States came in 
legally through a visa. On average that is about 4 in 10 and 
contrast the resources that we spend on interior enforcement 
with what we spend on the 60 percent for border enforcement, a 
big difference.
    To its credit, as you heard, ICE uses a risk management 
approach to focus its limited resources on overstays leads that 
it considers most likely to pose a threat to National security 
or public safety. But that said, ICE averages only about 1,200 
overstay arrests per year and devotes a little more than 3 
percent of its investigative resources to overstays.
    Now to be fair, finding overstays can be difficult, they 
don't self-advertise. Sometimes they leave the United States, 
sometimes they are now on status, sometimes they simply cannot 
be located. There are other programs that ICE and other DHS 
components operate, like work site enforcement and secure 
communities that do address overstays or overstays are a 
component of those programs. But when you add it all up, you 
take all those programs together, we are not making much of a 
dent in that 40 percent of the illegal alien population.
    Moving forward, ICE expressed interest in increasing the 
resources to overstay investigations and assigning some 
responsibilities to ERO. But they haven't established time 
frames yet or identified the resources to make this happen.
    My second point involves the US-VISIT system. There's good 
news and not so good news. The good new is it is operating 300 
air, sea, and land ports of entry and it seems to be working 
well. It gathers biometric information which can enable DHS to 
identify travelers, check law enforcement databases, and 
prescreens others.
    The not-so-good news is that it has only a very limited 
capability to process exit records currently. The exit process 
now includes processing air carriers, electronic submissions of 
manifest data and other biographic information as well as 
inconsistent collection of 
I-94s. So all told, it is not in a position right now to 
reliably state who has overstayed their visa and remains in the 
country.
    As of July, this past July, US-VISIT obligated about $193 
million to develop air, sea, and land exit solutions since 
2002. They had different types of exit solutions and piloted 
them, but all have been determined to be insufficient and 
incomplete. There are some other arrangements being discussed 
now, such as with the Canadians, to make their exit as a person 
leaving the United States going into a Canada become our--their 
entrance become our exit and share information. But those 
agreements have not been formalized and there is more work that 
remains.
    Finally, let's turn to the issue of ensuring visa integrity 
and security overseas. ICE has deployed agents to certain 
embassies and consulates as part of its Visa Security Program, 
as you have heard, but at some posts we found that guidance, 
training, and standard operating procedures were not 
established, which led to tensions between ICE and State, as 
well as operational inconsistencies. We also found that while 
ICE had a presence at 19 posts in 15 countries; it did not have 
agents located at 11 of the top 20 high-risk posts. You know, 
expanding the program can be limited by embassy space and 
budget consideration, but ICE has not acted on possible 
alternatives. Although I am listening to some of my fellow 
panelists this morning, it sounds like perhaps that information 
is superseded and there are steps to be taken to expand their 
vetting and screening processes.
    On the positive side we heard about ESTA a few minutes ago. 
ESTA was implemented without many glitches. They are screening 
about 99 percent of the travelers coming into the United States 
on visa. However, there were about, I believe it was about 
350,000 travelers who were boarded on airplanes without having 
a verified ESTA document and of those about 650 of those it was 
later found should not have been permitted to board the 
airplane. DHS has yet to analyze these cases to see if these 
were of legitimate concern or there were systematic weaknesses 
that need to be addressed for the program.
    That concludes my statement. It is important to balance 
visa security responsibilities with a need to enhance travel, 
and we have made a number of recommendations to both State and 
DHS to help this happen.
    Thank you very much.
    [The statement of Mr. Stana follows:]
                 Prepared Statement of Richard M. Stana
                           September 13, 2011
                             gao highlights
    Highlights of GAO-11-910T, a testimony before the Subcommittee on 
Border and Maritime Security, Committee on Homeland Security, House of 
Representatives.
Why GAO Did This Study
    The attempted bombing of an airline on December 25, 2009, by a 
Nigerian citizen with a valid U.S. visa renewed concerns about the 
security of the visa process. Further, unauthorized immigrants who 
entered the country legally on a temporary basis but then overstayed 
their authorized periods of admission--overstays--could pose homeland 
security risks. The Department of Homeland Security (DHS) has certain 
responsibilities for security in the visa process and for addressing 
overstays. DHS staff review visa applications at certain Department of 
State overseas posts under the Visa Security Program. DHS also manages 
the Visa Waiver Program through which eligible nationals from certain 
countries can travel to the United States without a visa. This 
testimony is based on GAO products issued in November 2009, August 
2010, and from March to May 2011. As requested, this testimony 
addresses the following issues: (1) Overstay enforcement efforts, (2) 
efforts to implement a biometric exit system and challenges with the 
reliability of overstay data, and (3) challenges in the Visa Security 
and Visa Waiver programs.
What GAO Recommends
    GAO has made recommendations in prior reports that, among other 
things, call for DHS to strengthen management of overstay enforcement 
efforts, mechanisms for collecting data from foreign nationals 
departing the United States, and planning for addressing certain Visa 
Security and Visa Waiver programs' risks. DHS generally concurred with 
these recommendations and has actions planned or underway to address 
them.
    visa security: additional actions needed to strengthen overstay 
           enforcement and address risks in the visa process
What GAO Found
    Federal agencies take actions against a small portion of the 
estimated overstay population, but strengthening planning and 
assessment of overstay efforts could improve enforcement. Within DHS, 
U.S. Immigration and Customs Enforcement's (ICE) Counterterrorism and 
Criminal Exploitation Unit (CTCEU) is the lead agency responsible for 
overstay enforcement. CTCEU arrests a small portion of the estimated 
overstay population in the United States because of, among other 
things, ICE's competing priorities, but ICE expressed an intention to 
augment its overstay enforcement resources. From fiscal years 2006 
through 2010, ICE reported devoting about 3 percent of its total field 
office investigative hours to CTCEU overstay investigations. ICE was 
considering assigning some responsibility for noncriminal overstay 
enforcement to its Enforcement and Removal Operations directorate, 
which apprehends and removes aliens subject to removal from the United 
States. In April 2011, GAO reported that by developing a time frame for 
assessing needed resources and using the assessment findings, as 
appropriate, ICE could strengthen its planning efforts. Moreover, in 
April 2011, GAO reported that CTCEU tracked various performance 
measures, but did not have a mechanism to assess the outcomes of its 
efforts. GAO reported that by establishing such a mechanism, CTCEU 
could better ensure that managers have information to assist in making 
decisions.
    DHS has not yet implemented a comprehensive biometric system to 
match available information (e.g., fingerprints) provided by foreign 
nationals upon their arrival and departure from the United States and 
faces reliability issues with data used to identify overstays. GAO 
reported that while the United States Visitor and Immigrant Status 
Indicator Technology Program's biometric entry capabilities were 
operating at ports of entry, exit capabilities were not, and DHS did 
not have a comprehensive plan for biometric exit implementation. DHS 
conducted pilots to test two scenarios for an air exit solution in 
2009, and in August 2010, GAO concluded that the pilots' limitations, 
such as limitations not defined in the pilot evaluation plan like 
suspending exit screening at departure gates to avoid flight delays, 
curtailed DHS's ability to inform a decision for a long-term exit 
solution. Further, in April 2011, GAO reported that there is not a 
standard mechanism for nonimmigrants departing the United States 
through land ports of entry to remit their arrival and departure forms. 
Such a mechanism could help DHS obtain more complete departure data for 
identifying overstays.
    GAO identified various challenges in the Visa Security and Visa 
Waiver programs related to planning and assessment efforts. For 
example, in March 2011, GAO found that ICE developed a plan to expand 
the Visa Security Program to additional high-risk posts, but ICE had 
not fully adhered to the plan or kept it up to date. Further, ICE had 
not identified possible alternatives that would provide the additional 
security of Visa Security Program review at those high-risk posts that 
do not have a program presence. In addition, DHS implemented the 
Electronic System for Travel Authorization (ESTA) to meet a statutory 
requirement intended to enhance Visa Waiver Program security and took 
steps to minimize the burden on travelers to the United States added by 
the new requirement. However, DHS had not fully evaluated security 
risks related to the small percentage of Visa Waiver Program travelers 
without verified ESTA approval.
    Chairwoman Miller, Ranking Member Cuellar, and Members of the 
subcommittee: I am pleased to be here today to discuss the Department 
of Homeland Security's (DHS) programs and efforts to strengthen the 
security of the visa process, including efforts to identify and take 
enforcement against overstays--individuals who were admitted to the 
United States legally on a temporary basis--either with a visa, or in 
some cases, as visitors who were allowed to enter without a visa--but 
then overstayed their authorized periods of admission.\1\ The attempted 
bombing of Northwest Airlines flight 253 on December 25, 2009, by a 
Nigerian citizen in possession of a valid U.S. visa renewed concerns 
about the security of the visa process. Each year, millions of visitors 
come to the United States legally on a temporary basis. From fiscal 
year 2005 through fiscal year 2010, the Department of State issued over 
36 million nonimmigrant visas for business travel, pleasure, tourism, 
medical treatment, or for foreign and cultural exchange student 
programs, among other things.\2\ In addition, from fiscal year 2005 
through fiscal year 2010, over 98 million visitors were admitted to the 
United States under the Visa Waiver Program, which allows nationals 
from certain countries to apply for admission to the country as 
temporary visitors for business or pleasure without first obtaining a 
visa from a U.S. consulate abroad.\3\
---------------------------------------------------------------------------
    \1\ Visitors who are allowed to seek admission without a visa 
include citizens of Canada and the British Overseas Territory of 
Bermuda (and certain residents of other adjacent islands, such as the 
Bahamas) under certain circumstances, as well as Visa Waiver Program 
participants (see footnote 3). In-country overstays refer to 
nonimmigrants who have exceeded their authorized periods of admission 
and remain in the United States without lawful status, while out-of-
country overstays refer to individuals who have departed the United 
States but who, on the basis of arrival and departure information, 
stayed beyond their authorized periods of admission.
    \2\ Temporary visitors to the United States generally are referred 
to as ``nonimmigrants.'' For a listing and descriptions of nonimmigrant 
categories, see 8 U.S.C.  1101(a)(15); see also 8 C.F.R.  
214.1(a)(1)-(2). Generally, nonimmigrants wishing to visit the United 
States gain permission to apply for admission to the country through 
one of two ways. First, those eligible for the Visa Waiver Program 
apply on-line to establish eligibility to travel under the program 
prior to departing for the United States (unless they are seeking 
admission at a land port of entry, in which case eligibility is 
established at the time of application for admission). Second, those 
not eligible for the Visa Waiver Program and not otherwise exempt from 
the visa requirement must visit the U.S. consular office with 
jurisdiction over their place of residence or, in certain 
circumstances, the area in which they are physically present but not 
resident, to obtain a visa. Upon arriving at a port of entry, 
nonimmigrants must undergo inspection by U.S. Customs and Border 
Protection officers, who determine whether or not they may be admitted 
into the United States.
    \3\ In order to qualify for the Visa Waiver Program, a country must 
meet various requirements, such as entering into an agreement with the 
United States to report lost or stolen passports within a strict time 
limit and in a manner specified in the agreement. Currently, 36 
countries participate in the Visa Waiver Program: Andorra, Australia, 
Austria, Belgium, Brunei, Czech Republic, Denmark, Estonia, Finland, 
France, Germany, Greece, Hungary, Iceland, Ireland, Italy, Japan, 
Latvia, Liechtenstein, Lithuania, Luxembourg, Malta, Monaco, the 
Netherlands, New Zealand, Norway, Portugal, San Marino, Singapore, 
Slovakia, Slovenia, South Korea, Spain, Sweden, Switzerland, and the 
United Kingdom.
---------------------------------------------------------------------------
    Further, the most recent estimates from the Pew Hispanic Center 
approximated that in 2006, out of an unauthorized resident alien 
population of 11.5 million to 12 million in the United States, about 4 
million to 5.5 million were overstays.\4\ In February 2008, we reported 
that most overstays are likely motivated by economic opportunities to 
stay in the United States beyond their authorized periods of 
admission.\5\ Individuals overstaying their authorized periods of 
admission could pose homeland security concerns. For example, in some 
instances overstays have been identified as terrorists or involved in 
terrorist-related activity, such as 5 of the 19 September 11, 2001, 
hijackers. Further, according to DHS data, of approximately 400 
individuals reported by the Department of Justice as convicted in the 
United States as a result of international terrorism-related 
investigations conducted from September 2001 through March 2010, 
approximately 36 were overstays.\6\
---------------------------------------------------------------------------
    \4\ Pew Hispanic Center, Modes of Entry for the Unauthorized 
Migrant Population (Washington, DC: May 22, 2006).
    \5\ GAO, Visa Waiver Program: Limitations with Department of 
Homeland Security's Plan to Verify Departure of Foreign Nationals, GAO-
08-458T (Washington, DC: Feb. 28, 2008).
    \6\ For more information on these convictions, see Department of 
Justice, National Security Division Statistics on Unsealed 
International Terrorism and Terrorism-Related Convictions (Washington, 
DC: March 2010).
---------------------------------------------------------------------------
    DHS has certain responsibilities for strengthening security in the 
visa process, including identifying and taking enforcement action to 
address overstays. Within DHS, U.S. Customs and Border Protection (CBP) 
is tasked with, among other duties, inspecting all people applying for 
entry to the United States to determine their admissibility to the 
country and screening Visa Waiver Program applicants to determine their 
eligibility to travel to the United States under the program. U.S. 
Immigration and Customs Enforcement (ICE) is the lead agency for 
enforcing immigration law in the interior of the United States and is 
primarily responsible for overstay enforcement, and within ICE, the 
Counterterrorism and Criminal Exploitation Unit (CTCEU) is primarily 
responsible for overstay investigations. The United States Visitor and 
Immigrant Status Indicator Technology Program (US-VISIT) within DHS's 
National Protection and Programs Directorate supports the 
identification of nonimmigrant overstays. In 2002, DHS initiated the 
US-VISIT Program to develop a comprehensive entry and exit system to 
collect biometric data from aliens traveling through U.S. ports of 
entry. In 2004, US-VISIT initiated the first step of this program by 
collecting biometric data on aliens entering the United States. 
Further, the Department of State is responsible for issuing visas to 
foreign nationals seeking admission to the United States. In addition, 
DHS has responsibility for managing the Visa Security Program and the 
Visa Waiver Program. Specifically, ICE oversees the Visa Security 
Program under which it deploys officials to certain U.S. embassies and 
consulates to strengthen the visa process by working with Department of 
State officials in reviewing visa applications.\7\ DHS is also 
responsible for establishing visa policy, including policy for the Visa 
Waiver Program.
---------------------------------------------------------------------------
    \7\ The Homeland Security Act of 2002 (Pub. L. 107-296, 116 Stat. 
2135) established DHS and gave the Secretary of Homeland Security 
authority to issue regulations with respect to the issuance and refusal 
of visas. Section 428 of the Homeland Security Act authorizes the 
Secretary of Homeland Security to assign DHS employees to consular 
posts overseas to support the visa process through various functions. 
See 6 U.S.C.  236(e).
---------------------------------------------------------------------------
    As requested, my testimony will cover the following key issues: (1) 
Efforts to take enforcement action against overstays and reported 
results; (2) DHS's efforts to implement a biometric exit system and the 
reliability of data used to identify overstays; and (3) challenges and 
weaknesses in the Visa Security and Visa Waiver programs. This 
testimony is based on our prior work on overstay enforcement efforts, 
the US-VISIT program, the Visa Security Program, and the Visa Waiver 
Program. We issued reports from these efforts in April 2011, August 
2010 and November 2009, March 2011, and May 2011, respectively.\8\ For 
these reports, we examined program documentation, such as standard 
operating procedures, guidance for investigations, and implementation 
plans. We also interviewed DHS and Department of State officials. 
Additional details on the scope and methodology are available in our 
published reports. We conducted this work in accordance with generally 
accepted government auditing standards.
---------------------------------------------------------------------------
    \8\ GAO, Overstay Enforcement: Additional Mechanisms for 
Collecting, Assessing, and Sharing Data Could Strengthen DHS's Efforts 
but Would Have Costs, GAO-11-411 (Washington, DC: April 15, 2011); 
Homeland Security: US-VISIT Pilot Evaluations Offer Limited 
Understanding of Air Exit Options, GAO-10-860 (Washington, DC: Aug. 10, 
2010); Homeland Security: Key US-VISIT Components at Varying Stages of 
Completion, but Integrated and Reliable Schedule Needed, GAO-10-13 
(Washington, DC: Nov. 19, 2009); Border Security: DHS's Visa Security 
Program Needs to Improve Performance Evaluation and Better Address Visa 
Risk Worldwide, GAO-11-315 (Washington, DC: Mar. 31, 2011), and Visa 
Waiver Program: DHS Has Implemented the Electronic System for Travel 
Authorization, but Further Steps Needed to Address Potential Program 
Risks, GAO-11-335 (Washington, DC: May 5, 2011).
---------------------------------------------------------------------------
    In summary, DHS has taken action to strengthen security in the visa 
process, but operational and management weaknesses have hindered the 
effectiveness of these efforts. First, ICE investigates and arrests a 
small portion of the estimated overstay population in the United States 
because of, for example, competing enforcement priorities. ICE also 
reported allocating a small percentage of its investigative work hours 
to overstay investigations since fiscal year 2006, but the agency has 
expressed an intention to augment the resources it dedicates to 
overstay enforcement efforts moving forward. However, ICE does not yet 
have a target time frame for completing its planning efforts for 
augmenting overstay enforcement resources, and it lacks mechanisms for 
assessing the effectiveness of its enforcement efforts. Second, DHS has 
not yet implemented a comprehensive biometric entry and exit system for 
collecting biometric data on foreign nationals when they depart the 
United States. In the absence of such a system, DHS uses primarily 
biographic data to identify overstays. However, unreliable data hinder 
DHS's efforts to accurately identify overstays. Third, ICE has deployed 
agents to certain embassies and consulates as part of the Visa Security 
Program, but has not performed mandated training, has faced staffing 
challenges, and has not fully adhered to its program expansion plan. 
DHS has taken action to strengthen the security of the Visa Waiver 
Program, but has not fully analyzed program risks or completed required 
reports on participating countries' security risks in a timely manner. 
We made a number of recommendations to DHS to strengthen its efforts in 
these areas, such as improving its management and assessment of 
overstay enforcement efforts, planning for a biometric exit capability 
and mechanisms for collecting data from foreign nationals departing the 
United States at land ports of entry, and addressing risks in the Visa 
Security and Visa Waiver programs. DHS concurred with these 
recommendations and has actions planned or under way to address them.
federal agencies take actions against a small portion of the estimated 
                          overstay population
ICE Investigates Few In-Country Overstays, but Its Efforts Could 
        Benefit from Improved Planning and Performance Management
    As we reported in April 2011, ICE CTCEU investigates and arrests a 
small portion of the estimated in-country overstay population due to, 
among other things, ICE's competing priorities; however, these efforts 
could be enhanced by improved planning and performance management. 
CTCEU, the primary Federal entity responsible for taking enforcement 
action to address in-country overstays, identifies leads for overstay 
cases; takes steps to verify the accuracy of the leads it identifies 
by, for example, checking leads against multiple databases; and 
prioritizes leads to focus on those the unit identifies as being most 
likely to pose a threat to National security or public safety. CTCEU 
then requires field offices to initiate investigations on all priority, 
high-risk leads it identifies.
    According to CTCEU data, as of October 2010, ICE field offices had 
closed about 34,700 overstay investigations that CTCEU headquarters 
assigned to them from fiscal year 2004 through 2010.\9\ These cases 
resulted in approximately 8,100 arrests (about 23 percent of the 34,700 
investigations), relative to a total estimated overstay population of 4 
million to 5.5 million.\10\ About 26,700 of those investigations (or 77 
percent) resulted in one of these three outcomes:\11\ (1) Evidence is 
uncovered indicating that the suspected overstay has departed the 
United States; (2) evidence is uncovered indicating that the subject of 
the investigation is in-status (e.g., the subject filed a timely 
application with the United States Citizenship and Immigration Services 
(USCIS) to change his or her status and/or extend his or her authorized 
period of admission in the United States); or (3) CTCEU investigators 
exhaust all investigative leads and cannot locate the suspected 
overstay.\12\ Of the approximately 34,700 overstay investigations 
assigned by CTCEU headquarters that ICE field offices closed from 
fiscal year 2004 through 2010, ICE officials attributed the significant 
portion of overstay cases that resulted in a departure finding, in-
status finding, or with all leads being exhausted generally to 
difficulties associated with locating suspected overstays and the 
timeliness and completeness of data in DHS's systems used to identify 
overstays.
---------------------------------------------------------------------------
    \9\ CTCEU also investigates suspected Visa Waiver Program 
overstays, out-of-status students and violators of the National 
Security Entry-Exit Registration System, a program that requires 
certain visitors or nonimmigrants to register with DHS for National 
security reasons. For the purpose of this discussion, these 
investigations are referred to collectively as ``overstay'' 
investigations. In addition to CTCEU investigative efforts, other ICE 
programs within Enforcement and Removal Operations may take enforcement 
action against overstays, though none of these programs solely or 
directly focus on overstay enforcement. For example, if the Enforcement 
and Removal Operations Criminal Alien Program identifies a criminal 
alien who poses a threat to public safety and is also an overstay, the 
program may detain and remove that criminal alien from the United 
States.
    \10\ The most recent estimates from the Pew Hispanic Center 
approximated that, in 2006, out of an unauthorized resident alien 
population of 11.5 million to 12 million in the United States, about 4 
million to 5.5 million were overstays. Pew Hispanic Center, Modes of 
Entry for the Unauthorized Migrant Population (Washington, DC: May 22, 
2006).
    \11\ Investigations resulting and not resulting in arrest do not 
total 34,700 due to rounding.
    \12\ With regard to the second outcome, that the subject is found 
to be in-status, under certain circumstances, an application for 
extension or change of status can temporarily prevent a visitor's 
presence in the United States from being categorized as unauthorized. 
See Donald Neufeld, Acting Associate Director, Domestic Operations 
Directorate, USCIS, ``Consolidation of Guidance Concerning Unlawful 
Presence for Purposes of Sections 212(a)(9)(B)(i) and 
212(a)(9)(C)(i)(I) of the [Immigration and Nationality] Act,'' 
memorandum, Washington, DC, May 6, 2009.
---------------------------------------------------------------------------
    Further, ICE reported allocating a small percentage of its 
resources in terms of investigative work hours to overstay 
investigations since fiscal year 2006, but the agency expressed an 
intention to augment the resources it dedicates to overstay enforcement 
efforts moving forward. Specifically, from fiscal years 2006 through 
2010, ICE reported devoting from 3.1 to 3.4 percent of its total field 
office investigative hours to CTCEU overstay investigations. ICE 
attributed the small percentage of investigative resources it reported 
allocating to overstay enforcement efforts primarily to competing 
enforcement priorities. According to the ICE Assistant Secretary, ICE 
has resources to remove 400,000 aliens per year, or less than 4 percent 
of the estimated removable alien population in the United States. In 
June 2010, the Assistant Secretary stated that ICE must prioritize the 
use of its resources to ensure that its efforts to remove aliens 
reflect the agency's highest priorities, namely nonimmigrants, 
including suspected overstays, who are identified as high-risk in terms 
of being most likely to pose a risk to National security or public 
safety. As a result, ICE dedicated its limited resources to addressing 
overstays it identified as most likely to pose a potential threat to 
National security or public safety and did not generally allocate 
resources to address suspected overstays that it assessed as non-
criminal and low-risk. ICE indicated that it may allocate more 
resources to overstay enforcement efforts moving forward and that it 
planned to focus primarily on suspected overstays whom ICE has 
identified as high-risk or who recently overstayed their authorized 
periods of admission.
    ICE was considering assigning some responsibility for noncriminal 
overstay enforcement to its Enforcement and Removal Operations (ERO) 
directorate, which has responsibility for apprehending and removing 
aliens who do not have lawful immigration status from the United 
States. However, ERO did not plan to assume this responsibility until 
ICE assessed the funding and resources doing so would require. ICE had 
not established a time frame for completing this assessment. We 
reported in April 2011 that by developing such a time frame and 
utilizing the assessment findings, as appropriate, ICE could strengthen 
its planning efforts and be better positioned to hold staff accountable 
for completing the assessment. We recommended that ICE establish a 
target time frame for assessing the funding and resources ERO would 
require in order to assume responsibility for civil overstay 
enforcement and use the results of that assessment. DHS officials 
agreed with our recommendation and stated that ICE planned to identify 
resources needed to transition this responsibility to ERO as part of 
its fiscal year 2013 resource-planning process.
    Moreover, although CTCEU established an output program goal and 
target, and tracked various performance measures, it did not have a 
mechanism in place to assess the outcomes of its efforts, particularly 
the extent to which the program was meeting its mission as it relates 
to overstays--to prevent terrorists and other criminals from exploiting 
the Nation's immigration system. CTCEU's program goal is to prevent 
criminals and terrorists from exploiting the immigration system by 
proactively developing cases for investigation, and its performance 
target is to send 100 percent of verified priority leads to field 
offices as cases.\13\ CTCEU also tracks a variety of output measures, 
such as the number of cases completed their associated results (i.e., 
arrested, departed, in-status, or all leads exhausted) and average 
hours spent to complete an investigation. While CTCEU's performance 
target permits it to assess an output internal to the program--the 
percentage of verified priority leads it sends to field offices for 
investigation--it does not provide program officials with a means to 
assess the impact of the program in terms of preventing terrorists and 
other criminals from exploiting the immigration system. We reported 
that by establishing such mechanisms, CTCEU could better ensure that 
managers have information to assist in making decisions for 
strengthening overstay enforcement efforts and assessing performance 
against CTCEU's goals. In our April 2011 report, we recommended that 
ICE develop outcome-based performance measures--or proxy measures if 
program outcomes cannot be captured--and associated targets on CTCEU's 
progress in preventing terrorists and other criminals from exploiting 
the Nation's immigration system. DHS officials agreed with our 
recommendation and stated that ICE planned to work with DHS's National 
security partners to determine if measures could be implemented.
---------------------------------------------------------------------------
    \13\ Verified leads are leads that CTCEU has determined to be 
accurate and viable by analyzing information from Government and 
commercial databases containing information related to immigration 
status. For example, these procedures are intended to verify that an 
individual suspected of overstaying has not departed the country or 
been granted an extension of stay by USCIS.
---------------------------------------------------------------------------
The Department of State and CBP Have Taken Action to Prevent Ineligible 
        Out-of-Country Overstays from Returning to the United States
    In addition to ICE's overstay enforcement activities, in April 2011 
we reported that the Department of State and CBP are responsible for, 
respectively, preventing ineligible violators from obtaining a new visa 
or being admitted to the country at a port of entry. According to 
Department of State data, the Department denied about 52,800 
nonimmigrant visa applications and about 114,200 immigrant visa 
applications from fiscal year 2005 through fiscal year 2010 due, at 
least in part, to applicants having previously been unlawfully present 
in the United States for more than 180 days, according to statute.\14\ 
Similarly, CBP reported that it refused admission to about 5,000 
foreign nationals applying for admission to the United States from 
fiscal year 2005 through 2010 (an average of about 830 per year) 
specifically because of the applicants' previous status as unlawfully 
present in the United States for more than 180 days.\15\
---------------------------------------------------------------------------
    \14\ State Department data indicate that a total of about 36.5 
million nonimmigrant visas and about 2.7 million immigrant visas were 
issued from fiscal year 2005 through 2010.
    \15\ CBP data indicates that, in total, about 1.3 million foreign 
nationals were determined to be inadmissible to the United States by 
the CBP Office of Field Operations from fiscal year 2005 through 2010. 
As is the case with the State Department, CBP is unable to isolate and 
quantify the number of aliens it has determined to be inadmissible 
because of the aliens having overstayed by 180 days or less, because 
actions taken against these aliens are recorded under grounds of 
inadmissibility that may apply to, but are not limited to, overstays.
---------------------------------------------------------------------------
 dhs has not implemented a reliable exit system and faces reliability 
                issues with existing visa overstay data
DHS Has Not Yet Implemented a Comprehensive Biometric Exit System
    DHS has not yet implemented a comprehensive biometric system to 
match available information provided by foreign nationals upon their 
arrival and departure from the United States. In August 2007, we 
reported that while US-VISIT biometric entry capabilities were 
operating at air, sea, and land ports of entry, exit capabilities were 
not, and that DHS did not have a comprehensive plan or a complete 
schedule for biometric exit implementation.\16\ In addition, we 
reported that DHS continued to propose spending tens of millions of 
dollars on US-VISIT exit projects that were not well-defined, planned, 
or justified on the basis of costs, benefits, and risks.\17\ Moreover, 
in November 2009, we reported that DHS had not adopted an integrated 
approach to scheduling, executing, and tracking the work that needed to 
be accomplished to deliver a comprehensive exit solution as part of the 
US-VISIT program. We concluded that, without a master schedule that was 
integrated and derived in accordance with relevant guidance, DHS could 
not reliably commit to when and how it would deliver a comprehensive 
exit solution or adequately monitor and manage its progress toward this 
end. We recommended that DHS ensure that an integrated master schedule 
be developed and maintained. DHS concurred and reported, as of July 
2011, that the documentation of schedule practices and procedures is 
on-going, and that an updated schedule standard, management plan, and 
management process that are compliant with schedule guidelines are 
under review.
---------------------------------------------------------------------------
    \16\ The purpose of US-VISIT is to provide biometric (e.g., 
fingerprint) identification--through the collection, maintenance, and 
sharing of biometric and selected biographic data--to authorized DHS 
and other Federal agencies.
    \17\ GAO, Homeland Security: U.S. Visitor and Immigrant Status 
Program's Longstanding Lack of Strategic Direction and Management 
Controls Needs to Be Addressed, GAO-07-1065 (Washington, DC: Aug. 31, 
2007).
---------------------------------------------------------------------------
    More specifically, with regard to a biometric exit capability at 
land ports of entry, we reported in December 2006 that US-VISIT 
officials concluded that, for various reasons, a biometric US-VISIT 
exit capability could not be implemented without incurring a major 
impact on land facilities.\18\ In December 2009, DHS initiated a land 
exit pilot to collect departure information from temporary workers 
traveling through two Arizona land ports of entry. Under this pilot, 
temporary workers who entered the United States at these ports of entry 
were required to register their final departure by providing biometric 
and biographic information at exit kiosks located at the ports of 
entry. DHS planned to use the results of this pilot to help inform 
future decisions on the pedestrian component of the long-term land exit 
component of a comprehensive exit system.
---------------------------------------------------------------------------
    \18\ GAO, Border Security: US-VISIT Program Faces, Strategic, 
Operational, and Technological Challenges at Land Ports of Entry, GAO-
07-248 (Washington, DC: Dec. 6, 2006).
---------------------------------------------------------------------------
    With regard to air and sea ports of entry, in April 2008, DHS 
announced its intention to implement biometric exit verification at air 
and sea ports of entry in a Notice of Proposed Rule Making.\19\ Under 
this notice, commercial air and sea carriers would be responsible for 
developing and deploying the capability to collect biometric 
information from departing travelers and transmit it to DHS. DHS 
received comments on the notice and has not yet published a final rule. 
Subsequent to the rule making notice, on September 30, 2008, the 
Consolidated Security, Disaster Assistance, and Continuing 
Appropriations Act, 2009, was enacted, which directed DHS to test two 
scenarios for an air exit solution: (1) Airline collection and 
transmission of biometric exit data, as proposed in the rulemaking 
notice and (2) CBP collection of such information at the departure 
gate.\20\ DHS conducted two pilots in 2009, and we reported on them in 
August 2010. Specifically, we reported that the pilots addressed one 
statutory requirement for a CBP scenario to collect information on 
exiting foreign nationals. However, DHS was unable to address the 
statutory requirement for an airline scenario because no airline was 
willing to participate. We reported on limitations with the pilots, 
such as the reported scope and approach of the pilots including 
limitations not defined in the pilot evaluation plan like suspending 
exit screening at departure gates to avoid flight delays, that 
curtailed their ability to inform a decision for a long-term air exit 
solution and pointed to the need for additional sources of information 
on air exit's operational impacts.\21\ We recommended that the 
Secretary of Homeland Security identify additional sources of 
information beyond the pilots, such as comments from the Notice of 
Proposed Rule Making, to inform an air exit solution decision. DHS 
agreed with the recommendation and stated that the pilots it conducted 
would not serve as the sole source of information to inform an air exit 
solution decision. In July 2011, DHS stated that it continues to 
examine all options in connection with a final biometric air exit 
solution and has recently given consideration to using its authority to 
establish an advisory committee to study and provide recommendations to 
DHS and Congress on implementing an air exit program.
---------------------------------------------------------------------------
    \19\ 73 Fed. Reg. 22,065 (Apr. 24, 2008).
    \20\ Pub. L. No. 110-329, 122 Stat. 3574, 3668-70 (2008).
    \21\ GAO, Homeland Security: US-VISIT Pilot Evaluations Offer 
Limited Understanding of Air Exit Options, GAO-10-860 (Washington, DC: 
Aug. 10, 2010).
---------------------------------------------------------------------------
More Reliable, Accessible Data Could Improve DHS's Efforts to Identify 
        and Share Information on Overstays
    In the absence of a comprehensive biometric entry and exit system 
for identifying and tracking overstays, US-VISIT and CTCEU primarily 
analyze biographic entry and exit data collected at land, air, and sea 
ports of entry to identify overstays. In April 2011, we reported that 
DHS's efforts to identify and report on visa overstays were hindered by 
unreliable data. Specifically, CBP does not inspect travelers exiting 
the United States through land ports of entry, including collecting 
their biometric information, and CBP did not provide a standard 
mechanism for nonimmigrants departing the United States through land 
ports of entry to remit their arrival and departure forms. 
Nonimmigrants departing the United States through land ports of entry 
turn in their forms on their own initiative. According to CBP 
officials, at some ports of entry, CBP provides a box for nonimmigrants 
to drop off their forms, while at other ports of entry departing 
nonimmigrants may park their cars, enter the port of entry facility, 
and provide their forms to a CBP officer. These forms contain 
information, such as arrival and departure dates, used by DHS to 
identify overstays. If the benefits outweigh the costs, a mechanism to 
provide nonimmigrants with a way to turn in their arrival and departure 
forms could help DHS obtain more complete and reliable departure data 
for identifying overstays. We recommended that the Commissioner of CBP 
analyze the costs and benefits of developing a standard mechanism for 
collecting these forms at land ports of entry, and develop a standard 
mechanism to collect them, to the extent that benefits outweigh the 
costs. CBP agreed with our recommendation and stated it planned to 
complete a cost-effective independent evaluation.
    Further, we previously reported on weaknesses in DHS processes for 
collecting departure data, and how these weaknesses impact the 
determination of overstay rates. The Implementing Recommendations of 
the 9/11 Commission Act required that DHS certify that a system is in 
place that can verify the departure of not less than 97 percent of 
foreign nationals who depart through U.S. airports in order for DHS to 
expand the Visa Waiver Program.\22\ In September 2008, we reported that 
DHS's methodology for comparing arrivals and departures for the purpose 
of departure verification would not inform overall or country-specific 
overstay rates because DHS's methodology did not begin with arrival 
records to determine if those foreign nationals departed or remained in 
the United States beyond their authorized periods of admission.\23\ 
Rather, DHS's methodology started with departure records and matched 
them to arrival records. As a result, DHS's methodology counted 
overstays who left the country, but did not identify overstays who have 
not departed the United States and appear to have no intention of 
leaving. We recommended that DHS explore cost-effective actions 
necessary to further improve the reliability of overstay data. DHS 
reported that it is taking steps to improve the accuracy and 
reliability of the overstay data, by efforts such as continuing to 
audit carrier performance and work with airlines to improve the 
accuracy and completeness of data collection. Moreover, by statute, DHS 
is required to submit an annual report to Congress providing numerical 
estimates of the number of aliens from each country in each 
nonimmigrant classification who overstayed an authorized period of 
admission that expired during the fiscal year prior to the year for 
which the report is made.\24\ DHS officials stated that the Department 
has not provided Congress annual overstay estimates regularly since 
1994 because officials do not have sufficient confidence in the quality 
of the Department's overstay data--which is maintained and generated by 
US-VISIT. As a result, DHS officials stated that the Department cannot 
reliably report overstay rates in accordance with the statute.
---------------------------------------------------------------------------
    \22\ 8 U.S.C.  1187(c)(8).
    \23\ GAO, Visa Waiver Program: Actions Are Needed to Improve 
Management of the Expansion Process, and to Assess and Mitigate Program 
Risks, GAO-08-967 (Washington, DC: Sept. 15, 2008).
    \24\ 8 U.S.C.  1376(b).
---------------------------------------------------------------------------
    In addition, in April 2011 we reported that DHS took several steps 
to provide its component entities and other Federal agencies with 
information to identify and take enforcement action on overstays, 
including creating biometric and biographic lookouts--or electronic 
alerts--on the records of overstay subjects that are recorded in 
databases. However, DHS did not create lookouts for the following two 
categories of overstays: (1) Temporary visitors who were admitted to 
the United States using nonimmigrant business and pleasure visas and 
subsequently overstayed by 90 days or less; and (2) suspected in-
country overstays who CTCEU deemed not to be a priority for 
investigation in terms of being most likely to pose a threat to 
National security or public safety. Broadening the scope of electronic 
lookouts in Federal information systems could enhance overstay 
information sharing. In April 2011, we recommended that the Secretary 
of Homeland Security direct the Commissioner of Customs and Border 
Protection, the Under Secretary of the National Protection and Programs 
Directorate, and the Assistant Secretary of Immigration and Customs 
Enforcement to assess the costs and benefits of creating biometric and 
biographic lookouts for these two categories of overstays. Agency 
officials agreed with our recommendation and have actions under way to 
address it. For example, agency officials stated that they have met to 
assess the costs and benefits of creating lookouts for those categories 
of overstays.
additional steps needed to address risks in the visa security and visa 
                            waiver programs
Visa Security Program
    As we reported in March 2011, the Visa Security Program faces 
several key challenges in implementing operations at overseas posts. 
For example, we reported that Visa Security Program agents' advising 
and training of consular officers, as mandated by section 428 of the 
Homeland Security Act, varied from post to post, and some posts 
provided no training to consular officers. We contacted consular 
sections at 13 overseas posts, and officials from 5 of the 13 consular 
sections we interviewed stated that they had received no training from 
the Visa Security Program agents in the last year, and none of the 
agents we interviewed reported providing training on specific security 
threats. At posts where Visa Security Program agents provided training 
for consular officers, topics covered included fraudulent documents, 
immigration law, human smuggling, and interviewing techniques. In March 
2011, we recommended that DHS issue guidance requiring Visa Security 
Program agents to provide training for consular officers as mandated by 
section 428 of the Homeland Security Act. DHS concurred with our 
recommendation and has actions under way to address it.
    Further, in March 2011 we reported that Visa Security Program 
agents performed a variety of investigative and administrative 
functions beyond their visa security responsibilities, including 
criminal investigations, attache functions, and regional 
responsibilities. According to ICE officials, Visa Security Program 
agents perform non-program functions only after completing their visa 
security screening and vetting workload. However, both agents and 
Department of State officials at some posts told us that these other 
investigative and administrative functions sometimes slowed or limited 
Visa Security Program agents' visa security-related activities. We 
recommended that DHS develop a mechanism to track the amount of time 
spent by Visa Security Program agents on visa security activities and 
other investigations, in order to determine appropriate staffing levels 
and resource needs for Visa Security Program operations at posts 
overseas to ensure visa security operations are not limited. DHS did 
not concur with our recommendation, stating that ICE currently tracks 
case investigation hours through its data system, and that adding the 
metric to the Visa Security Program tracking system would be redundant. 
However, DHS's response did not address our finding that ICE does not 
have a mechanism that allows the agency to track the amount of time 
agents spend on both investigation hours and hours spent on visa 
security activities. Therefore, we continue to believe the 
recommendation has merit and should be implemented.
    Moreover, we found that ICE's use of 30-day temporary duty 
assignments to fill Visa Waiver Program positions at posts created 
challenges and affected continuity of operations at some posts. 
Consular officers we interviewed at 3 of 13 posts discussed challenges 
caused by this use of temporary duty agents. The Visa Security 
Program's 5-year plan also identified recruitment of qualified 
personnel as a challenge and recommended incentives for Visa Security 
Program agents as critical to the program's mission, stating, ``These 
assignments present significant attendant lifestyle difficulties. If 
the mission is to be accomplished, ICE, like State, needs a way to 
provide incentives for qualified personnel to accept these hardship 
assignments.'' However, according to ICE officials, ICE had not 
provided incentives to facilitate recruitment for hardship posts.\25\ 
ICE officials stated that they have had difficulty attracting agents to 
Saudi Arabia, and ICE agents at post told us they have little incentive 
to volunteer for Visa Security Program assignments. Thus, we 
recommended that DHS develop a plan to provide Visa Security Program 
coverage at high-risk posts where the possibility of deploying agents 
may be limited. DHS agreed with our recommendation and is taking steps 
to implement it.
---------------------------------------------------------------------------
    \25\ The Department of State has designated roughly two-thirds of 
its 268 overseas posts as hardship posts. Staff working in such 
locations often encounter harsh environmental and living conditions 
that can include inadequate medical facilities, limited opportunities 
for spousal employment, poor schools, high levels of crime, and severe 
climate.
---------------------------------------------------------------------------
    In addition, ICE developed a plan to expand the Visa Security 
Program to additional high-risk visa-issuing posts, but ICE had not 
fully adhered to the plan or kept it up to date. The program's 5-year 
expansion plan, developed in 2007, identified 14 posts for expansion 
between 2009 and 2010, but 9 of these locations had not been 
established at the time of our March 2011 report, and ICE had not 
updated the plan to reflect the current situation. Furthermore, ICE had 
not fully addressed remaining visa risk in high-risk posts that did not 
have a Visa Security Program presence. ICE, with input from the 
Department of State, developed a list of worldwide visa-issuing posts 
that are ranked according to visa risk. Although the expansion plan 
stated that risk analysis is the primary input to Visa Security Program 
site selection and that the expansion plan represented an effort to 
address visa risk, ICE had not expanded the Visa Security Program to 
some high-risk posts. For example, 11 of the top 20 high-risk posts 
identified by ICE and Department of State were not covered by Visa 
Security Program at the time of our review. The expansion of the Visa 
Security Program may be limited by a number of factors--including 
budget limitations and objections from Department of State officials at 
some posts--and ICE had not identified possible alternatives that would 
provide the additional security of Visa Security Program review at 
those posts that do not have a program presence. In May 2011, we 
recommended that DHS develop a plan to provide Visa Security Program 
coverage at high-risk posts where the possibility of deploying agents 
may be limited. DHS concurred with our recommendation and noted actions 
under way to address it, such as enhancing information technology 
systems to allow for screening and reviewing of visa applicants at 
posts worldwide.
Visa Waiver Program
    As we reported in May 2011, DHS implemented the Electronic System 
for Travel Authorization (ESTA) to meet a statutory requirement 
intended to enhance Visa Waiver Program security and took steps to 
minimize the burden on travelers to the United States added by the new 
requirement.\26\ However, DHS had not fully evaluated security risks 
related to the small percentage of Visa Waiver Program travelers 
without verified ESTA approval. DHS developed ESTA to collect passenger 
data and complete security checks on the data before passengers board a 
U.S.-bound carrier. DHS requires applicants for Visa Waiver Program 
travel to submit biographical information and answers to eligibility 
questions through ESTA prior to travel. Travelers whose ESTA 
applications are denied can apply for a U.S. visa. In developing and 
implementing ESTA, DHS took several steps to minimize the burden 
associated with ESTA use. For example, ESTA reduced the requirement 
that passengers provide biographical information to DHS officials from 
every trip to once every 2 years. In addition, because of ESTA, DHS has 
informed passengers who do not qualify for Visa Waiver Program travel 
that they need to apply for a visa before they travel to the United 
States. Moreover, most travel industry officials we interviewed in six 
Visa Waiver Program countries praised DHS's widespread ESTA outreach 
efforts, reasonable implementation time frames, and responsiveness to 
feedback but expressed dissatisfaction over ESTA fees paid by ESTA 
applicants.\27\
---------------------------------------------------------------------------
    \26\ See 8 U.S.C.  1187(h)(3).
    \27\ In September 2010, the U.S. Government began to charge ESTA 
applicants a $14 fee when they applied for ESTA approval, including $10 
for the creation of a corporation to promote travel to the United 
States and $4 to fund ESTA operations.
---------------------------------------------------------------------------
    In 2010, airlines complied with the requirement to verify ESTA 
approval for almost 98 percent of the Visa Waiver Program passengers 
prior to boarding, but the remaining 2 percent--about 364,000 
travelers--traveled under the Visa Waiver Program without verified ESTA 
approval. In addition, about 650 of these passengers traveled to the 
United States with a denied ESTA. As we reported in May 2011, DHS had 
not yet completed a review of these cases to know to what extent they 
pose a risk to the program. DHS officials told us that, although there 
was no official agency plan for monitoring and oversight of ESTA, the 
ESTA office was undertaking a review of each case of a carrier's 
boarding a Visa Waiver Program traveler without an approved ESTA 
application; however, DHS had not established a target date for 
completing this review. DHS tracked some data on passengers that travel 
under the Visa Waiver Program without verified ESTA approval but did 
not track other data that would help officials know the extent to which 
noncompliance poses a risk to the program. Without a completed analysis 
of noncompliance with ESTA requirements, DHS was unable to determine 
the level of risk that noncompliance poses to Visa Waiver Program 
security and to identify improvements needed to minimize noncompliance. 
In addition, without analysis of data on travelers who were admitted to 
the United States without a visa after being denied by ESTA, DHS cannot 
determine the extent to which ESTA is accurately identifying 
individuals who should be denied travel under the program. In May 2011, 
we recommended that DHS establish time frames for the regular review 
and documentation of cases of Visa Waiver Program passengers traveling 
to a U.S. port of entry without verified ESTA approval. DHS concurred 
with our recommendation and committed to establish procedures to review 
quarterly a representative sample of noncompliant passengers to 
evaluate, identify, and mitigate potential security risks associated 
with the ESTA program.
    Further, in May 2011 we reported that to meet certain statutory 
requirements, DHS requires that Visa Waiver Program countries enter 
into three information-sharing agreements with the United States; 
however, only half of the countries had fully complied with this 
requirement and many of the signed agreements have not been 
implemented.\28\ Half of the countries entered into agreements to share 
watch list information about known or suspected terrorists and to 
provide access to biographical, biometric, and criminal history data. 
By contrast, almost all of the 36 Visa Waiver Program countries entered 
into an agreement to report lost and stolen passports. DHS, with the 
support of interagency partners, established a compliance schedule 
requiring the last of the Visa Waiver Program countries to finalize 
these agreements by June 2012. Although termination from the Visa 
Waiver Program is one potential consequence for countries not complying 
with the information-sharing agreement requirement, U.S. officials have 
described it as undesirable. DHS, in coordination with the Departments 
of State and Justice, developed measures short of termination that 
could be applied to countries not meeting their compliance date.
---------------------------------------------------------------------------
    \28\ See 8 U.S.C.  1187(c)(2)(D), (F).
---------------------------------------------------------------------------
    In addition, as of May 2011, DHS had not completed half of the most 
recent biennial reports on Visa Waiver Program countries' security 
risks in a timely manner. In 2002, Congress mandated that, at least 
once every 2 years, DHS evaluate the effect of each country's continued 
participation in the program on the security, law enforcement, and 
immigration interests of the United States. The mandate also directed 
DHS to determine based on the evaluation whether each Visa Waiver 
Program country's designation should continue or be terminated and to 
submit a written report on that determination to select Congressional 
committees.\29\ According to officials, DHS assesses, among other 
things, counterterrorism capabilities and immigration programs. 
However, DHS had not completed the latest biennial reports for 18 of 
the 36 Visa Waiver Program countries in a timely manner, and over half 
of these reports are more than 1 year overdue. Further, in the case of 
2 countries, DHS was unable to demonstrate that it had completed 
reports in the last 4 years. DHS cited a number of reasons for the 
reporting delays. For example, DHS officials said that they 
intentionally delayed report completion because they frequently did not 
receive mandated intelligence assessments in a timely manner and needed 
to review these before completing Visa Waiver Program country biennial 
reports. We recommended that DHS take steps to address delays in the 
biennial country review process so that the mandated country reports 
can be completed on time. DHS concurred with our recommendation and 
reported that it would consider process changes to address our concerns 
with the timeliness of continuing Visa Waiver Program reports.
---------------------------------------------------------------------------
    \29\ See the Enhanced Border Security and Visa Entry Reform Act of 
2002.
---------------------------------------------------------------------------
    This concludes my prepared testimony statement. I would be pleased 
to respond to any questions that Members of the subcommittee may have.

    Mrs. Miller. Thank you very much, Mr. Stana. I appreciate 
all the testimony of all the witnesses. I know we have a lot of 
questions.
    One of the things that struck me as you all were testifying 
was the common theme about sharing information, et cetera, and 
working together with your sister agencies, with your partners 
and having good partnerships. That is a theme in my office and 
I think certainly most Members' offices, that was a critical 
element of the 
9/11 Commission recommendations about moving from the need to 
know to the need to share and getting out of our respective 
silos, et cetera, et cetera. We talk about that all the time. 
It is very important certainly. I think that is why our 
committee staff put you all so close together. You are just 
smashed together.
    As I mentioned, the first and foremost responsibility of 
the Federal Government to provide for the common defense is 
actually in the Constitution; securing our borders is a 
Constitutional mandate of the Congress, and that is what this 
committee is all about. So we want to work with the 
administration in every way possible to secure our borders. I 
really do not look at it as a Republican or Democratic issue. I 
see this in very nonpartisan terms. I am delighted that because 
this committee has been very, very vocal about continuing the 
presence of the National Guard as a force multiplier for CBP 
and Border Patrol along the Southern border the administration 
just recently has agreed to do so for some period of time. I 
think we could use more, but still it is a very, very 
excellent, positive step forward, I think.
    Mr. Cohen, as you are outlining today, I don't know whether 
serendipity or whatever, you don't need to comment on that, but 
certainly the timing of having the administration talk about 
things that this committee has been pushing for for some period 
of time in regards to the visa program, announcing those today 
as we are having this hearing does strike me as a bit 
interesting and very welcome, very welcome. So we are delighted 
to hear about those kinds of things.
    I guess I would start, Mr. Cohen, with you. I was trying to 
take some notes as you were outlining this. So there may be a 
couple of questions in this. But you mentioned that you had 1.6 
million names that you started with and about 800,000 of those 
you found then had left, which was an interesting number. So we 
really didn't know about that until you started this, which is 
okay, and then 839,000 left to vet, which you have done so, 
several thousand sent to ICE. I am trying to understand where 
we are in this whole vetting process, if you would flesh out 
your testimony a little bit with that, because you mentioned 
also that Congress would get the data for instance by country 
and some of the other metrics that you outlined. I am 
interested to know when that might be. I thought you said 6, 12 
months. I am interested in that.
    I guess just generally there is no secret about the painful 
economic transition that is happening Nationally and all of us 
are concerned about the budget deficit, and what we want to do 
of course is prioritize our expenditures so that we are doing 
what we need to do with the resources that we have. I think by 
using technology--that was going to be a question I had before 
you outlined here about the biometric forms, and some of the 
biometric and biographic information, of course using the 
biographic information, but the biometric forms whether that is 
iris scan or retinal scanning or fingerprints, all of these 
different kinds of things. I am a big believer in utilizing 
technology as a cost-effective, cost-efficient, in this case 
National security efficiency matrix as well has been overlayed. 
So I was delighted to hear you talk about that.
    So I don't know if I am making my question clear, but I am 
trying to understand exactly what it is that you have outlined 
for us today, because what you said is essentially what we have 
been trying to get at as a committee.
    Mr. Cohen. Thank you, Madam Chairwoman. I think you are 
right, there are a couple of factors that have come into play 
that have allowed us to come here today and be able to describe 
what I think is a pretty fully based approach to how to deal 
with this issue. I think the level of cooperation that has 
matured across not only the Department, but across the Federal 
interagencies, across the law enforcement community, the 
intelligence community as well as the immigration community, 
coupled with quite frankly a maturation of information systems. 
Whether it is the information systems of the NCTC, the 
information systems of the intelligence community, the 
information systems used by US-VISIT, ICE, and CBP and State 
Department, there has been a maturation over the last several 
years. I would argue that what I started to describe earlier 
probably could not have occurred several years ago.
    So how do we get to where we are today? Earlier this year, 
for many of the reasons you all have outlined earlier, the 
Secretary pulled CBP, ICE, US-VISIT together and said, we need 
to vet the 1.6 million records that are commonly referred to as 
the overstay backlog from a National security and public safety 
perspective. We have to get it done and we have to get it done 
now. That meant we all came together and we reached out to our 
intelligence community colleagues and we came up with a way to 
leverage existing technical capabilities to vet from a public 
safety and National security perspective those records.
    The first step was US-VISIT running through their systems 
that 1.6 million records. That is how they were able to 
eliminate the first tranche of that data to determine that they 
had left the country or they had actually changed their 
immigration status.
    The remaining records, a portion of those were considered 
confirmed potential overstays. Based on existing protocols 
those 82,000 records would have been more fully evaluated under 
the preexisting manual database checks and protocols that 
existed through the ICE prioritization process.
    What we did this time is we took those 82,000 records and 
the remaining 757,000 records, which under the prior paradigm 
would never have been fully vetted, and we ran them through the 
NCTC system and then we then leveraged the capabilities of 
automated targeting system to query not only law enforcement 
and other immigration databases but we leveraged the 
intelligence-driven targeting rules that ICE--that CBP utilizes 
in the course of their general business. Out of 839,000 records 
we were able to identify a subset that were potentially public 
safety or National security threats. Working with ICE and CBP 
and the intelligence community, we were able to essentially go 
through each and every one of those 2,000 records.
    A subset of those, several hundred, were potential leads 
that ICE eventually ran down to the point where we were talking 
about dozens. So we started with 1.6 million records and ended 
up with dozens of new investigations. Now some of those, 
several hundred, were preexisting investigations, some had 
died, some were in jail. Which think they were overstays 
because they were actually in jail. Some we determined had left 
the country because we were querying different databases like 
Interpol databases, et cetera. But we were able to automate 
that public safety and national security vetting process.
    We brought the same group together to say, okay, can we do 
the same thing from a location and immigration status 
perspective? Current capabilities did not allow that. To be 
able to vet those 757,000 records from a location and 
immigration status perspective would have required time-
consuming manual databases--database queries, excuse me. So we 
put this team--we focused this team on coming up with a design 
on how to automate those processes as well. That work has been 
underway for several months now. I think we have come up with a 
concrete plan. As we looked at what would result when we put 
that plan into motion, we estimate will take between 6 to 12 
months, we will have phased in results along that time period. 
We not only will be able to fully vet from an on-going basis 
any other potential overstays, or visa applicants, or visa 
holders, or people requesting other immigration benefits from a 
public safety or National security perspective, but we will 
also have enhanced biographic exit capability from added 
biometric features, such as better utilization of fingerprint 
identification numbers and other biometrics. If we couple that 
with research being done by our S&T on biometric data 
collection capabilities from an exit perspective, you have the 
foundation for a biometric exit capability in the future.
    Mrs. Miller. Well, I for one cannot tell you how much 
better I feel now than I did at the beginning of this hearing 
listening to your explanation and as you have been talking 
about your process here. I guess one follow-up, when you talk 
about follow-on, sometimes ``follow up'' are the two most 
important words in the English language. You have this large 
group that you began with, 1.6 million, and you went through 
various iterations down to a couple of hundred apparently that 
are continuing with some sort of investigative process there. 
How will you do in following up so we never get to that huge 
backup again? So you will be able to--maybe you told me that, 
but I didn't quite get it. How are you going to continue to do 
this so it will not happen in the future, we will be able to in 
real time understand if there is a significant threat to 
National security--not 6 months after the fact.
    Mr. Cohen. So, for me, one of the most exciting parts of 
this has been to watch how as we have brought more clarity to 
the technological capabilities that can come when we interlink 
these systems, that that has caused a parallel excitement on 
the operational side. ICE has, working with CBP and others, has 
been rethinking the way that they track day-to-day. So instead 
of us being reactive, an overstay list being--a potential 
overstay list being created, it being prioritized best based on 
preexisting prioritization standards, CBP and the technologists 
will be working developing essentially a hot sheet, which on 
day-to-day will look at new derogatory information coming in, 
new immigration information coming in, new travel information 
coming in and will essentially create a dashboard available to 
ICE on a day-to-day basis that will provide them insights about 
those public safety and National security risks that are either 
overstays or existing visa holders.
    So ICE is actually--this has provided an opportunity for 
ICE, as they are able to free up more personnel from these 
database queries, to be more imaginative and creative in how 
they use their existing investigative resources.
    Maybe I would defer to Mr. Edge if he wants to add any more 
to that.
    Mrs. Miller. Mr. Edge.
    Mr. Edge. Thank you very much, Chairwoman Miller.
    That is certainly a very accurate assessment. The part that 
US-VISIT begins we are able to take after all these leads have 
been fully evaluated and vetted through various databases, and 
then we farm those leads out to our various offices in the 
field. We have 265 offices on the domestic side and 70 offices 
internationally. So once those leads are sent out to the field, 
our agents are able to conduct investigations and very detailed 
investigations, based on the quality of the information that we 
have received.
    So it certainly has worked very well. We certainly see that 
it is going to continue to work. We also have received well 
over 194,000 leads, not only from US-VISIT, but from the SEVIS 
process as well. We have initiated 7,272 investigations as a 
result, and that is pretty significant, certainly something 
that we haven't been doing over the past--since the inception 
of the agency and us trying to combat terrorism.
    As a result, we have also been able to make 2,194 arrests. 
So the information that we are getting now has really been 
analyzed carefully, resulting in some significant results. As 
Mr. Cohen indicated, we are able to conduct some quality 
investigations by gathering this information and sending it to 
additional databases in the intelligence community as well as 
our counterparts in the law enforcement world.
    Mrs. Miller. Thank you very much.
    I would just conclude my questioning here by once again 
observing that this is really how Congress is supposed to act, 
where we are doing oversight, we are asking various questions, 
hopefully getting the agencies to respond.
    You certainly are responding and I think in a very 
appropriate manner. So I am appreciative to hear all of this 
today.
    With that, I would like to recognize our Ranking Member, 
Mr. Cuellar, for his questions.
    Mr. Cuellar. Thank you very much, Chairwoman.
    I have two sets of questions. One has to do with the time 
that after an alien is ordered to be removed, how long it takes 
for that person to stay.
    Members, I would ask you to look at the handouts, and I 
believe Diana is going to put an overhead also. What is the 
average time to get the travel documents issuance before they 
are removed? So it involves a little bit of the State 
Department.
    [The information follows:]
    

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    The other one is an issue I brought up at the committee 
last week, I believe, about a Mexican-based school that taught 
students how to fly. They were in south Texas. Instead of being 
there on student visas, they were there learning--being taught 
on tourist visas it sells. Again, the way this came about, 
because one of the Mexican pilots, training pilots, went over 
and buzzed some of the boaters at one of the places and had to 
create that type of activity to bring this up.
    So I will go first with the travel. As you know, when an 
alien other than a Mexican national is ordered removed from the 
United States, a consular officer from the alien's country of 
origin must issue a travel document. This travel document 
allows the alien to return to his or her country and are 
necessary to effect the order removal of aliens from the United 
States. There are some countries, like Guatemala, Honduras, and 
the DR that have electronic travel documents that make that to 
move a lot faster. Of course, with Mexico overall we have a 
good working relationship where they will take them rather 
quickly.
    But as you can see up there, there are certain countries, 
and this is only just a few: Pakistan takes 92 days. This is 
after--just to get the travel documents. China, 147 days; 
India, 160 days; Bangladesh, 192 days; Zimbabwe, 257; Cambodia, 
300 days; Vietnam, 337; Iraq, 391 days. Again, I know from the 
State Department, because--and I want to thank John Morton, 
because he is the one that brought up this issue about a year 
ago. We sat down with the State Department, and we were given 
the diplomatic reasons why the State Department couldn't move 
on.
    But at the same time, keep in mind that that will cost us 
money, because any time they stay here in the United States, it 
is going to cost us money. This is from the time an order was 
given. This is not before the time; this is after. So if you 
add all of those, it is going to cost the taxpayers thousands 
and thousands and thousands of dollars to keep those folks 
here.
    The chart, as I mentioned, those are the recalcitrant 
countries that are just slow in accepting their nationals back, 
and they will give up different reasons. They are good at 
giving information so they can get their visas. But when we 
want to send them back, they will give you all these reasons.
    My only thing is this: If we can be given the reasons again 
why it is difficult to get these countries to get them to 
accept the folks back and what is being done by the United 
States, and are those delays a consideration when determining 
whether to issue visas to individuals for certain countries? My 
thing is, if they are taking a hard time to take back those 
folks, then when we give them visas, why are we continuing to 
give them visas when at the end, they are going to take their 
time? I really think that the State Department should consider 
that. Should we consider restricting visa issuance to those 
countries until they begin to accept their nationals in more 
timely visas? Again, I am a Georgetown Graduate School of 
Foreign Service, I understand all the diplomatic reasons. But 
again, as a taxpayer and as a Member of Congress that 
represents all those folks, I think that is something that we 
need to play a little bit more hardball with those countries 
that are taking their time and costing us a lot of money.
    The second part of the question is the situation that we 
had in south Texas. How can students that come in, take flying 
lessons in small planes--and we know what happened in 9/11. You 
know they are coming in to learn. They are here on tourist 
visas and not student visas. Then of course, when we talk to 
the FAA and Homeland Security, everybody will say, well, we 
don't do this, we don't do this, we don't do that. That is 
their responsibility, not our responsibility. It goes to what 
the Chairwoman and Chairman Thompson has been and all of us 
have been talking about, all Members of the committee, is: 
Where is the coordination?
    I mean, at the end of the day, the American taxpayer 
doesn't want to know what agencies blame what agency. They want 
to know: What are the results and how are you keeping us safe? 
The first part of the question is the recalcitrant agent 
countries. I guess we will start with the State Department.
    Mr. Ramotowski. Thank you, Congressman.
    Let me first say that the State Department is acutely aware 
of the seriousness of this issue. We share your concern. We are 
taking all possible steps to improve the situation with respect 
to recalcitrant countries. Together with our interagency 
partners we have established a high-level working group to work 
out a strategy for dealing with the most egregious countries. 
In addition to that, former Under Secretary Burns, now deputy 
secretary, instructed all our chiefs of mission to do what they 
could to produce positive responses in the recalcitrant 
countries.
    Mr. Cuellar. Could I ask you a question? Since April--I 
think it was in April 2011 that we met in my office with the 
State Department and John Morton. Has anything been done except 
establish a working task force--with all due respect. I mean 
that with all respect. I appreciate all the help that you and 
Secretary Clinton are doing. Anything been done since that time 
besides incur more taxpayers' dollars? Is the task force the 
only thing that has been done?
    Mr. Ramotowski. Well, these issues are also being addressed 
case by case with the foreign consulate officers here in 
Washington. Again, our staff works with ICE and the other 
agencies involved to try to encourage the foreign countries to 
take back more of these individuals. But as you have 
recognized, it is a difficult process. There are many issues at 
stake, and the progress hasn't been as rapid as we would all 
like.
    I would point out, too, that our new ambassador to China, 
former Secretary of Commerce Gary Locke, is personally aware of 
and engaged in this issue and is determined to see more 
progress with respect to China. So we are doing everything that 
we can. Let me close by saying that for us, this is a very 
serious issue.
    Mr. Cuellar. I appreciate that. Could we put a little bit 
more pressure on them at the beginning instead of the end?
    Mr. Ramotowski. We will try our best, sir.
    Mr. Cuellar. We will follow up on the second question on 
the second round on that. Just keep thinking about that 
particular case in south Texas.
    Thank you, Madam Chairwoman.
    Mrs. Miller. I thank the gentleman.
    The Chairwoman now recognizes the other gentleman from 
Texas, Mr. McCaul.
    Mr. McCaul. Thank you, Madam Chairwoman.
    Fifteen of the hijackers came from Saudi Arabia. When I 
look at the Visa Security Program, it does not have 11 of the 
top 20 high-risk posts included, including Saudi Arabia, which 
seems sort of interesting to me.
    So Mr. Edge and Mr. Cohen, can you explain to me why Saudi 
Arabia is not on this--part of this program?
    Mr. Edge. I believe Saudi Arabia is a part of the program 
as we speak today.
    Mr. McCaul. They are?
    Mr. Edge. Yes, they are.
    Mr. McCaul. Then perhaps I had some misinformation.
    Let me continue with Mr. Cohen. I am glad that after 10 
years later, we are making progress on our exit program. When 
do you plan to have that fully implemented?
    Mr. Cohen. We anticipate that the capabilities that I 
described earlier will be implemented within 6 to 12 months.
    Mr. McCaul. Will that include also biometric?
    Mr. Cohen. It will include enhanced biographic with certain 
biometric elements included. As I referenced earlier, more 
expanded use of information captured on the front end, 
fingerprints, et cetera. We are also--it will also include 
within that same time period more advancements in research on 
biometric technologies we can use here as part of the exit 
program.
    Mr. McCaul. I agree with Madam Chairwoman. That is 
certainly good news. That is where the Congress in our 
oversight working with you actually is a positive experience.
    Let me move on to visa overstays. The Secretary announced 
that criminal aliens are a high priority for deportation. As a 
former Federal prosecutor, I certainly understand that with 
limited resources. On the other hand, she seemed to infer that 
noncriminal aliens that were having visa overstays could stay 
in this country and apply for work permits.
    First of all, Mr. Edge, can you respond to that; is that 
the administration's position?
    Mr. Edge. Well, our position as a law enforcement agency is 
to take the information that we acquire from the SEVIS program 
and US-VISIT and focus on those overstays that pose the most 
threat and potentially are the most dangerous to our country.
    Mr. McCaul. I get that, and I agree with that. But I was 
disturbed by the inference that the noncriminal aliens 
overstaying could stay here and apply for work permits. Was 
that an accurate statement on the part of this administration?
    Mr. Edge. I am not familiar with that statement. I would 
have to defer to the Department.
    Mr. McCaul. Okay. Perhaps I need to ask the Secretary 
herself that question.
    Mr. Stana, if that is the policy of this administration, do 
you think that would pose a threat in any way to our security?
    Mr. Stana. Well, given with the theme of the hearing, the 
integrity of the visa process, you would certainly call it into 
question.
    Listening to the new program that ICE and DHS is putting 
together, I think it is a step in the--I would welcome the 
opportunity to take a look at it. It raises a whole host of 
questions. But if we are still going to focus on the National 
security and public safety folks, which is the thing to start 
with, it still leaves the vast majority of people untouched, 
and it gives the impression that once you are in the country, 
you are in, unless you act out, and then you might get caught.
    Mr. McCaul. Because as I look at some of these, whether it 
is hijackers or high-profile terrorist violators, many of them 
were noncriminal aliens here on a visa overstay.
    Mr. Stana. Well, and the fact that the Christmas day bomber 
went through the visa processes, many of which were in place in 
December 2009, apparently got in on the airplane and got a 
visa, just calls into question how much question has to be 
raised before you deny boarding.
    Mr. McCaul. Mr. Edge, I hope you can get back to me on that 
question in terms of what is the administration's position.
    [The information follows:]

    A typical scenario is someone enters legally, overstays, marries a 
United States Citizen and applies for adjustment of status. I believe 
in this case the person may qualify for an Employment Authorization 
Document (EAD) based on the pending I-485, Application to Adjust 
Status. Here are some other examples under which an individual, like an 
overstay, would get an EAD:

  <bullet> Deferred Action;
  <bullet> Temporary Protected Status;
  <bullet> Withholding of Removal;
  <bullet> Applicant for Cancellation of Removal;
  <bullet> Certain Asylum applicants (where applications have been 
        pending for more than 180 days);
  <bullet> Certain individuals who are subject to Final Removal Orders 
        can also apply for employment authorization if they cannot be 
        physically removed for some reason or if they are the sole 
        supporters of other family members.
[Ruth Tintary, Associate Chief Legislative Branch for USCIS provided 
this answer to ICE, Office of Congressional Relations]

    Mr. McCaul. Or perhaps, Mr. Cohen, you may have an answer 
to that.
    Mr. Cohen. Yes, Congressman, if I may.
    So, first and foremost, because of resource issues 
primarily, the administration prioritizes the targeting of 
those visa overstays that represent a National security or 
public safety risk. Through the capabilities that I have 
described earlier, as we are better able to identify people who 
are actually confirmed overstays, meaning we have assessed that 
they are actually located in this country and they have not 
changed their immigration status, we then, as we do now, will 
have the ability to provide that information so they can be 
inputted by CBP and others into their systems and State 
Department into their systems. So if there is a second 
encounter, meaning they are arrested, meaning that they seek to 
apply for another visa, they seek to apply for other types of 
entry, the information that they are an overstay will be 
available to those CBP officers or others.
    Mr. McCaul. Well, again, a majority of the hijackers were 
overstay noncriminal aliens. The Blind Sheik responsible for 
the 1993 World Trade Center bombing was a visa overstay without 
a criminal record. So I think it is important, and I am 
concerned--and that is why I look forward to hearing from the 
administration--I am concerned about sending a message out 
there that if you are a noncriminal alien, it is okay to stay; 
in fact, you can apply for a work permit as well.
    Mr. Cohen. If I may, Congressman, one last point. You make 
an excellent point about whether information about the 
hijackers was in databases like NCIC because they have been 
arrested. What there was on many of the hijackers, or on 
several hijackers, was derogatory information or other law 
enforcement information that under this new construct would 
come to the attention of authorities; information in FinCEN, 
information that may reside in other repositories of the 
intelligence community, other than say the TSDB. So what we are 
seeking to do is expand our ability to vet visa information or 
information regarding potential overstays against a much 
broader set of law enforcement or intelligence information than 
we have done so in the past.
    Mr. McCaul. I look forward to working with you on that, and 
thank you for your testimony.
    Mrs. Miller. Thank you.
    The Chairwoman now recognizes the gentleman from Virginia, 
Mr. Rigell.
    Mr. Rigell. Thank you, Madam Chairwoman.
    Thank you all to our panel. I appreciate the work that you 
are doing.
    You know, that we have had no major domestic terrorist 
attack since 9/11 certainly is a high degree of success, and we 
recognize that. Now, also, though, at the same time that we 
have approximately 4.5 million illegal immigrants here who came 
here on a visa and then overstayed, that is unquestionably a 
failure. I am going to in my short time here try to see how we 
link performance with--and accountability with performance 
here.
    Mr. Ramotowski--I, too, have a difficult last name to 
pronounce--what is the approximate number of countries who 
citizens are eligible to apply for a visa to come to the United 
States?
    Mr. Ramotowski. Well, the citizens of all countries are 
eligible to apply to travel to the United States.
    Mr. Rigell. Okay. So any country?
    Mr. Ramotowski. Yes.
    Mr. Rigell. Now, among that range of countries then, surely 
there is some disparity between those countries whose citizens 
have a higher percentage of violating our visa conditions than 
others, right?
    Mr. Ramotowski. That is correct.
    Mr. Rigell. Okay. Could you please identify for us then 
those top five countries?
    Mr. Ramotowski. I don't have statistics here, sir, on the 
number of visa overstays by country. We would have to get back 
to you on that.
    Mr. Rigell. Okay. If you would, please. Not so much by 
the--well, I would like it to be the actual number, but also as 
a rate, a percentage. Because those countries who--it would 
indicate to me that if we have the top five countries, I would 
say, what is taking place at our offices there, our State 
Department offices there, our embassies, to understand what is 
taking place there?
    Now, on that, as a follow up, with the actual personnel 
side, actually approving a visa is by definition a judgment 
call. We are trying to predict future human behavior, 
inherently difficult. We have some mechanisms that help us with 
that and the biometrics that we are working on, on all of those 
things, but at the end of the day, it is a judgment call. It 
would stand to reason, wouldn't it, that some folks are better 
at that than others, wouldn't it?
    Mr. Ramotowski. That is correct.
    Mr. Rigell. Okay. What processes and procedures do we have 
in place that would help us discriminate in the most positive 
sense of the word those personnel who are really good at this 
and others who clearly aren't very good at it?
    Mr. Ramotowski. Well, again, Congressman, we have a layered 
approach to the training of our personnel. As I mentioned in my 
statement, they receive an intensive basic consular course when 
they join the Foreign Service that includes training in 
interview techniques, behavior detection and all of our 
consular automated systems. Many of them also do consultations 
with other law enforcement agencies before they go out to their 
post. When they arrive in country--and I should also point out 
that they are given training in the language and culture and 
area studies of the regions to which they are sent. When they 
arrive in country, senior consular personnel are charged with 
overseeing their professional development and monitoring their 
work.
    Mr. Rigell. I appreciate that.
    I really don't want to be rude by interrupting you. We have 
such little time here, and this is a very important question 
for me. Let's say, for example, that there are 500 visas 
approved by a particular person and their failure rate is in 
the 12 percent range, and generally, you would say, well, that 
is pretty good compared to maybe the average for that country. 
But there is another person over time who you see has a 42 
percent failure rate, that is 42 percent of the visas he or she 
approves actually end up overstaying. I am trying to--I am 
trying to help our Government have this culture of 
accountability. So you have described a lot of things there, 
but I did not hear how we circle back around and try to track 
performance, not to punish someone, but to help those--to 
elevate those who are doing well, and maybe if we do have a 
person who is not having a particularly good track record on 
this, that we either help them become better or, frankly, we 
remove them.
    Mr. Ramotowski. Well, Congressman, as I was saying, we do 
have a process for evaluating our personnel. It is a continuous 
process. Individuals who do not perform to the Service's 
expectations can be denied tenure and removed from Service.
    Mr. Rigell. Thank you, sir. I just would circle back maybe 
around on some written questions that I will submit to 
understand better the metrics of that, if there are actual 
metrics of violations.
    Thank you, Madam Chairwoman.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman will now recognize the gentleman from 
Florida, Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Madam Chairwoman.
    I appreciate you giving me the opportunity to participate 
today.
    According to the Homeland Security Department's numbers, 
more than 7,300 foreign students have left school early for 
various reasons but illegally remain in the United States. More 
than 800,000 students in the United States participate in the 
Student and Exchange Visitor Program. Most of them come here 
for noble intentions. While not all would-be terrorists come to 
the United States under the guise of a student visa, we have 
seen examples where several have. I know everyone--well, we 
have examples right here.
    For this reason, I have long advocated for legislation of 
the Student Visa Security Improvement Act, which I introduced 
to ensure that student visas are issued to those genuinely 
interested in obtaining an education. It seeks to ensure that 
once allowed into the country on a student visa, students are 
actually here to study and do not drop off the radar. So I have 
a couple of questions here.
    Secretary Ramotowski, to what extent does the State 
Department coordinate with DHS to review and screen student 
applications for security concerns?
    Mr. Ramotowski. Congressman, student visa applicants are 
screened through the same intensive process that all these 
applicants are screened with, with some additional features. 
They have their fingerprints taken and screened through our 
biometric fingerprint systems. We also use facial recognition 
technology to screen those applicants. We conduct an intensive 
visa interview with consular officers in the local language or 
in English. In addition to that, we utilize extensively the 
Immigration and Customs Enforcement SEVIS system to ensure that 
the student is attending a registered school and has in fact 
completed the registration process at that school.
    As I mentioned in my remarks, after the visa is issued, 
there is a continuous vetting process of all issued visas, such 
that if at any time derogatory information surfaces from any 
source, law enforcement or intelligence, it can be promptly 
analyzed and the visa can be reviewed for possible revocation. 
So, yes, we work very closely with Homeland Security and our 
other partner agencies on these cases.
    Mr. Bilirakis. Well, why is it then that we have 7,300 
students that are here--or former students that are here 
illegally in the United States? How can we help you with that 
issue?
    Mr. Ramotowski. I think, Congressman, and I obviously can't 
speak for them, but individuals overstay for a variety of 
reasons. We are continually reviewing our processes at our 
posts abroad to ensure that if there is a change in the 
country, perhaps economic activity, an economic crisis or 
something of that sort, that our officers are fully aware when 
they make their visa adjudication decisions that there might be 
other factors encroaching on an individual's decision whether 
to comply with our immigration laws or not. We will never 
knowingly issue anyone who is unqualified or has an intention 
to overstay in the United States a visa.
    Mr. Bilirakis. Are we searching for those individuals, 
those 7,300, that are located here in the United States? Do we 
have any idea where they are?
    Mr. Ramotowski. I will defer to my Homeland Security 
colleagues on that one.
    Mr. Edge. If I may, Congressman, ICE is working very 
closely with the Department of State in sharing our various 
databases. Currently we have more than 10,364 institutions as a 
part of the SEVP program, and we follow up with the various 
institutions on a regular basis to determine if these students 
are remaining in school. So those students that certainly are 
out there as overstays, their names are being vetted through 
the various systems that we highlighted earlier in our 
testimony today, and they are being prioritized. We certainly 
would be looking for the most egregious ones, those that pose a 
threat to our National security.
    Mr. Bilirakis. Thank you.
    For the entire panel, to what extent are some fraudulent 
educational institutions able to serve as visa mills and as a 
back door into the country? What tools exist or are needed to 
close this loophole, for the entire panel?
    Mr. Stana. Well, I will start off. I think what my other 
panelists said was probably what we all wish for. We all hope 
that the information provided by the educational institutions 
is accurate and there is no fraud. Our work has shown, however, 
that that is just not the case. Sometimes information which ICE 
depends on to do its casework is submitted late into SEVIS or 
not at all. The students themselves don't update the 
information that they have to update about their job status, so 
it may appear that they are still in school.
    There is fraud involved, Mr. Bilirakis. I think you 
mentioned that is what you alluding to, at universities. There 
was one in the paper I think, and I am not saying this was 
fraudulent, but University of Northern Virginia, that was 
alleged to be of the type that you are saying.
    So I think that we have to take more steps than we have in 
the past to make sure that this is as seamless as we would like 
it to be. Right now it is not. There are too many inaccuracies 
in the data, and there are too many cases of fraud in 
connection with these schools, other people taking the 
students' tests for them, people not checking photo IDs when 
they should, and so on.
    Mr. Ramotowski. I would just like to add, Congressman, that 
that underlines the importance of the personal interview that 
our officers conduct and our embassies and consulates. Because 
although someone may submit a fraudulent test paper, a highly 
trained consular officer can often note discrepancies in the 
interview that would open a line of inquiry and lead to the 
denial of that visa.
    In our high-fraud posts, we also have fraud prevention 
units and fraud prevention managers. They are dedicated to 
ensuring the integrity of the visa system. They investigate 
questionable cases and provide the results of those 
investigations back to the visa officers. So we take this 
concern very seriously, and we work closely, again, with 
Homeland Security in maintaining the integrity of the process.
    Mr. Bilirakis. Madam Chairwoman, I know my time has 
expired. I have one additional question, but I will wait for 
the second round.
    Mrs. Miller. Okay. Thank the gentleman.
    The Chairwoman now recognizes the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman, and thank you for 
the timeliness of this hearing.
    It never ceases to amaze me that when we schedule a hearing 
on a topic like this, that we see the administration react in a 
positive manner, and then that is a good thing.
    There was an article today in the AP, ``Broader Security 
Checks to Reduce Visa Overstays.'' It may have been brought up 
earlier, but it is a good thing that we are having an impact, 
so thank you for that.
    I want to address my question, I guess it could go to Mr. 
Edge or Mr. Cohen or Mr. Stana, but visa overstay is definitely 
a topic that concerns folks in my home State of South Carolina, 
because we know that we have got to do a better job than what 
we do in this country. When you see statistics, such as a 
backlog of 1.6 million people have overstayed their visas in 
the United States--and recently you all have vetted those 
through multiple channels, which I will talk about in a minute, 
there are still 839,000 people here that I think Mr. Cohen said 
the Department vetted everyone for potential National security 
and public safety concerns. But there are still 839,000 people 
here that have overstayed their visa in violation of the 
sovereignty of the United States of America, and I just have to 
say, why? Why do we still have 839,000 people here who are here 
illegally?
    Mr. Cohen. Great question, Congressman, and you have made a 
really important point.
    The sad fact is that we do not know until we go through a 
manual vetting process what number of that 839,000 actually are 
either still in this country or have changed immigration 
status. That is why the capabilities I described earlier are so 
important, because in the past, because of resource issues and 
the lack of technical capability, it required US-VISIT, ICE, to 
manually do a series of manual database checks that was 
incredibly time-consuming, so there were large numbers of 
records that were never evaluated. Now, those people may have 
left. They may have changed status; we just did not know that.
    Mr. Duncan. Can you pause right there and explain to me as 
a freshman Congressman what ``change in status'' is, what you 
mean by that?
    Mr. Cohen. Change of status means they came into the 
country under a visa, they may have changed their immigration 
status. They may have extended their visa. They may have 
reapplied for a new visa. They may have applied for a new visa 
with a slight variant in their name.
    Mr. Duncan. Would not we know if they applied for a change 
in status that they are no longer here as a student and they 
have changed and you take them out of that category, wouldn't 
that be automatic?
    Mr. Cohen. In some cases, yes. In some cases, the way that 
the systems had been designed in years past, that information 
was not immediately apparent, and it would require an 
individual, an investigator, or a researcher, to go into 
multiple systems to determine that.
    Mr. Duncan. So if Tom Davis comes into this country from 
Ireland and he realizes he is here on a student visa, he 
overstays his visa, he has gotten a job or he is now consulting 
for a company, and he wants to change that status to here for 
business reasons or whatever, and he comes to your office and 
says, I want to change my immigration status, Tom Davis from 
Ireland, here is my Social Security Number, here is my whatever 
identifying factor that you have, you can't electronically with 
all the abilities we have today take that Tom Davis out of that 
category and put him in another, and he would not be listed in 
the 839,000 people that we are talking about now? Is that that 
difficult?
    Mr. Cohen. The way systems were designed in the past, yes, 
sir, and that is what we are fixing.
    There is one example I can talk to you about the 839,000 
records that we did vet, where we found an individual who came 
based on a visa applied for by her husband. She then changed 
status and got a visa on her own. She is a very good student at 
a southern university. The system would not have automatically 
picked that up and did not. That is what we will be fixing 
through this new capability, this interlinking of systems that 
I referred to earlier, Congressman.
    Mr. Duncan. It is very obvious to me that we have got a 
broken visa system for overstays based on these numbers when 
you vetted over half of them through multiple channels and 
said, okay, those guys have gone back to their country; we 
still have 839,000, 2,000 of which warrant further 
investigation because they are probably here for maybe God 
knows what. But I believe that we have got to pursue in this 
Nation, in my last seconds here, a biometric countercheck so 
that we know when someone leaves this country that they have 
left. If they haven't shown up and left the country within 
their stated time, then we put them in a category that they are 
here illegally and we start running down their last address and 
we start taking care of securing our country.
    The sovereignty of this Nation is very, very important to 
me. It is no wonder we see instances like we recently saw with 
a member of a certain family who has been here, overstayed a 
visa for a very, very long time, so very timely. Thank you.
    I yield back.
    Mrs. Miller. I thank the gentleman for those comments.
    I think the gentleman has demonstrated a frustration that 
many of us feel that when you see an administration who has 
just recently announced their policy that say they are not 
going to deport illegal aliens, known illegal aliens, unless 
they think they are a public safety threat.
    So that is a very unfortunate backdoor amnesty, however you 
want to characterize. It is an end-run around the legislative 
process.
    I am now speaking to other Members of Congress. I don't 
expect any comment from any of our panelists. I am talking 
about an administration-announced policy that I have vehemently 
stated I have a lot of problems with. I think that is going to 
add to our problem. It is going to incentivize others to get 
here, stay here, and knowing that unless they really do 
something criminal, even a DUI, which apparently is not enough 
criminal activity to be a public safety threat to deport an 
individual. That is a significant problem I believe to our 
National security here and to the political will of the 
American people who have demonstrated over and over again they 
want to secure our borders and they want to get rid of a lot of 
the illegal aliens who are here, whether they are overstays or 
what have you.
    I would just comment to Mr. Stana, because you have 
mentioned here--one thing that you said that I felt was very 
interesting, when you said the amount of the budget that we are 
spending to protect, secure our borders and yet here we have 40 
percent plus of all the illegals that are in the country are 
overstays from their visa. You just mentioned specifically with 
ICE that you are only spending 3 percent of your budget on 
these overstays when they are 47 percent of some of the 
problems that we have.
    So I would just ask Mr. Stana, you mentioned about the 
information Mr. Cohen gave today and you looking forward to 
evaluating that. Will the GAO just go ahead and evaluate this? 
Or are you looking for a letter from our subcommittee, or what 
will trigger your analysis and recommendation?
    Mr. Stana. What would trigger a study would be a letter 
from the subcommittee or committee.
    Mrs. Miller. You are going to have it very shortly then.
    Mr. Stana. If both sides would do it, it would be 
advantageous.
    There are a number of questions that were raised. I think 
this is definitely a step in the right direction, but there are 
questions about timeliness and reliability when you are using 
biographic versus biometric. The rest of the system has to be 
resourced to be able to move people along the line to 
deportation, if that is the goal. Of course, you mentioned the 
immigration impact aside from the National security impact, and 
when that part of the tail would be resourced as well. So there 
are lots of questions. As I say, it is a step in the right 
direction. It is something that I am sure you have been looking 
for for awhile. I just would like to see how reliable the 
system would be.
    Mrs. Miller. Very good. That letter will be forthcoming.
    I also want to mention again about the Christmas day 
bomber. Obviously, I come from southeast Michigan. That 
particular incident has sort of faded from the National radar 
screen, but I will tell you, it has not faded in my media 
market, because as we speak, the Christmas day bomber, who is 
now his own attorney, he is his own attorney, and they are 
going through jury selection. It makes me crazy every day I am 
watching this guy going--after we Mirandized him, sent him to 
the University of Michigan, the best burn center in the entire 
Nation, and now he is going through this entire process, and 
how much the city of Detroit actually is having to pay for 
security, et cetera, for this guy going through our system when 
he should be, in my opinion--again I am talking to other 
Members of Congress; I am not looking for any comment from any 
of you, this is an administrative-stated policy--this 
individual in my estimation should be treated as an enemy 
combatant. They are looking at the battlefield in asymmetrical 
terms, and on that particular day, the battlefield was seat 19A 
of that Northwest flight, and that was a battlefield in his 
mind.
    I think we hurt ourselves by not appropriately responding 
to that. But I guess this is a question in regards to him, 
because it is my understanding that running the name through 
the NCIC database, et cetera, that his name as it was 
introduced after his father came to the embassy in Nigeria, et 
cetera, was misspelled. So how has that--I mean, will that 
happen again? What steps have we taken to correct that?
    Mr. Ramotowski. Madam Chairwoman, we have taken a number of 
steps to ensure that that will never happen again. The database 
that we use to store the records for issued visas has fuzzy 
logic for name searches such that a future search, a current 
search with a misspelling will still return all possible 
records and close matches. In addition to that, our embassy in 
Nigeria had forwarded a telegram, as was noted here, to 
Washington indicating that the father had come in and had 
concerns about his son's dealings with extremists in Yemen. 
That was sent as a Visas Viper message. At that time, the 
interagency watch listing guidance did not call for the 
automatic watch listing of that sort of information. That has 
been changed, and at this point, I have no doubt whatsoever 
that Mr. Abdulmutallab would have been watch listed, would be 
watch listed now. The State Department in turn has changed its 
revocation policy. Upon receipt of a Visas Viper message of 
that kind now, we automatically review the issued visa for 
revocation and act upon it, unless a law enforcement or 
intelligence agency has formally asked us not to take action.
    So we have corrected many--all of the State Department 
issues that were identified in the aftermath of the Christmas 
day bomber, and most important of all is the continuous vetting 
of issued visas. Like I mentioned in my remarks, at any time, 
the watch listing system can be updated with new derogatory 
information from whatever source, and that will be vetted 
against the databases of issued visas, so if there is any match 
to a possible visa holder, we will review that and revoke it.
    Mrs. Miller. Thank you very much. I appreciate that 
information, and am very comforted to hear of those corrections 
being made. My final question I would ask of Mr. ICE--excuse 
me, Mr. Edge from ICE. You mentioned about the visa security 
units being in 19 countries, et cetera, and I know you talked a 
little bit about how that is happening in some of the high-risk 
embassies and the consulates, et cetera.
    I thought it was interesting listening to Mr. Ramotowski 
talk about the Department of State and how you handle your 
agents in regards to language skills and various kinds of 
things. I am just wondering how you do with having your agents 
with language skills in these various areas. Also because, 
again, we are talking about budgetary considerations, I am not 
sure, but I would guess that it is very, very expensive to set 
up, to stand up such a unit in any of the consulates or 
embassies, and is there any way of replicating, maybe not 100 
percent, but doing--I am not sure how many others you would 
like to have in a perfect world, what your optimal number 
actually is, is there any way of replicating that State-side to 
assist you from a budgetary standpoint, but really helping us 
prioritize again from a National security perspective?
    Mr. Edge. Well, certainly, the agency could always do more 
with more, but the Congress has been very, very helpful to us 
in setting up the current visa security programs in the various 
countries that we have them in.
    Also hearing my counterparts' statements a little while ago 
from the consular perspective of the interviews that take 
place. During those interviews and the high-risk posts around 
the world, we would certainly have an ICE agent, special agent 
who is highly trained in investigations and interview 
techniques to sit with our Department of State counterpart. It 
would be a joint effort to determine whether or not 
admissibility should be granted and a visa should be issued.
    As far as the expansion of the program, it costs about $2.2 
million to open up an office and $2.2 million to continue the 
full operation of such a post. So we are doing the best we can, 
and we would welcome the continued support of the Congress in 
meeting the requirements of our mission. But our attempt to 
push the borders out and do a lot of this work overseas, as 
well as a lot of the vetting that we spoke about earlier on the 
domestic side, will certainly bolster our borders in countless 
ways.
    Mrs. Miller. Thank you.
    Perhaps GAO could take a look at how that might happen 
State-side as well to do some of those kinds of things, not to 
tell you your business.
    Mr. Stana. Actually, we have. We have looked at some of the 
efforts they have to not only do their work overseas but try 
domestically to do some of the screening via computer matches. 
There was one item, which I think was dropped from the budget 
before it went to OMB, I think it was a $17 million line item, 
which would have enabled a match--matching law enforcement 
databases to visa applications, which would have done the 
initial screening worldwide, $17 million. Given the numbers he 
was talking about, it seems like it might be a bargain. We 
haven't looked at it to see if it was a bargain, but the 
numbers were right.
    Mrs. Miller. Very good. I appreciate you outlining that. I 
am sure my staff has taken a note of that. We are going to look 
at that as we proceed through our budgetary process here in the 
future.
    At this time, the Chairwoman would now recognize Mr. 
Cuellar, our Ranking Member, for his questions.
    Mr. Cuellar. Thank you.
    Before I ask my question, just to be fair to this current 
administration, everything depends on resources. I think what 
President Bush saw, what President Clinton and Bush No. 1 also 
saw the same thing; you can do as much as what Members of 
Congress give you, isn't that correct?
    Mr. Edge. That is correct, Congressman.
    Mr. Cuellar. Isn't it true also that the current 
administration has deported more criminal aliens than any other 
administration?
    Mr. Edge. That is correct, sir.
    Mr. Cuellar. By a lot larger number, is that correct?
    Mr. Edge. That is correct.
    Mr. Cuellar. All right. Thank you.
    Let me go back to the original question I had, but before I 
ask you this thing about the flight training school in south 
Texas. Mr. Stana, I appreciate everything GAO. I am a big fan 
of what you all do. In your testimony, Mr. Stana, you stated 
that the 2010 airlines complied with the requirements that 
verify ESTA approval for almost 98 percent of the Visa Waiver 
Program's passengers prior to boarding. However, the remaining 
2 percent, about 364,000 travelers travel without this Visa 
Waiver Program--without ESTA approval. Tell me what happened 
here in your opinion.
    Mr. Stana. What seems to have happened in those cases--
first off, the statistic went up to 99 percent. I think when we 
looked at that program, the 98 percent figure was from slightly 
prior, so it is getting better all the time.
    In that case, I think it was a computer glitch where the 
computer was down, they couldn't get the ESTA verifications in 
on time. I have no idea how many of these ESTA inquiries result 
in a ``do not board'' or a stop for people. I don't think that 
data is tracked. I might be mistaken, but I don't think that 
data is tracked. But what we did see is that there were about 
650 out of the number you cited that caused enough concern 
that, upon reflection, they said that they shouldn't have been 
allowed to board. But the computer was down; they couldn't get 
the assurances before the person boarded the plane.
    Also, I should note that there is a timing issue here. You 
could submit the ESTA paperwork up to 2 years before a flight, 
and something could happen to you within those 2 years, you get 
a drunk driving conviction or something, which would result in 
an inability to board. All this really means is you have got to 
go to the consulate to get a visa manually as if this were not 
a visa waiver country.
    Mr. Cuellar. Gentlemen, for the other questions dealing 
with the south Texas----
    Mr. Winkowski. If I could just add just a little clarity 
there. When we started up with the ESTA system, we relied on 
the carriers to program this system so they could get a ``no 
board'' message. That took a little while, No. 1. No. 2, all 
ESTA applications are vetted on a continuing basis, like the 
visa. So if you have an individual that has applied for an 
ESTA, the ESTA is good for 2 years, and something happens in 
between that time that individual then is denied the ESTA and 
is notified to go to the embassy for a visa.
    Mr. Cuellar. Thank you.
    Talk to me about south Texas. How do foreigners coming to 
the United States go to a flying school, training school on a 
tourist visa instead of a visa, and then how do we get agencies 
who start pointing the finger to each other and we can't seem 
to coordinate? Apparently, there were no terrorist ties to 
these students, at least from what I have been told, but it is 
just a little concerning that some other country can come in 
and do--you know, somebody from another country could come in 
and do the same thing and get some flight training. Whoever 
wants to handle this.
    Mr. Edge. In this particular instance, Ranking Member 
Cuellar, certainly the SEVP program didn't provide us with the 
information because the flight school was not registered with 
the program. You know, Praat was not a certified school at the 
time in September. What we have to do a better job of certainly 
is to communicate with our fellow Federal agencies, in this 
case the FAA, when they recognize that there are in fact people 
who are here on visitors' visas, a B-1 or B-2, who are enrolled 
in flight school when that should certainly be a F visa, N visa 
or a J visa, which would be more appropriate for that type of 
training.
    If that were the case, we certainly would have had a little 
more vetting, and we would have been able to take a closer look 
at things. What we are doing now is taking a look at the flight 
school itself and conducting an investigation, the particulars 
of which I would be more than happy to offer you a briefing on 
outside of the scope of this hearing to give you a complete in-
depth update, but there is certainly work to be done.
    Mr. Cuellar. Thank you.
    I appreciate it. I appreciate a briefing at a later time on 
that. I would ask you to do that.
    Gentlemen, my time is up. I want to thank all of you. I 
know that from the GAO, and I hope they listen to your good 
recommendations, and hopefully that you will take that in a 
constructive way what the GAO has given you. To all of you I 
really appreciate what you all do to keep our country safe. 
Thank you.
    Thank you, Madam Chairwoman.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes the gentleman from Florida.
    Mr. Bilirakis. Thank you, Madam Chairwoman. I appreciate it 
very much.
    For the panel or whoever would like to respond, what 
percentage of visa applicants are interviewed personally?
    Mr. Ramotowski. Congressman, I will have to take that 
question back. It varies by country, and there is no set 
percentage that we apply. Most first-time applicants in most 
countries are interviewed. Renewal applicants under certain 
circumstances can qualify for a waiver of that interview if 
they are renewing their visa in the same category within 12 
months of the prior visa's expiration. So it would vary by 
country and by post.
    Mr. Bilirakis. If you could get that information to me, I 
would really appreciate it very much.
    Mr. Ramotowski. Yes, sir.
    Mr. Bilirakis. Okay. With regard to the question that the 
Chairwoman asked with regard to the visa security units, I 
understand there are about 50 high-risk units identified by 
DHS, and it is ICE and the Department of State, and there are 
19 in place. Can you please provide this committee with a 
progress report regarding the updated MOU between DHS and 
State?
    Mr. Edge. Certainly, sir, we would be able to provide that 
in writing at your request. We do have 57 high-risk issuing 
posts, and 19 are fully operational at this point in time.
    Mr. Bilirakis. Okay. If you could get that to me, I would 
really appreciate it. Thank you.
    I yield back, Madam Chairwoman.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes the gentleman from South 
Carolina.
    Mr. Duncan. Thank you, Madam Chairwoman.
    First off, let me say, I am Scotch-Irish, and I used 
Ireland earlier in an example only. I don't want the folks in 
Ireland to say I was targeting their country. That happened one 
time when I mentioned the Northern border, and the Canadian 
press wrote something that I was talking of--it gets 
misconstrued. So no ire intended to Ireland at all.
    Gentlemen, let me say first also that my ire is not 
directed at you or the agencies, but rather, I reflect the very 
passionate frustration of many, many Americans when it comes to 
immigration issues. It is in particular something that should 
be easier for us. From the folks in South Carolina looking at 
what Government does, they say this issue, visa-related 
immigration, should be easy because we are allowing guests to 
come into our country. We are giving them access through the 
visa process. It is not like they are just walking across our 
Southern border coming here, and that is a whole other issue of 
immigration, but we are issuing a visa. So it should be easier 
to make sure they don't overstay because we are giving them the 
ability to come here. I know I am simplifying matters in a lot 
of ways.
    Mr. Winkowski, you have been sitting down there very 
patiently. I don't have a question for you, but I want to say 
thank you to you also. I met Chief Fisher a number of times, 
and I appreciate what you guys do.
    My staff would like me to ask you a question, but I am 
really interested in the fact that if we have got Visa Security 
Program, if it is designated to be risk-based and the program 
is supposed to be active in the riskiest of countries, why are 
11 of the top 20 high-risk posts not included? At high-risk 
posts where there are no visa security agents, what is the 
consular process for ensuring terror threats do not receive a 
visa?
    I guess I will direct that to Mr. Edge.
    Mr. Edge. Well, the process to determine what posts are 
high-risk certainly is determined by the funding that is 
available. We also work very closely with the Department of 
State to determine at what posts would warrant based on the 
visa applications and other metrics, what posts would warrant a 
visa security unit overseas.
    Mr. Ramotowski. Let me follow up, Congressman, if I could, 
from the State Department's perspective. We screen all our 
applicants as if they are high-risk in the sense that you can't 
guarantee where the next threat will come from. So all of our 
posts and all of our officers are trained to use our systems, 
to conduct intensive interviews and to be prepared to refuse 
visas to individuals who seek to do us harm, regardless of 
where in the world they actually apply for a visa. In this era 
of globalization, you can't predict where the next case will 
come from.
    Mr. Duncan. Mr. Stana, what checks are not done with that 
regard?
    Mr. Stana. You mean if the VSU is not at a post?
    Mr. Duncan. Yes, sir.
    Mr. Stana. It is just like Mr. Ramotowski said, they do a 
certain amount of vetting. The added security from the ICE 
person being there comes from their ability to use their law 
enforcement experience to maybe query another data set that 
isn't normally queried or ask the kinds of questions that a law 
enforcement background should give you.
    But I would like to make one other point, Mr. Duncan. I 
think your point is a good one with the 11 of 20 high-risk 
posts not being staffed by VSUs. On the other end, there is a 
large number of the bottom 25 percent posts that are staffed 
with VSUs. I mean, there might be a rational reason why they 
would be there, but it would be good to reexamine that in the 
light that maybe some of those folks in the bottom 25 percent 
risk category, at least some of them, might be better served 
being in the top-risk posts.
    Mr. Duncan. I know overseas service is very expensive, and 
so we have got CBP folks at overseas locations and consular 
affairs. Is there a way or are you looking at maybe bringing 
some of those people home that are stationed there and working 
more closely with U.S.-based? It is a flat world. We have got 
X-rays being looked at, they are taken here, looked at 
overnight in another country; it is a 24-hour cycle. So are we 
considering some of that to make it more cost-efficient? I will 
ask Mr. Winkowski that.
    Mr. Winkowski. Congressman, that is a very good question. 
What we have done in Customs and Border Protection is we have 
taken a hard look at our immigration advisory program that we 
have in eight countries of about 40 officers. We continue to 
evaluate the need to have officers in certain locations as well 
as the need to have them in different locations. So, for 
example, in Korea, we had made the decision that we did not 
need to have individuals at the airport in Korea, rather we 
could handle virtually, your point of the world being flat, 
that we could handle it out of our regional carrier liaison 
group out of Honolulu. So what happens is as that advanced 
information and that pre-departure information is sent through 
the system, that particular unit looks at that, identifies 
individuals that we believe are high-risk, perhaps has a visa 
that has been revoked, perhaps is a TSDB, perhaps has some type 
of admissibility issue, and we coordinate with the host 
government and the airlines to prevent that person from going 
on the aircraft.
    Conversely, there are other locations, for example 
Heathrow, very active, a lot of feeder flights in from areas of 
strategic importance, and we see a need to have those people 
there. So we are continuing to evaluate on a regular occurring 
basis, because as you point out, it is very, very expensive.
    Mr. Duncan. So you have got a good relationship with the 
host countries is what you are saying?
    Mr. Winkowski. Yes, we do. We have a very, very good 
relationship.
    Mr. Duncan. Madam Chairwoman, is there a way we can get the 
GAO to make sure, or request and to make sure that the 
ultimate--the most technology is being used to keep the costs 
down, but at the end of the day, we don't want any undie bomber 
to get on a plane and come to this country and create harm. So 
I appreciate what they do, but I also want to make sure we are 
getting the most bang for the buck for the taxpayer.
    Mrs. Miller. Absolutely. We will talk to the GAO about that 
and perhaps incorporate some of those requests in this letter 
that we will be drafting very shortly.
    I thank the gentleman.
    I thank certainly all of the panelists. I think this has 
been an excellent hearing. As we started at the outset talking 
about here we are on the 10th anniversary of the horrific, 
horrific attacks of our Nation on 9/11 and whether or not 
terrorists continue to exploit our visa system. It is clear 
from the testimony that we have had today that we have come a 
very long way, and I think we are making enormous progress and, 
again, as Mr. Cohen has outlined today a huge step forward.
    But you know the largest room is always a room for 
improvement, and we have to continue to do that. Again, it is 
Congress' responsibility to provide the oversight to the 
various agencies, and it is our responsibility as well to 
budget the dollars and to make sure that the agencies 
understand our priorities and that we all work together 
cooperatively. I think we need to obviously continue to 
highlight some of our progress, but also not be afraid to take 
a very candid focus on what we need to do as a Nation to 
continue to secure our borders, to, as I mentioned at the 
outset, under our Constitution, our Constitutional 
responsibilities to secure our borders and to keep our citizens 
safe.
    So I would also mention to the Members that if they have 
any additional questions, the hearing record will be held open 
for 10 days, and they can submit those questions for the 
record. Again, we thank all of our witnesses for coming today. 
The committee is adjourned.
    [Whereupon, at 12:00 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
